<html>
<title> - CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS</title>
<body><pre>[Senate Hearing 113-515, Part 8]
[From the U.S. Government Publishing Office]









                                                 S. Hrg. 113-515, Pt. 8
 
             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

              MARCH 12, APRIL 1, MAY 13, and MAY 20, 2014

                               ----------                              

                           Serial No. J-113-1

                               ----------                              

                                 Part 8

                               ----------                              

         Printed for the use of the Committee on the Judiciary






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                                                 S. Hrg. 113-515, Pt. 8

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

              MARCH 12, APRIL 1, MAY 13, and MAY 20, 2014

                               __________

                           Serial No. J-113-1

                               __________

                                 Part 8

                               __________

         Printed for the use of the Committee on the Judiciary





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-285 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
     
     
     
     
     
     
     
     
     




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                       MARCH 12, 2014, 9:30 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Dick, a U.S. Senator from the State of Illinois 
  presenting Staci Michelle Yandle, Nominee to be District Judge 
  for the Southern District of Illinois..........................     5
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa,
    prepared statement...........................................   246
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont,
    prepared statement...........................................   245

                               PRESENTERS

Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania presenting Cheryl Ann Krause, Nominee to be 
  Circuit Judge for the Third Circuit............................     3
Heller, Hon. Dean, a U.S. Senator from the State of Nevada 
  presenting
  Richard Franklin Boulware II...................................     9
Murray, Hon. Patty, a U.S. Senator from the State of Washington 
  presenting Hon. Salvador Mendoza, Jr., Nominee to be District 
  Judge for the Eastern District of Washington...................     2
Reid, Hon. Harry, a U.S. Senator from the State of Nevada 
  presenting
  Richard Franklin Boulware II...................................    11
Toomey, Hon. Patrick J., a U.S. Senator from the State of 
  Pennsylvania
  presenting Cheryl Ann Krause, Nominee to be Circuit Judge for 
  the Third Circuit..............................................     4

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................    25
Boulware, Richard Franklin, II, Nominee to be U.S. District Judge 
  for the District of Nevada.....................................     7
    biographical information.....................................    77
Krause, Cheryl Ann, Nominee to be U.S. Circuit Judge for the 
  Third Circuit..................................................     7
    biographical information.....................................    26
Mendoza, Hon. Salvador, Jr., Nominee to be U.S. District Judge 
  for the Eastern District of Washington.........................     8
    biographical information.....................................   117
Rodriguez, Leon, Nominee to be Director of the U.S. Citizenship 
  and Immigration Services, U.S. Department of Homeland Security.    10
    biographical information.....................................   198
    prepared statement...........................................   242
Yandle, Staci Michelle, Nominee to be U.S. District Judge for the 
  Southern District of Illinois..................................    10
    biographical information.....................................   162

                               QUESTIONS

Questions submitted to Nominees Richard Franklin Boulware, II, 
  Cheryl Ann Krause, Hon. Salvador Mendoza, Jr., and Staci 
  Michelle Yandle by Senator Cruz................................   282
Questions submitted to Richard Franklin Boulware, II, by Senator 
  Grassley.......................................................   254
Questions submitted to Cheryl Ann Krause by Senator Grassley.....   249
Questions submitted to Hon. Salvador Mendoza, Jr., by Senator 
  Grassley.......................................................   258
Questions submitted to Leon Rodriguez by:
    Senator Feinstein............................................   248
    Senator Grassley.............................................   266
    Follow-up questions submitted by Senator Grassley............   273
    Senator Hatch................................................   280
Questions submitted to Staci Michelle Yandle by Senator Grassley.   262

                                ANSWERS

Responses of Richard Franklin Boulware, II, to questions 
  submitted by:
    Senator Cruz.................................................   307
    Senator Grassley.............................................   299
Responses of Cheryl Ann Krause to questions submitted by:
    Senator Cruz.................................................   296
    Senator Grassley.............................................   283
Responses of Hon. Salvador Mendoza, Jr., to questions submitted 
  by:
    Senator Cruz.................................................   319
    Senator Grassley.............................................   310
    attachment...................................................   321
Responses of Leon Rodriguez to questions submitted by:
    Senator Feinstein............................................   347
    Senator Grassley.............................................   348
    Follow-up questions submitted by Senator Grassley............   371
    Senator Hatch................................................   345
Responses of Staci Michelle Yandle to questions submitted by:
    Senator Cruz.................................................   343
    Senator Grassley.............................................   335

      LETTER RECEIVED WITH REGARD TO RICHARD FRANKLIN BOULWARE, II

American Bar Association, January 17, 2014, letter...............   396

           LETTERS RECEIVED WITH REGARD TO CHERYL ANN KRAUSE

American Bar Association, February 6, 2014, letter...............   389
Bibas, Stephanos, et al., March 7, 2014, letter..................   393
Brest, Paul, et al., March 10, 2014, letter......................   391
Clarification by Cheryl Ann Krause to the U.S. Senate Committe on 
  the Judicary, March 13, 2014, letter...........................   395

       LETTER RECEIVED WITH REGARD TO HON. SALVADOR MENDOZA, JR.

American Bar Association, January 17, 2014, letter...............   398

             LETTERS RECEIVED WITH REGARD TO LEON RODRIGUEZ

Grifa, Lori, January 15, 2014, letter............................   408
Hawkins, Dennis R., Esq., January 27, 2014, letter...............   410
Honda, Hon. Michael M., a Representative in Congress from the 
  State of California, February 14, 2014, letter.................   412
Johnson, J. Alan, January 9, 2014, letter........................   402
Manger, J. Thomas, January 14, 2014, letters.....................   404
Major Cities Chiefs Association, January 14, 2014, letter........   414
Wallenstein, Arthur M., January 14, 2014, letter.................   406

          LETTER RECEIVED WITH REGARD TO STACI MICHELLE YANDLE

American Bar Association, January 17, 2014, letter...............   400

                MISCELLANEOUS SUBMISSION FOR THE RECORD

Ros-Lehtinen, Ileana, a Representative in Congress from the State 
  of Florida,....................................................
    prepared statement with regard to Leon Rodriguez, Nominee to 
      be Director of the U.S. Citizenship and Immigration 
      Services, U.S. Department of Homeland Security.............   415








                            C O N T E N T S

                              ----------                              

                       APRIL 1, 2014, 10:04 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

Coons, Hon. Christopher, a U.S. Senator from the State of 
  Delaware.......................................................   417
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   418

                               PRESENTERS

Nelson, Hon. Bill, a U.S. Senator from the State of Florida 
  presenting
  Hon. Beth Bloom, Nominee to be District Judge for the Southern 
  District of Florida; Paul G. Byron, Nominee to be District 
  Judge for the Middle District of Florida; Hon. Darrin P. 
  Gayles, Nominee to be District Judge for the Southern District 
  of Florida; and Hon. Carlos Eduardo Mendoza, Nominee to be 
  District Judge for the Middle District of Florida..............   418
Rubio, Hon. Marco, a U.S. Senator from the State of Florida 
  presenting Hon. Beth Bloom, Nominee to be District Judge for 
  the Southern District of Florida; Paul G. Byron, Nominee to be 
  District Judge for the Middle District of Florida; Hon. Darrin 
  P. Gayles, Nominee to be District Judge for the Southern 
  District of Florida; and Hon. Carlos Eduardo Mendoza, Nominee 
  to be District Judge for the Middle District of Florida........   419

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   433
Bloom, Hon. Beth, Nominee to be U.S. District Judge for the 
  Southern District of Florida...................................   422
    biographical information.....................................   434
Byron, Paul G., Nominee to be U.S. District Judge for the Middle 
  District of Florida............................................   422
    biographical information.....................................   505
    questionnaire update letter, March 25, 2014..................   559
Gayles, Hon. Darrin P., Nominee to be U.S. District Judge for the 
  Southern
  District of Florida............................................   423
    biographical information.....................................   575
Mendoza, Hon. Carlos Eduardo, Nominee to be U.S. District Judge 
  for the Middle District of Florida.............................   423
    biographical information.....................................   631

                               QUESTIONS

Questions submitted to all Nominees by Senator Cruz..............   694
Questions submitted to Hon. Beth Bloom by Senator Grassley.......   680
Questions submitted to Paul G. Byron by Senator Grassley.........   684
Questions submitted to Hon. Darrin P. Gayles by Senator Grassley.   688
Questions submitted to Hon. Carlos Eduardo Mendoza by Senator 
  Grassley.......................................................   690

                                ANSWERS

Responses of Hon. Beth Bloom to questions submitted by:
    Senator Cruz.................................................   703
    Senator Grassley.............................................   695
Responses of Paul G. Byron to questions submitted by:
    Senator Cruz.................................................   715
    Senator Grassley.............................................   706
Responses of Hon. Darrin P. Gayles to questions submitted by:
    Senator Cruz.................................................   722
    Senator Grassley.............................................   718
Responses of Hon. Carlos Eduardo Mendoza to questions submitted 
  by:
    Senator Cruz.................................................   730
    Senator Grassley.............................................   724

             LETTER RECEIVED WITH REGARD TO HON. BETH BLOOM

American Bar Association, February 6, 2014, letter...............   732

              LETTER RECEIVED WITH REGARD TO PAUL G. BYRON

American Bar Association, February 6, 2014, letter...............   734

         LETTERS RECEIVED WITH REGARD TO HON. DARRIN P. GAYLES

American Bar Association, February 6, 2014, letter...............   736
Chacon, Raul J., Jr., March 31, 2014, letter.....................   744
Keys, Carol F., Esq., March 31, 2014, letter.....................   738
Poston, Rebekah J., March 31, 2014, letter.......................   742
Rosier, Patricia, Esq., April 1, 2014, letter....................   749
Strader, Yolanda P., March 31, 2014, letter......................   739
Wilkie D. Ferguson, Jr. Bar Association, March 31, 2014, letter..   746

       LETTER RECEIVED WITH REGARD TO HON. CARLOS EDUARDO MENDOZA

American Bar Association, February 6, 2014, letter...............   751

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Nelson, Hon. Bill, a U.S. Senator from the State of Florida,
    prepared statement with regard to Hon. Beth Bloom, Nominee to 
      be District Judge for the Southern District of Florida.....   753
    prepared statement with regard to Paul G. Byron, Nominee to 
      be District Judge for the Middle District of Florida.......   754
    prepared statement with regard to Hon. Darrin P. Gayles, 
      Nominee to be District Judge for the Southern District of 
      Florida....................................................   753
    prepared statement with regard to Hon. Carlos Eduardo 
      Mendoza, Nominee to be District Judge for the Middle 
      District of Florida........................................   754

   
   
                                 C O N T E N T S

                              ----------                              

                        MAY 13, 2014, 9:30 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................   755
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   756
Leahy, Hon. Patrick J. Leahy, a U.S. Senator from the State of 
  Vermont,
    prepared statement...........................................  1280

                               PRESENTERS

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia 
  presenting Hon. Julie E. Carnes, Nominee to be Circuit Judge 
  for the Eleventh Circuit; Jill A. Pryor, Nominee to be Circuit 
  Judge for the Eleventh Circuit; Leslie Joyce Abrams, Nominee to 
  be District Judge for the Middle District of Georgia; Hon. 
  Michael P. Boggs, Nominee to be District Judge for the Northern 
  District of Georgia; Mark Howard Cohen, Nominee to be District 
  Judge for the Northern District of Georgia; Leigh Martin May, 
  Nominee to be District Judge for the Northern District of 
  Georgia; and Hon. Eleanor Louise Ross, Nominee to be District 
  Judge for the Northern District of Georgia.....................   757
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia 
  presenting Hon. Julie E. Carnes, Nominee to be Circuit Judge 
  for the Eleventh Circuit; Jill A. Pryor, Nominee to be Circuit 
  Judge for the Eleventh Circuit; Leslie Joyce Abrams, Nominee to 
  be District Judge for the Middle District of Georgia; Hon. 
  Michael P. Boggs, Nominee to be District Judge for the Northern 
  District of Georgia; Mark Howard Cohen, Nominee to be District 
  Judge for the Northern District of Georgia; Leigh Martin May, 
  Nominee to be District Judge for the Northern District of 
  Georgia; and Hon. Eleanor Louise Ross, Nominee to be District 
  Judge for the Northern District of Georgia.....................   759

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   807
Abrams, Leslie Joyce, Nominee to be U.S. District Judge for the 
  Middle District of Georgia.....................................   768
    biographical information.....................................  1010
Boggs, Hon. Michael P., Nominee to be U.S. District Judge for the 
  Northern District of Georgia...................................   768
    biographical information.....................................  1044
    questionnaire update letter, April l0, 2014..................  1107
Carnes, Hon. Julie E., Nominee to be U.S. Circuit Judge for the 
  Eleventh Circuit...............................................   760
    biographical information.....................................   808
Cohen, Mark Howard, Nominee to be U.S. District Judge for the 
  Northern District of Georgia...................................   769
    biographical information.....................................  1133
May, Leigh Martin, Nominee to be U.S. District Judge for the 
  Northern District of Georgia...................................   770
    biographical information.....................................  1181
Pryor, Jill A., Nominee to be U.S. Circuit Judge for the Eleventh 
  Circuit........................................................   762
    biographical information.....................................   908
    questionnaire update letter, January 3, 2013.................   964
    questionnaire update letter, January 10, 2014................   989
Ross, Hon. Eleanor Louise, Nominee to be U.S. District Judge for 
  the Northern District of Georgia...............................   771
    biographical information.....................................  1234

                               QUESTIONS

Questions submitted to all Nominees by Senator Cruz..............  1312
Questions submitted to Leslie Joyce Abrams by Senator Grassley...  1292
Questions submitted to Hon. Michael P. Boggs by:
    Senator Blumenthal...........................................  1335
    Follow-up questions submitted by Senator Blumenthal..........  1339
    Senator Coons................................................  1333
    Senator Feinstein............................................  1321
    Senator Franken..............................................  1331
    Senator Grassley.............................................  1296
    Senator Leahy................................................  1313
    Follow-up questions submitted by Senator Leahy...............  1319
Questions submitted to Hon. Julie E. Carnes by Senator Grassley..  1281
Questions submitted to Mark Howard Cohen by:
    Senator Grassley.............................................  1301
    Senator Leahy................................................  1316
Questions submitted to Leigh Martin May by Senator Grassley......  1305
Questions submitted to Jill A. Pryor by Senator Grassley.........  1286
Questions submitted to Hon. Eleanor Louise Ross by Senator 
  Grassley.......................................................  1308

                                ANSWERS

Responses of Leslie Joyce Abrams to questions submitted by:
    Senator Cruz.................................................  1381
    Senator Grassley.............................................  1374
    attachment...................................................  1384
Responses of Hon. Michael P. Boggs to questions submitted by:
    Senator Blumenthal...........................................  1585
    Follow-up questions submitted by Senator Blumenthal..........  1596
    Senator Coons................................................  1580
    Senator Cruz.................................................  1542
    Senator Feinstein............................................  1553
    Senator Franken..............................................  1577
    Senator Grassley.............................................  1529
    Senator Leahy................................................  1545
    Follow-up questions submitted by Senator Leahy...............  1593
    attachment one...............................................  1605
    attachment two...............................................  1622
    attachment three.............................................  1638
    attachment four..............................................  1652
    attachment five..............................................  1662
    attachment six...............................................  1667
Responses of Hon. Julie E. Carnes to questions submitted by:
    Senator Cruz.................................................  1353
    Senator Grassley.............................................  1342
Responses of Mark Howard Cohen to questions submitted by:
    Senator Cruz.................................................  1678
    Senator Grassley.............................................  1671
    Senator Leahy................................................  1681
Responses of Leigh Martin May to questions submitted by:
    Senator Cruz.................................................  1693
    Senator Grassley.............................................  1687
Responses of Jill A. Pryor to questions submitted by:
    Senator Cruz.................................................  1371
    Senator Grassley.............................................  1356
Responses of Hon. Eleanor Louise Ross to questions submitted by:
    Senator Cruz.................................................  1701
    Senator Grassley.............................................  1695

           LETTER RECEIVED WITH REGARD TO LESLIE JOYCE ABRAMS

American Bar Association, March 12, 2014, letter.................  1706

         LETTERS RECEIVED WITH REGARD TO HON. MICHAEL P. BOGGS

Advocacy For Action, Inc., January 10, 2014, letter..............  1713
American Bar Association, December 20, 2013, letter..............  1708
Draper, Lucy Hargrett, January 9, 2014, letter...................  1712
Fort, Hon. Vincent D., Georgia State Senate, January 15, 2014, 
  letter.........................................................  1715
Human Rights Campaign (HRC), May 14, 2014, letter................  1723
Johnson, Hon. Henry C. ``Hank,'' Jr., a Representative in 
  Congress from the State of Georgia, May 20, 2014, letter.......  1718
Lambda Legal, May 9, 2014, letter................................  1725
Leadership Conference on Civil and Human Rights, The, May 12, 
  2014, letter...................................................  1734
Murry, Dorian, May 8, 2014, letter...............................  1717
NARAL Pro-Choice America et al., February 20, 2014, letter.......  1720
National Council of Jewish Women (NCJW), May 12, 2014, letter....  1728
People For the American Way, May 14, 2014, letter................  1729
Scott, David, a Representative in Congress from the State of 
  Georgia,
  January 3, 2014, letter........................................  1710

          LETTER RECEIVED WITH REGARD TO HON. JULIE E. CARNES

American Bar Association, December 20, 2013, letter..............  1703

           LETTERS RECEIVED WITH REGARD TO MARK HOWARD COHEN

American Bar Association, December 20, 2013, letter..............  1736
Levitas, Elliott H., March 20, 2014, letter......................  1738

            LETTER RECEIVED WITH REGARD TO LEIGH MARTIN MAY

American Bar Association, December 20, 2013, letter..............  1740

              LETTER RECEIVED WITH REGARD TO JILL A. PRYOR

American Bar Association, February 16, 2012, letter..............  1705

        LETTER RECEIVED WITH REGARD TO HON. ELEANOR LOUISE ROSS

American Bar Association, December 20, 2013, letter..............  1742

                            C O N T E N T S

                              ----------                              

                         MAY 20, 2014, 10 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....  1745
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California
  presenting Andre Birotte, Jr., Nominee to be District Judge for 
  the
  Central District of California.................................  1750

                               PRESENTERS

Landrieu, Hon. Mary, a U.S. Senator from the State of Louisiana 
  presenting John W. deGravelles, Nominee to be District Judge 
  for the Middle District of Louisiana...........................  1746
McCaskill, Hon. Claire, a U.S. Senator from the State of Missouri 
  presenting Hon. Ronnie L. White, Nominee to be District Judge 
  for the Eastern
  District of Missouri...........................................  1747
Nelson, Hon. Bill, a U.S. Senator from the State of Florida 
  presenting
  Hon. Robin L. Rosenberg, Nominee to be District Judge for the 
  Southern
  District of Florida............................................  1748
Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
  District of Columbia presenting Randolph D. Moss, Nominee to be 
  District Judge for the District of Columbia....................  1749

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................  1769
Birotte, Andre, Jr., Nominee to be U.S. District Judge for the 
  Central District of California.................................  1752
    biographical information.....................................  1770
deGravelles, John W., Nominee to be U.S. District Judge for the 
  Middle District of Louisiana...................................  1754
    biographical information.....................................  1854
Moss, Randolph D., Nominee to be U.S. District Judge for the 
  District of Columbia...........................................  1754
    biographical information.....................................  1948
    questionnaire update letter, May 15, 2014....................  2024
Rosenberg, Hon. Robin L., Nominee to be U.S. District Judge for 
  the Southern District of Florida...............................  1755
    biographical information.....................................  2161
White, Hon. Ronnie L., Nominee to be U.S. District Judge for the 
  Eastern District of Missouri...................................  1757
    biographical information.....................................  2226

                               QUESTIONS

Questions submitted to all Nominees by Senator Cruz..............  2312
Questions submitted to Andre Birotte, Jr., by Senator Grassley...  2289
Questions submitted to John W. deGravelles by Senator Grassley...  2294
Questions submitted to Randolph D. Moss by Senator Grassley......  2299
Questions submitted to Hon. Robin L. Rosenberg by Senator 
  Grassley.......................................................  2304
Questions submitted to Hon. Ronnie L. White by Senator Grassley..  2308

                                ANSWERS

Responses of Andre Birotte, Jr., to questions submitted by:
    Senator Cruz.................................................  2323
    Senator Grassley.............................................  2313
Responses of John W. deGravelles to questions submitted by:
    Senator Cruz.................................................  2335
    Senator Grassley.............................................  2326

Responses of Randolph D. Moss to questions submitted by:
    Senator Cruz.................................................  2348
    Senator Grassley.............................................  2337
Responses of Hon. Robin L. Rosenberg to questions submitted by:
    Senator Cruz.................................................  2358
    Senator Grassley.............................................  2351
Responses of Hon. Ronnie L. White to questions submitted by:
    Senator Cruz.................................................  2369
    Senator Grassley.............................................  2360

           LETTER RECEIVED WITH REGARD TO ANDRE BIROTTE, JR.

American Bar Association, April 4, 2014, letter..................  2371

           LETTER RECEIVED WITH REGARD TO JOHN W. DEGRAVELLES

American Bar Association, March 14, 2014, letter.................  2373

            LETTER RECEIVED WITH REGARD TO RANDOLPH D. MOSS

American Bar Association, April 4, 2014, letter..................  2375

         LETTER RECEIVED WITH REGARD TO HON. ROBIN L. ROSENBERG

American Bar Association, February 26, 2014, letter..............  2377

          LETTERS RECEIVED WITH REGARD TO HON. RONNIE L. WHITE

American Bar Association, November 8, 2013, letter...............  2379
Aron, Nan, May 19, 2014, letter..................................  2386
Fraternal Order of Police-Missouri State Lodge, May 13, 2014, 
  letter.........................................................  2381
Leadership Conference on Civil and Human Rights, The, May 19, 
  2014, letter...................................................  2382
People For the American Way, May 19, 2014, letter................  2384

                     ALPHABETICAL LIST OF NOMINEES

Abrams, Leslie Joyce, Nominee to be U.S. District Judge for the 
  Middle District of Georgia.....................................   768
Birotte, Andre, Jr., Nominee to be U.S. District Judge for the 
  Central District of California.................................  1752
Bloom, Hon. Beth, Nominee to be U.S. District Judge for the 
  Southern District of Florida...................................   422
Boggs, Hon. Michael P., Nominee to be U.S. District Judge for the 
  Northern District of Georgia...................................   768
Boulware, Richard Franklin, II, Nominee to be U.S. District Judge 
  for the District of Nevada.....................................     7
Byron, Paul G., Nominee to be U.S. District Judge for the Middle 
  District of Florida............................................   422
Carnes, Hon. Julie E., Nominee to be U.S. Circuit Judge for the 
  Eleventh Circuit...............................................   760
Cohen, Mark Howard, Nominee to be U.S. District Judge for the 
  Northern District of Georgia...................................   769
deGravelles, John W., Nominee to be U.S. District Judge for the 
  Middle District of Louisiana...................................  1754
Gayles, Hon. Darrin P., Nominee to be U.S. District Judge for the 
  Southern
  District of Florida............................................   423
Krause, Cheryl Ann, Nominee to be U.S. Circuit Judge for the 
  Third Circuit..................................................     7
May, Leigh Martin, Nominee to be U.S. District Judge for the 
  Northern District of Georgia...................................   770
Mendoza, Hon. Carlos Eduardo, Nominee to be U.S. District Judge 
  for the Middle District of Florida.............................   423
Mendoza, Hon. Salvador, Jr., Nominee to be U.S. District Judge 
  for the Eastern District of Washington.........................     8
Moss, Randolph D., Nominee to be U.S. District Judge for the 
  District of Columbia...........................................  1754
Pryor, Jill A., Nominee to be U.S. Circuit Judge for the Eleventh 
  Circuit........................................................   762
Rodriguez, Leon, Nominee to be Director of the U.S. Citizenship 
  and Immigration Services, U.S. Department of Homeland Security.    10
Rosenberg, Hon. Robin L., Nominee to be U.S. District Judge for 
  the Southern District of Florida...............................  1755
Ross, Hon. Eleanor Louise, Nominee to be U.S. District Judge for 
  the Northern District of Georgia...............................   771
White, Hon. Ronnie L., Nominee to be U.S. District Judge for the 
  Eastern District of Missouri...................................  1757
Yandle, Staci Michelle, Nominee to be U.S. District Judge for the 
  Southern District of Illinois..................................    10


 NOMINATIONS OF CHERYL ANN KRAUSE, NOMINEE TO BE CIRCUIT JUDGE FOR THE 
  THIRD CIRCUIT; RICHARD FRANKLIN BOULWARE II, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE DISTRICT OF NEVADA; HON. SALVADOR MENDOZA, JR., NOMINEE 
                      TO BE DISTRICT JUDGE FOR THE
  EASTERN DISTRICT OF WASHINGTON; STACI MICHELLE YANDLE, NOMINEE TO BE
    DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF ILLINOIS; AND LEON 
  RODRIGUEZ, NOMINEE TO BE DIRECTOR, U.S. CITIZENSHIP AND IMMIGRATION 
                             SERVICES, U.S.
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Amy 
Klobuchar, presiding.
    Present: Senators Klobuchar, Durbin, and Grassley.
    Senator Durbin [presiding]. I am pleased to call this 
nominations hearing of the Senate Judiciary Committee to order. 
I know that we have votes scheduled around 10:30, so we will do 
our best to accommodate everyone's schedule.
    I am stepping in here for Senator Klobuchar who will be 
arriving momentarily.
    I want to give a warm welcome to all the nominees. We also 
welcome family and friends who accompany them, and you will 
have an opportunity to introduce them shortly.
    We have five nominees under consideration today. First I 
want to call upon Senators Murray and Casey to introduce the 
nominees from their home States. Senator Patty Murray.

   PRESENTATION OF HON. SALVADOR MENDOZA, JR., NOMINEE TO BE 
DISTRICT JUDGE FOR THE EASTERN DISTRICT OF WASHINGTON, BY HON. 
   PATTY MURRAY, A U.S. SENATOR FROM THE STATE OF WASHINGTON

    Senator Murray. Well, Mr. Chairman, thank you very much. It 
is my privilege today to introduce to this Committee Judge 
Salvador Mendoza, Jr., who has been nominated by the President 
to be the next United States District Judge for the Eastern 
District of Washington. I want to welcome Judge Mendoza. His 
wife, Mia, is with him today; his mother, Maria; and his long-
time legal assistant, Monica; who have traveled out here from 
what we call ``the other Washington.'' And I especially want to 
welcome to this Committee his mother, who is visiting our 
Nation's capital for the very first time to witness her son 
testify before this Committee as a nominee of the President of 
the United States. Maria, I know how proud you must be. And we 
are honored that she is with us today as well.
    Mr. Chairman, it is not every day that I get to introduce a 
nominee who also happens to be a former intern in my office. 
And it is also not every day that a man who is the son of a 
migrant farm worker and who himself worked on the farms in 
Yakima Valley is called on by the President to become the first 
Latino Federal judge in the Eastern District of Washington. So 
as a Senator from Washington State, I am incredibly proud to 
introduce him to this Committee today, because through his 
life's story, Judge Mendoza represents the very best of our 
State's honest, hardworking spirit.
    Madam Chairman, through his work ethic, his commitment to 
his community, and his belief in equal opportunity, Judge 
Mendoza is a leader and a role model for families throughout 
our State and particularly young men and women born into 
poverty and difficult circumstances. In fact, in his 
application to serve as Federal judge, he discussed his own 
upbringing, and I want to quote it to you. He said: ``I worked 
and studied hard to better myself and my family. I understood 
then what I believe now: that both the quality of the 
educational system coupled with a strong system of justice will 
lift up the entire community.''
    Madam Chairman, I could not agree more, and it comes as no 
surprise that throughout his professional life, Judge Mendoza 
has stayed true to those words. From serving as a trustee for 
Columbia Basin College to helping coordinate the annual Tri-
Cities Youth and Justice Conference, to helping to create the 
first drug court for Benton and Franklin counties, Judge 
Mendoza has given his time and experience investing in 
institutions that each and every day lift up communities 
throughout our State. He is currently a superior court judge, 
but his judicial career spans private practice, service as an 
Assistant Attorney General, and years of experience in 
superior, district, municipal, and juvenile court. He is an 
experienced practitioner in Federal court and served from 2010 
to 2013 as lawyer representative to the Ninth Circuit Judicial 
Conference. And through his many years of legal practice and 
judicial experience, Judge Mendoza will come to the Federal 
bench well prepared.
    He has described his judicial philosophy as guided by the 
principles of patience, respect, and humility--the same 
principles that have guided his life and legal career and 
principles that will serve him well as a member of the Federal 
judiciary. So I want to thank Judge Mendoza for his willingness 
to serve Washington State as a Federal judge. I have said time 
and again that as a country we are best when good people are 
willing to give of themselves in service to others. It is 
service to others that has defined Judge Mendoza throughout his 
career and will continue to define him as he assumes the duty 
of this new office. I am very proud to be here today to support 
his nomination. Thank you, Madam Chair.
    Senator Klobuchar [presiding]. Thank you very much, Senator 
Murray.
    Senator Casey, you are here to introduce Cheryl Ann Krause.

           PRESENTATION OF CHERYL ANN KRAUSE, NOMINEE
          TO BE CIRCUIT JUDGE FOR THE THIRD CIRCUIT BY
  HON. ROBERT P. CASEY, JR., A U.S. SENATOR FROM THE STATE OF 
                          PENNSYLVANIA

    Senator Casey. Madam Chair, thank you very much. I am 
honored to be here along with Senator Toomey to speak in favor 
of the nomination of Cheryl Ann Krause to be a member of the 
United States Court of Appeals for the Third Circuit, one of 
our great circuits in the United States.
    I would say first that Cheryl's life has been a commitment 
to excellence, a commitment to public service, and I think it 
is a great American story of hard work and achievement. The 
academic credentials that she brings to this job are 
substantial. She attended Stanford University Law School. She 
clerked for--and the University of Pennsylvania, graduating 
summa cum laude, undergrad. I wanted to make sure I got that 
Pennsylvania, University of Pennsylvania academic credential in 
there. It is significant.
    After law school, Cheryl served Justice Anthony Kennedy on 
the Supreme Court of the United States, later served as a 
prosecutor in the United States Attorney's Office for the 
Southern District of New York for 5 years, where, among other 
things, she was fighting public corruption cases and dealing 
with all kinds of prosecutions involving international bank 
fraud, securities fraud, all the range of prosecutorial 
achievements that she was able to amass in those years.
    I think also when you look at her work as a lawyer in the 
private sector, as a Federal prosecutor, it is a life and a 
degree of excellence that you often do not see. But I think it 
is infused by a deep and abiding commitment to public service. 
And when any of us make a determination about the person we 
should vote for on a district court or appellate court, we, of 
course, consider a range of credentials and questions. One, of 
course, is experience. I think when it comes to experience in 
the private sector or as a Federal prosecutor, as well as a 
whole other range of experiences, very few people would be able 
to outdistance what Cheryl brings to this nomination.
    Second, we ask that the nominees have the kind of 
commitment to public service and the integrity to serve as a 
judge on either the district or appellate court.
    And, third, I think--and these are broad categories, but we 
hope as well that they can be a judge that will not just judge 
fairly but will bring a judicial temperament to their work as a 
judge. I think on that measure as well Cheryl stands out.
    So I think whether it is a combination of academic 
credentials, her broad experience in the public and private 
sector, and especially her experience as a prosecutor, but I 
think overall a commitment to public service is the reason that 
I and so many others have decided to support her nomination 
with enthusiasm and with a degree of intensity that is, I 
think, pretty rare in this town. And I am grateful to have 
worked with Senator Toomey bringing this nomination forward, 
along with the White House and the Obama administration, and so 
we are grateful.
    And I will say finally that Cheryl's family is here. I know 
they will be introduced later. We are especially grateful they 
are here, led by Colonel Bradford R. Everman, her husband, who 
has made a deep commitment to the security of the United 
States, and we are grateful for his service as well.
    Senator Klobuchar. Thank you very much, Senator Casey.
    Senator Toomey.

           PRESENTATION OF CHERYL ANN KRAUSE, NOMINEE
          TO BE CIRCUIT JUDGE FOR THE THIRD CIRCUIT BY
   HON. PATRICK J. TOOMEY, A U.S. SENATOR FROM THE STATE OF 
                          PENNSYLVANIA

    Senator Toomey. Thank you, and good morning, Chairman 
Klobuchar, Senator Grassley, Senator Durbin. Thanks very much 
for giving me this opportunity to help to introduce Cheryl Ann 
Krause.
    I would like to point out that she was nominated by 
President Obama on February 6th, and so I appreciate the timely 
scheduling of this hearing and the progress we are making.
    I also want to take a moment to thank Senator Casey for the 
collaborative efforts that he and I have engaged in. We have 
had eight successful confirmations since I have taken office. 
We still have two very well qualified district court nominees, 
Ed Smith and Gerald McHugh, who are awaiting Senate 
confirmation, which I hope will occur soon. And we have eight 
more district court vacancies that we are working on, but I 
would just point out that this is a case of some terrific 
bipartisan cooperation that is, in fact, making real progress 
for Pennsylvania, and I appreciate Senator Casey's work in this 
area.
    As Senator Casey has already described, Cheryl Ann Krause 
has a very, very impressive personal and professional 
background. She clearly has a wealth of legal experience in 
public service and private practice. Her commitment to the 
community has been very impressive. Her work for children with 
disabilities, a Penn Law School project that supervises law 
students representing indigent defendants. As Senator Casey 
pointed out, she comes from a family that is committed to 
public service, her husband having spent years as a fighter 
pilot for the U.S. military.
    When I met with Ms. Krause, I found her to be a very, very 
impressive candidate, clearly very, very intelligent, very 
knowledgeable about the law, a very thoughtful and careful 
person. I can tell you from the many folks with whom I have 
discussed her candidacy, she has an outstanding reputation in 
the legal community and beyond for excellence, for competence, 
and most importantly to me, for an impeccable character.
    So I am confident that she will make a strong addition to 
the Third Circuit court, and I thank this Committee for its 
time and hope that they favorably report out this nominee.
    Thank you.
    Senator Klobuchar. Thank you very much to both of you. I 
know you want to stay for our entire hearing, but I am sure you 
have other business. Thank you for coming.
    Next, Senator Durbin, thank you for starting this hearing 
out. I had another commitment. He is here to introduce Staci 
Michelle Yandle, to be United States District Judge for the 
Southern District of Illinois.

         PRESENTATION OF STACI MICHELLE YANDLE, NOMINEE
       TO BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF
       ILLINOIS, BY HON. DICK DURBIN, A U.S. SENATOR FROM
                     THE STATE OF ILLINOIS

    Senator Durbin. Thank you, Madam Chair. I am pleased to 
introduce Staci Yandle, nominated to serve as district court 
judge in the Southern District of my State. She has been 
nominated to fill the vacancy in the Benton courthouse when 
Judge Phil Gilbert assumes senior status on March 15th.
    Staci Yandle was born in Centreville, which, 
coincidentally, is the home town of my wife. That had nothing 
to do with her selection.
    [Laughter.]
    Senator Durbin. But it did not hurt. She currently lives in 
Carlyle. She received her undergraduate degree from the 
University of Illinois and her law degree from the Vanderbilt 
University School of Law. Over the course of her legal career, 
Ms. Yandle has gained extensive litigation experience. 
Currently she has her own solo practice in O'Fallon, Illinois, 
which she has operated since 2007, before that working for two 
prominent law firms in southern Illinois--Carr Korein Tillery 
and The Rex Carr Law Firm.
    Ms. Yandle has handled a wide variety of litigation 
matters, including employment, education, medical injury, civil 
rights, nursing home abuse. Most of her cases, she has either 
been sole counsel or lead counsel. She served as an arbitrator 
in the 20th Judicial Circuit Court in Illinois on approximately 
ten occasions. She was appointed to serve on the Illinois 
Advisory Committee to the U.S. Commission on Civil Rights from 
1992 to 1996, and also appointed to serve by the Governor on 
the Illinois Gaming Board from 1999 to 2001; currently served 
on the board of the Illinois Bar Foundation; and she has also 
worked as an adjunct law professor at the St. Louis University 
School of Law; has a distinguished record of pro bono service 
in our area; spent over 50 hours per year representing indigent 
clients and nonprofit corporations, including the nonprofit 
Delta Economic Development Corporation, which operates a child-
care center in my home county of St. Clair.
    Ms. Yandle's nomination is also historic in several 
respects. Never before in Illinois history has there been an 
Article III Federal judge who is openly a member of the LGBT 
community. Upon confirmation, Staci Yandle will be the first. 
Upon confirmation, she will also be the first African American 
Federal judge ever to serve in the Southern District of 
Illinois. And up to this point, no woman has ever served as a 
Federal judge in the Southern District. I believe that Ms. 
Yandle will be preceded by Nancy Rosenstengel, whose nomination 
is currently pending on the Senate floor, and she was the first 
woman ever nominated to serve on that court.
    In short, Staci Yandle's confirmation marks another 
important milestone in the journey toward equality of 
opportunity for all Americans. Ms. Yandle was recommended to me 
by a bipartisan screening committee that I established. I am 
pleased that she has been nominated here before the Committee 
today, and I am going to work with my colleagues to move her 
name through the confirmation process.
    One thing I want to note for the record which is very 
important only in southern Illinois, but extremely important in 
that place: Some are wondering what is going to happen to the 
Benton courthouse. I want to make it very clear that even after 
Judge Gilbert becomes a senior judge, I am committed to 
continuing the active status of a Federal judgeship in Benton, 
which Ms. Yandle will serve in that capacity if approved by the 
U.S. Senate.
    Finally, I will mention that Ms. Yandle is joined here 
today by her mother, Sylvia Yandle; her brother, Brian Yandle, 
and his wife, Sheila; and her nephew, Darell Yandle. Welcome to 
all.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you very much, Senator Durbin.
    We have a series of five votes that start at 10:30, and so 
we are going to change this up a little bit and have all of the 
nominees come up at the same time. And before that starts, I 
wanted to introduce Mr. Leon Rodriguez, who has been nominated 
to serve as Director of U.S. Citizenship and Immigration 
Services in the Department of Homeland Security. He is 
currently the Director for the Office for Civil Rights at the 
U.S. Department of Health and Human Services. He previously 
served as the Deputy Assistant Attorney General and Chief of 
Staff for the Justice Department's Civil Rights Division. He 
was born in Brooklyn, New York. Mr. Rodriguez earned his B.A. 
from Brown University in 1984 and his J.D. from Boston College 
Law School in 1988.
    I also know that both Senator Reid and Senator Heller are 
going to come in about 15 minutes to say some good words of 
introduction for Mr. Boulware, who is nominated to be United 
States District Judge for the District of Nevada, and so we are 
looking forward to their coming to join our Committee. So we 
will have to make a little room or bring up some chairs when 
they join us.
    But before you all come up, Senator Grassley, did you have 
any words before we start?
    Senator Grassley. I will put it in the record.
    Senator Klobuchar. Excellent.
    [The prepared statement of Ranking Member Grassley appears 
as a submission for the record.]
    Senator Klobuchar. Okay. So why don't all the nominees come 
up, and we will swear you in.
    Okay. Do you want to stand? Do you affirm that the 
testimony you are about to give before the Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Ms. Krause. I do.
    Mr. Boulware. I do.
    Judge Mendoza. I do.
    Ms. Yandle. I do.
    Mr. Rodriguez. I do.
    Senator Klobuchar. Thank you very much. Thank you for being 
with us today, and we will start out with Ms. Krause. If you 
want to take a moment to introduce anyone from your family that 
is here with you today, we would love to meet them.

            STATEMENT OF CHERYL ANN KRAUSE, NOMINEE
           TO BE CIRCUIT JUDGE FOR THE THIRD CIRCUIT

    Ms. Krause. Thank you, Senator Klobuchar and Ranking Member 
Grassley, and thanks to the Committee for the opportunity to be 
considered today.
    My appreciation to both Senators Casey and Toomey for their 
gracious words and introduction, and also to the President for 
the profound honor of this nomination.
    With me in support today are many family and friends who 
have traveled from Pennsylvania and elsewhere. We have here my 
husband, Bradford Everman, who is my constant support and 
inspiration to public service.
    With me also are my son, Johnny, and 15-month-old Estelle, 
who, if left to their own devices, would have more to say to 
this Committee than me, and so I think will be excused shortly.
    Senator Klobuchar. She is looking good now, though.
    Ms. Krause. My sister, Elizabeth Krause, and her children, 
Zoe and Eli; my brother and sister-in-law, Aaron and Stephanie 
Krause, and their children, Sophie and Bryce; and many other 
family and friends who have come here.
    I would also like to note that coming from my firm Dechert 
are a number of partners and associates who are here supporting 
me and who are watching from afar, and I thank them all for 
their support.
    [The biographical information of Ms. Krause appears as a 
submission for the record.]
    Senator Klobuchar. Well, thank you very much. I appreciate 
it.
    Mr. Boulware.

   STATEMENT OF RICHARD FRANKLIN BOULWARE II, NOMINEE TO BE 
           DISTRICT JUDGE FOR THE DISTRICT OF NEVADA

    Mr. Boulware. Thank you, Senator Klobuchar. Thank you to 
this Committee. Thank you to the Ranking Member as well for 
being here. I also want to thank my home State Senators, 
Senator Reid and Senator Heller. I want to thank Senator Reid 
for recommending me for this nomination, and I want to thank 
Senator Heller for his support.
    With me today I have family and friends. I have my family 
here: my brother and his wife, Yvette, and their daughter, 
Elizabeth. I have my father, Frederick Boulware, and his wife, 
Pamela Callahan; and, of course, I have my family, three very 
vibrant and young children: my youngest, Zafeen, who is back 
there, who I am sure you will hear talking; my son, Kahlil--she 
is 4 going on 35.
    [Laughter.]
    Mr. Boulware. My son, Kahlil, who is 5 years old, my oldest 
daughter, Oniana; and, of course, the love of my life and my 
partner, Nancy.
    The one person who is not here today is my mother, so I 
want to thank her, too.
    [The biographical information of Mr. Boulware appears as a 
submission for the record.]
    Senator Klobuchar. That is very nice. Very nice. And I do 
see that Senator Heller has arrived. He wants to say a few good 
words about you, and maybe he wants to settle in here, and we 
will have Mr. Mendoza, Judge Mendoza say a few words, and then 
we will go to Senator Heller, and he can say a few good words 
about Mr. Boulware.
    Judge Mendoza, good to see you.

        STATEMENT OF HON. SALVADOR MENDOZA, JR., NOMINEE
         TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT
                         OF WASHINGTON

    Judge Mendoza. Thank you. Good morning, and I would really 
like to thank the Committee for scheduling this hearing so 
promptly after the nomination.
    I want to thank, of course, Senator Murray for those kinds 
words that she had this morning, and also Senator Cantwell for 
her continued support. Along with them, of course, I would like 
to thank Governor Inslee for his support as well.
    I would like to thank President Obama for this incredible 
nomination, this incredible opportunity. I am certainly 
honored.
    Here with me today is my wife, who is an excellent lawyer, 
an excellent wife, and an incredible mother.
    Senator Klobuchar. Which one is your wife? I see three 
women with smiles.
    [Laughter.]
    Judge Mendoza. The people that are not here are my three 
children: Carmen, who is 4; my son, Danny, who is 6, and 
Anthony, who today turns 9 years old, so Happy Birthday, 
Anthony, if you are watching.
    And an important person in my life who is here with me is 
my mother. My father and she--my father passed away in 2008, 
but both of those two individuals taught me an in credible 
amount of what it means to be a good human being, and I 
appreciate that.
    Also with me today is my long-time legal assistant, Monica 
Villanueva, who is not only my legal assistant but a very good 
friend of mine.
    Also, I have my three brothers who are not here, were not 
able to make the trip: Hector, who is taking care of my three 
kids and Josey; and my brothers, Robert--Bobby--and Raul.
    The person who is also not here is my sister, who passed 
away a year and a half ago, but I know that she is with me at 
this moment, and when I lost her, I lost my best friend, and I 
just would like her name to be in the record.
    My friends who are home watching, I appreciate them, 
especially Norma Rodriguez, Mario Anteriano, and Scott Johnson.
    I would also like to thank my colleagues on the superior 
court bench who have been amazing supporters and mentors.
    Also, my friends at the Supreme Court, State of Washington, 
Justice Gonzalez, Justice McCloud, and Justice Johnson, who 
have been very strong supporters.
    Additionally, and finally, I would like to thank the 
Federal bench of the Eastern District of Washington, especially 
Chief Judge Peterson, Judge Suko, and Judge Shea.
    Thank you.
    [The biographical information of Judge Mendoza appears as a 
submission for the record.]
    Senator Klobuchar. Well, thank you very much.
    Senator Heller, you are here to say a few good words about 
Mr. Boulware.

         PRESENTATION OF RICHARD FRANKLIN BOULWARE II,
        NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF
 NEVADA, BY HON. DEAN HELLER, A U.S. SENATOR FROM THE STATE OF 
                             NEVADA

    Senator Heller. I am. Thank you, Senator Klobuchar, and 
also to the Ranking Member, Mr. Grassley, for holding this 
meeting. And I want to congratulate all the nominees who are 
here with us today. Congratulations, Richard. It is good to see 
you again.
    Mr. Boulware. Thank you, Senator. It is good seeing you as 
well.
    Senator Heller. Judicial nominations and subsequent 
confirmations for qualified individuals are one of the most 
important and unique responsibilities we hold as Members of the 
U.S. Senate. Through the role of advice and consent, I believe 
each nominee must be carefully considered, and I am pleased to 
say that I believe we are continuing to accomplish this goal in 
this Congress through bipartisan support.
    In Nevada, where our delegation is certainly not one-sided, 
it is critical for us to work together to find qualified 
candidates who will uphold America's principles of impartiality 
under the law. I believe Mr. Boulware embodies these 
characteristics and serves as an example that, with a bilateral 
effort, we can find middle ground in instances where it is 
necessary.
    That being said, I believe Richard Boulware will make an 
excellent district court judge for the State of Nevada. After 
sitting down with him, discussing his nomination at length, I 
found him to be an extremely impressive nominee.
    A graduate of Harvard University, Mr. Boulware went on to 
earn his law degree from Columbia University in 2003. He 
currently serves as Assistant Public Defender, Federal Public 
Defender for the District of Nevada in Las Vegas.
    He also has extensive experience arguing before the Ninth 
Circuit Court of Appeals. This trial experience, coupled with 
his impressive academic accomplishments while clerking for the 
U.S. district court, I believe will serve him well on the 
bench. Outside of his professional duties, he is currently 
serving his local school system as a member of the 
Superintendent's Educational Opportunities Advisory Committee.
    Again, congratulations, and thank you again for the 
opportunity, Madam Chairwoman, for introduced this Nevadan, 
outstanding Nevadan, to this Committee, and I look forward to 
his testimony as well as the Committee's consideration for Mr. 
Boulware's nomination.
    Thank you.
    Senator Klobuchar. Thank you very much, Senator.
    Ms. Yandle.

  STATEMENT OF STACI MICHELLE YANDLE, NOMINEE TO BE DISTRICT 
          JUDGE FOR THE SOUTHERN DISTRICT OF ILLINOIS

    Ms. Yandle. Thank you, Senator Klobuchar. I would like to 
thank you, Madam Chair, Ranking Member Grassley, and Members of 
this Committee for scheduling this hearing and allowing us the 
opportunity to speak with you today.
    I would like to thank Senator Durbin for his introduction 
and for his support. I certainly would like to thank President 
Obama for his nomination and for this honor.
    I would also like to thank various members of my community, 
my friends, family, who are not in the room with us today, but 
I certainly want to thank them for their continued support.
    I would like to thank and introduce the members of my 
family who are in the room with me today: first and foremost, 
my mother, Sylvia Yandle, who traveled here with me from 
southern Illinois. I would like to thank my brother and my 
sister-in-law--I actually normally refer to her as my sister, 
but we are on the record and I will be technically correct. She 
is my sister-in-law, Sheila Yandle. They traveled here from 
North Carolina; and my nephew, Darell, who traveled here from 
Detroit.
    I would also like to acknowledge and thank someone else who 
is not in the room. That is my father, Robert Yandle, who is 
deceased, and, frankly, has been deceased for quite some time, 
but who is ever present with me, and he is certainly--I feel 
his presence today, and I would like to acknowledge that as 
well.
    Thank you.
    [The biographical information of Ms. Yandle appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much, Ms. Yandle.
    Mr. Rodriguez.

           STATEMENT OF LEON RODRIGUEZ, NOMINEE TO BE
        DIRECTOR OF THE U.S. CITIZENSHIP AND IMMIGRATION
        SERVICES, U. S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Rodriguez. Thank you, Chairwoman, and what a great 
honor it is to be here this morning.
    I want to start by acknowledging my spectacular wife, Dr. 
Jill Schwartz. She is a research physician dedicated to the 
eradication of some of the most devastating diseases that we 
face in our society.
    I would also like to acknowledge my children: Talia and 
Elias Rodriguez, who are in the center aisle here today.
    Also with me today is former CIS Director, actually the 
founding Director of Citizenship and Immigration Services, 
Eduardo Aguirre, who was appointed by President Bush to stand 
up the new agency, along with his Deputy Director, Michael 
Petrucelli.
    Also here are our good friends Bicky Borman and Gerald 
Kell, and my current chief of staff, Juliet Choi.
    I would like to acknowledge the members of my staff from 
the Office for Civil Rights, some of whom I know are watching 
us this morning.
    And, finally, I would like to acknowledge my parents, who 
are watching us from Rody, Incorporated, in Miami, the small 
business they started in 1966. That business is still alive and 
well today, and Isaac and Sara Rodriguez are watching us as 
they do their work.
    And, finally, I would like to salute the great American 
stories of the other nominees here today. Their stories 
illustrate the long road that we all travel to days like this 
one, and it is stories like theirs that really inspire me to do 
hopefully, in the event of my confirmation, a job like Director 
of Citizenship and Immigration Services, which is such a great 
path to offer opportunities to new Americans.
    So thank you, Chairwoman, for this great opportunity.
    [The biographical information of Mr. Rodriguez appears as a 
submission for the record.]
    Senator Klobuchar. Well, thank you so much, Mr. Rodriguez. 
We welcome your family. We welcome all the nominees' families.
    And now we have our Majority Leader, kind of the head of 
our family, Majority Leader Reid here to say some good words 
about Mr. Boulware.

         PRESENTATION OF RICHARD FRANKLIN BOULWARE II,
        NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF
 NEVADA, BY HON. HARRY REID, A U.S. SENATOR FROM THE STATE OF 
                             NEVADA

    Senator Reid. Thank you, Madam Chair. I have had the good 
fortune over the years to be able to appoint people to 
different positions. I do not know how many judges, but 10 or 
so in Nevada. And it is always very difficult when family 
members are involved in a selection because you are always 
afraid: Am I showing too much favoritism? Is the person really 
qualified? Well, in this instance, I have known his Mom and Dad 
for many, many years, and they should be very proud of him, as 
I am, because his qualifications are unparalleled. This is a 
good man and a good candidate to be a judge for life.
    I am happy to introduce to the Committee Richard Boulware. 
He is an intelligent, talented young lawyer, and I have no 
doubt he will distinguish himself as a judge. He has worked 
very hard. He is the first African American man to be on the 
Federal bench in Nevada, but not the first African American. He 
has some really big shoes to fill with Johnnie Rawlinson, who 
was on the district court, as she has now really distinguished 
herself on the Ninth Circuit.
    He has been a public defender in Nevada since 2007. Before 
that, he was a public defender in New York for 4 years, worked 
at the prestigious firm of Covington and Burling in New York. 
He grew up in Las Vegas, attended Harvard University as an 
undergraduate, and then took some time off. He checked out the 
private sector. He clerked for a district court judge in the 
Southern District of New York, and prior to entering law 
school, he owned a consulting business.
    He told me the reason he decided to go back to school, to 
go to law school, is he was watching impeachment proceedings on 
television of President Clinton, and he said, ``I need to be a 
part of that, part of the legal profession.'' And so that is 
what he did. He went back to law school, Columbia, where he 
distinguished himself as a great scholar, a good student. He is 
really well qualified in every aspect. And he is not just naked 
from being in the court all the time. He has entered public 
service in many different ways: a leadership role in the NAACP 
in Las Vegas; he has also served as a volunteer attorney for 
U.S. Vets, an organization that serves homeless veterans of the 
armed forces since 2009. I would hope there were not homeless 
vets in Nevada, but that is not true. There are lots of them. 
It is commendable that he would devote his time to help these 
people who are really in need.
    He is past president of the Las Vegas chapter of the 
National Bar Association, has extensive experience trying 
criminal cases in the Federal court system. I have talked to 
many of the Federal judges who understand what an advocate he 
is for the rights of the accused.
    He has received the Medal of Justice Award from the State 
Bar of Nevada. He received the Dedicated Service Award last 
year from the Nevada Attorney General's Criminal Justice 
Program. So I am very impressed with him, and I know that he 
will be an outstanding judge. And I feel very good and proud of 
him and his family, most of whom are here today.
    Senator Klobuchar. Thank you very much, Majority Leader 
Reid. Okay.
    Senator Reid. I was afraid Senator Grassley was going to 
ask me some questions.
    [Laughter.]
    Senator Klobuchar. Yes, I know. Senator Grassley--can the 
reflect Senator Grassley is very good at asking questions. He 
asks a lot of questions. But that is not the case. You can 
leave and do your duties, Majority Leader Reid.
    Okay. We are going to begin here, and the reason Senator 
Grassley was talking to me was just about making sure that 
Senator Durbin would go after me, and then he was going to 
allow him to go after I do. And, in fact, Senator Durbin, maybe 
you want to go first. That is fine. All right.
    I am going to start here with you, Ms. Krause, and I am a 
former prosecutor like you, and I wonder if you could talk a 
little bit about how you think that experience will impact you 
on the bench. And also the pro bono work that you do, if you 
could talk about that.
    Ms. Krause. Yes, thank you very much, Senator. If I may, as 
a preliminary matter, I realize in my excitement to be here I 
omitted two of perhaps the most important people in the room: 
my parents, Robert and Marilyn Krause.
    Senator Klobuchar. Good call.
    [Laughter.]
    Ms. Krause. They have made the trip here from Pennsylvania 
as well, and it is a great joy to me to be able to share this 
day with them.
    Senator Klobuchar. Okay.
    Ms. Krause. Yes, Senator, I did serve as a prosecutor for 
many years, and I have continued with public service through my 
pro bono work in private practice.
    As a prosecutor, I had the opportunity to do both trial and 
appellate work, and that has given me a great appreciation for 
the importance of the record, how to read a transcript, issues 
of credibility of witnesses and motion practice in the district 
court, many of the things that, if I am fortunate enough to be 
confirmed as an appellate judge, will give me a good foundation 
for reviewing and understanding the record.
    I think further in both that commitment to public service 
and the honor there of serving as a representative of the 
United States, I was held to highest ethical standards and, of 
course, a mandate on prosecutors to think not only as an 
advocate, which, of course, is an important part of that job, 
but also the mandate to do justice. And if I have the privilege 
of serving on the Third Circuit Court of Appeals, of course, 
being fair, impartial, seeing all sides, and serving the public 
with the highest ethical standards would be paramount.
    Senator Klobuchar. Thank you.
    Mr. Boulware, you also served as a public defender, and 
could you talk about that experience and how that will help you 
on the bench?
    Mr. Boulware. Thank you, Senator Klobuchar, for the 
question.
    I think one of the things that it has given me an 
opportunity to do the most is participate in criminal trials. I 
have participated in at least 15 Federal criminal trials, 
including jury and non-jury trials, in two different districts, 
in both the District of New York and the District of--the 
Southern District of New York and the District of Nevada.
    I have also been able to participate in a variety of 
different types of Federal cases from white-collar complex 
cases, which I have been the lead attorney on with respect to 
my office for the past 3 years, but a variety of different 
types of cases that come to the public defender's office.
    So I believe that diversity of experience, in particular 
the trial experience, as my nomination is for a trial court, I 
believe all of that, if I am fortunate enough to be confirmed, 
will serve me well as a district court judge.
    Thank you.
    Senator Klobuchar. Very good. You also should note you were 
born in Rochester, Minnesota, since I had no one to introduce--
--
    Mr. Boulware. Yes, I was born----
    Senator Klobuchar. The home of the great Mayo Clinic.
    Mr. Boulware. Yes, I was born actually at the Mayo Clinic.
    Senator Klobuchar. You had a good hospital.
    Mr. Boulware. Yes.
    Senator Klobuchar. Excellent. It worked out well for you.
    Okay. Judge Mendoza, as a judge, do you want to talk a 
little bit about how being a judge, your current job as judge 
is going to differ from this one?
    Judge Mendoza. Thank you, Senator, for that question. Yes, 
as a judge currently, one of the duties that I have is being 
civil presiding judge for both of our counties, in Benton and 
Franklin County. As a practitioner, I primarily handled 
criminal law, so it is important to have both the criminal law 
experience and the civil law experience, and that will suit me 
well, if I am confirmed to this position.
    I think it is also important to note that I was a deputy 
prosecutor and an Assistant Attorney General, and I think those 
experiences would also help me. I think it is important to 
bring a wealth of experience to the position.
    Thank you.
    Senator Klobuchar. Thank you very much.
    Ms. Yandle, I have a feeling that Senator Durbin is going 
to ask you a question. Would that be right? Good. So I am going 
to use the remaining time that I have to ask Mr. Rodriguez a 
few questions. Again, it is an important job that you are going 
to be taking here. USCIS is an agency of 18,000 employees and 
contractors. Can you talk about how your management experience 
as county attorney and other positions is going to help you out 
there?
    Mr. Rodriguez. I appreciate that question. In particular, 
as county attorney for Montgomery County, I was on the senior 
leadership team of a county with a $2 billion annual budget, a 
$2 billion capital budget, 10,000 employees, an organization 
that had much of the same complexity as Citizenship and 
Immigration Services does. My prosecutorial positions really 
prepared me for the fraud investigation aspects and the 
national security aspects of the CIS Director's job.
    Senator Klobuchar. Very good. And I have a specific 
concern, and maybe you heard about this, about the plans to 
move--and this was, of course, before you were in your job--the 
U.S. Citizenship and Immigration Service office in Minnesota 
from its current location near The Mall of America, which is a 
very accessible location--accessible by bus, accessible by 
light rail, one of the biggest shopping malls in the country 
actually. And it obviously was a good location, and what your 
office decided to do or your soon-to-be office was that they 
moved the location, and it would be 3 miles from a metro 
transit stop. Obviously a lot of people that use this service 
do not have cars, and they are not able to afford cabs. And it 
has actually become quite an issue. Our newspaper, our major 
newspaper has editorialized about it a number of times, and the 
worst part about it, Mr. Rodriguez, is I like that they told 
the truth, but the GSA admitted that they actually made a 
mistake. They thought they saw a sign for a bus, and they 
thought it was a real public transit bus, but it was just some 
private bus service that hardly goes there.
    And so it is a glaring error, and last year, this office 
had 28,000 visitors, processed more than 13,000 applications 
for naturalization, and they have already now gotten a contract 
with this new place, and it is a huge problem. Could you commit 
to working with me and the GSA to address these concerns about 
what is happening here? Because it is kind of an outrage.
    Mr. Rodriguez. I can assure the Senator, first, that I am 
aware of the situation and that I can commit to working with 
you to find a resolution. In my current job, the work we do is 
all about accessibility to Government services, and so this is 
really core to my professional identity to tackle these sorts 
of issues.
    Thank you, Senator.
    Senator Klobuchar. Okay. Well, I appreciate that. I am 
looking forward to working with you on it.
    With that, we will turn it over to Senator Durbin.
    Senator Durbin. Thanks a lot, Senator Klobuchar.
    Let me for the record ask my nominee here, Staci Yandle, a 
question. I am familiar with your career and what you have 
done, and you have spent a lot of time representing the little 
guy, plaintiffs trying to recover in lawsuits where the odds 
are against them, pro bono defendants and clients, and folks 
who are usually considered to be the least likely to succeed 
under our system of justice. And that is one of the things that 
attracts me to you, and you know that.
    When Chief Justice John Roberts had his confirmation 
hearing before the Committee, here is what he said: ``If the 
Constitution says that the little guy should win, the little 
guy is going to win in a court before me. But if the 
Constitution says that the big guy should win, well, then the 
big guy is going to win.''
    What do you think of Chief Justice Roberts' statement?
    Ms. Yandle. I think his statement is absolutely correct, 
and I think that is the proper role of a district court judge. 
It would be certainly what I would value as well. Based on my 
years of experience, as you mentioned, Senator, trying cases on 
behalf of plaintiffs, it has given me actually a very keen 
appreciation for the importance of impartiality and judicial 
integrity. I have gotten that appreciation from the other side 
of the bench. And so it is extremely important, and I agree 
with what Justice Roberts said. If confirmed, and in any matter 
that comes before me, based on the law and the applicable 
precedent, should, as you put it, the little guy win based on 
the law, they will; and should the corporation prevail based on 
the law, they will.
    Senator Durbin. One of the questions asked of you by 
Senator Kirk--and we were all together yesterday when he asked 
this question--was about a constitutional amendment, the Tenth 
Amendment, the role of the Federal Government, the role of the 
States, and it is something that we talk about night and day 
around here as part of the ongoing conversation. And he asked 
what your approach would be, what your views would be as a 
district court judge on that amendment.
    Ms. Yandle. Yes, and that was the Tenth Amendment, which 
guarantees, of course, the rights to the State where there is 
an absence of Federal right. And what I indicated was I have 
not engaged in any type of constitutional analysis about the 
strength or weakness of the Tenth Amendment. However, the Tenth 
Amendment as well as any other part of the Constitution, if 
there were a matter to come before me if I were confirmed, I 
would look first for Supreme Court guidance. Lacking that, I 
would look for any guidance from the Seventh Circuit. And I 
would certainly apply the law.
    Senator Durbin. Thank you.
    Mr. Rodriguez, it was 13 years ago when I introduces a bill 
called the DREAM Act in this Committee, and my cosponsor was 
Senator Orrin Hatch. It has been a long, long journey. Four 
years ago, I wrote a letter to President Obama, co-signed by 
Senator Lugar; a year later another letter, co-signed by, I 
believe, a dozen of my colleagues. In each of those, I asked 
for the President to consider an Executive order that would 
spare the DREAM Act-eligible young people in America from 
deportation. The President issued that Executive order, and it 
is known as DACA, and it defers deportation of those eligible 
for the DREAM Act, specifically those who came to the United 
States under the age of 16 and who have no serious criminal 
record, finished high school, and at least hold out the promise 
to be real assets to this Nation.
    Well, we are now moving forward with that, and some still 
criticize it. In fact, there has even been a vote in the House 
of Representatives to repeal this DACA provision, the Executive 
order of the President. A half million have come forward, 
roughly, and signed up with the Government, registered as 
promised, and now are leading otherwise normal lives. I just 
was told that nine of them have been admitted to medical school 
in the city of Chicago. I was with another just a week ago who 
is now a teacher in the suburbs of Chicago. They have been 
given their chance.
    I would like to ask you two things. First, what is your 
view about this prosecutorial discretion as it relates to DACA 
or other deportations? And, second, will you be prepared when 
the 2-year period ends and these and many others who have been 
given DACA seek renewal to have the administrative resources 
there so they can do that in a timely fashion?
    Mr. Rodriguez. Senator, I really appreciate your calling 
attention to the many wonderful young people who have 
participated in the DACA program. They speak to the great 
American promise that I discussed during my opening statement. 
These are students, these are strivers. And as you have 
observed many of them are now pursuing professions; a number of 
them have indicated their interest in serving in our armed 
forces if that opportunity were to become available to them.
    And so I certainly will commit to doing everything that I 
can and having the goal, in the hopeful event of my 
confirmation, to making that process work and to finding the 
appropriate resources to making that process work.
    Thank you.
    Senator Durbin. If I could do one followup, the question 
was raised about the critics have said the President did not 
have the authority to issue this Executive order. I have felt 
that the issue of prosecutorial discretion has been fairly 
clear in the past. In fact, justice Kennedy recently said, ``A 
principal feature of the removal system is the broad discretion 
exercised by immigration officials.'' This is from Justice 
Kennedy in a recent case striking down one of the controversial 
Arizona immigration laws.
    Would you comment on this issue of prosecutorial 
discretion?
    Mr. Rodriguez. Well, certainly I have spent a significant 
portion of my career as a prosecutor, primarily in the criminal 
justice context, in some cases in administrative context as 
well. There is prosecutorial discretion in all of those 
contexts. It is not unlimited. It is not uncabined. But there 
is prosecutorial discretion that would apply in all of the 
contexts that the Senator is describing.
    Thank you.
    Senator Durbin. Thank you. Thanks to all the nominees.
    Senator Klobuchar. Thank you very much, Senator Durbin.
    Senator Grassley.
    Senator Grassley. I will start with you, Ms. Krause. First 
of all, congratulations to all of you. I would have said that 
in my statement, but I put it in the record.
    Senator Durbin. Is your microphone on?
    Senator Grassley. My microphone is on, yes. Maybe I am 
not--you can always hear me.
    You have written about conditions of supervised release 
that courts have imposed on convicted cyber criminals and 
argued that restrictions on cyber criminals' Internet use was 
extreme in certain cases. So then the question: Under what 
circumstances do you believe it is appropriate for courts to 
require a cyber criminal to obtain permission before possessing 
or using an Internet-capable device like a computer or a 
smartphone?
    Ms. Krause. Thank you, Senator. That article was one 
summarizing the law of many different circuits and pointing out 
that in some cases there had been complete bans that had been 
overturned; whereas, the standard--and certainly the standard 
articulated by the Third Circuit in United States v. Freeman--
is that there be a relationship of the least restrictive 
necessary to serve the penological interest.
    I think that those restrictions would need to be considered 
on a case-by-case basis, and they may range from needing to 
seek permission or limited restrictions up to and including a 
complete ban in certain cases like the Mitnick case, which I 
described in that article as well.
    Senator Grassley. Okay. Now, you are just going to love 
when I ask you about something you wrote when you were a third-
year law student. That would be your views on Title VII, 
reviews in which you stated your belief that, ``Discrimination 
remains a widespread social problem.'' Basically you said that 
although overprejudice was gone, a more subtle form of 
discrimination still persists. Based on that you, argued that a 
certain affirmative difference, the after-acquired-evidence 
defense, should be limited in Title VII cases.
    Now, I already recognize that you wrote that as a law 
student, but I would like to know whether your views have 
changed since 1993. Do you still believe that discrimination 
remains a widespread social problem?
    Ms. Krause. Senator, that article from 1994 related to the 
use of the after-acquired-evidence defense, and I still believe 
that Title VII should be enforced. It is the enactment of 
Congress' considered policy determination that there remains 
the need for protection of civil rights, including in the 
workplace.
    The position that I took there that it was Congress' view 
that the protections as embodied in Title VII still needed to 
be pursued ultimately was adopted by the Supreme Court in 
McKennon v. Nashville Banner Publishing Company, where, I might 
add, they actually cited to that article.
    I believe as a judge, if I have the privilege of being 
confirmed, that issues about Title VII would need to be 
addressed on a case-by-case basis, considering the applicable 
law and Supreme Court precedent, as well as Third Circuit 
precedent, applied to the facts of the particular case or 
controversy that might come before me.
    Senator Grassley. Do you have happen to believe that 
whether or not affirmative defenses that courts have recognized 
in Title VII cases should be limited or unavailable in order to 
combat discrimination in society?
    Ms. Krause. I do not have a view on that as a general 
matter, Senator. With that particular affirmative defense, the 
Supreme Court concluded, consistent with the EEOC and others 
that had looked at the issue, that it was not appropriate for 
that to be used as a complete defense, although it did cutoff 
damages.
    Senator Grassley. So you would follow the Supreme Court? 
That is an obvious answer.
    Ms. Krause. Senator, I would follow the Supreme Court in 
that, as in all things, if I have the honor of being confirmed.
    Senator Grassley. One last question that I offer a lot of 
judges, both district as well as circuit, or even Supreme Court 
nominees. You have had a distinguished career as a lawyer and 
appellate advocate, but never served in a judicial capacity. 
Lawyers use many resources in formulating arguments that judges 
might necessarily rely on in deciding your cases. So then this 
is about the issue of whether or not you as a judge ever think 
it is proper to rely on foreign law or on views of the world 
community, as some judges have stated it, in determining the 
meaning of the Constitution or Federal statutes.
    Ms. Krause. Thank you, Senator. No, I view the U.S. 
Constitution as well as statutes of Congress, of course, as 
domestic law, and I would look to domestic law sources to 
interpret them. I am aware that in certain cases, for example, 
in discussing the jury system, the Supreme Court on occasion 
has looked to British common law and referred to foreign law in 
some circumstances.
    Obviously, I would abide by the precedent of the Supreme 
Court in the holdings of those cases, but my approach, if I am 
confirmed would be to apply to domestic sources of 
interpretation to U.S. law.
    Senator Grassley. For the district nominees, I am going to 
submit questions in writing, and I am now going to go to Mr. 
Rodriguez. So if you would answer those when we submit them, I 
would appreciate it.
    [The questions of Ranking Member Grassley appear as 
submissions for the record.]
    Senator Grassley. Mr. Rodriguez, you were a board member of 
CASA de Maryland, a group that advocates for Latinos and 
immigrants. While I have strong disagreement over some of the 
stances that this organization has taken over the years 
regarding immigration policy, I would like to discuss several 
events that occurred while you were on the board, and 
especially in light of the job that you have been nominated 
for.
    While you were a member of that board, the organization 
published a booklet entitled, ``Warning: Protect Yourself from 
Immigration Raids.'' That was March 2007. The booklet was 
designed to inform undocumented workers how to avoid or 
minimize the chance of triggered lawful deportation 
proceedings. It encouraged undocumented workers not to give law 
enforcement a name of an individual, even while acknowledging 
that it is a crime in some jurisdictions not to do that. Some 
press accounts also noted how illustrations could be perceived 
as disparaging law enforcement.
    So my question: As a board member, did you have any 
knowledge of this booklet before it was published in March 
2007? Then I will go on to another question.
    Mr. Rodriguez. Senator, I was not aware of that 
publication.
    Senator Grassley. Thank you. After the booklet was reported 
in the press, did you take any steps, either privately or 
publicly, to encourage the organization to retract the 
pamphlet?
    Mr. Rodriguez. Senator, what I might point out is that 
actually I separated from board service in May 2007. When I 
became county attorney for Montgomery County, I discontinued 
basically all of my nonprofit involvements at that time. So I 
did not become aware of this publication, Senator, honestly 
until you referenced it today.
    Senator Grassley. So you were gone 2 months after it was 
published.
    Mr. Rodriguez. That is correct.
    Senator Grassley. Okay. Let me go on then. As a board 
member, that organization, CASA, entered a lawsuit filed on 
behalf of undocumented immigrants. That lawsuit sought to 
prevent Maryland's Motor Vehicle Administration from complying 
with the Federal law REAL ID Act. That Act was enacted 
following September the 11th and was one of the recommendations 
of the 9/11 Commission. Among other things, it required States 
to strengthen their identity verification procedures to ensure 
State forms of identification could be used for Federal 
purposes, such as boarding an aircraft.
    Do you personally oppose the REAL ID Act?
    Mr. Rodriguez. Senator, I do not have a specific opinion on 
the REAL ID Act. Certainly if those are questions that this 
body is considering, I would look forward to working with the 
Senator in the hopeful event of my confirmation to discuss that 
Act.
    Senator Grassley. Well, this might be an easier one for you 
to answer. Do you believe that States should fully comply with 
the Federal law, the Federal REAL ID Act?
    Mr. Rodriguez. It is certainly my view, and a core part of 
what I did as county attorney advising Montgomery County, that 
States and localities should comply with Federal law. And 
certainly whatever Federal law there might be, it is my view 
that States and localities are obligated to comply with those 
laws.
    Senator Grassley. Okay. And then I think that answer 
probably applies to this question, but let me ask it anyway. Do 
you believe a State that is attempting to comply early with an 
upcoming Federal mandate deadline should be prevented from 
compliance until the 11th hour?
    Mr. Rodriguez. Senator, it is difficult to specifically--
without knowing all the facts applicable to a particular 
situation, it is difficult to offer a legal judgment on whether 
the Federal Government does or does not have the authority in 
the context that you describe. All of these situations tend to 
be factbound, and so I would not venture to offer an opinion on 
that subject today.
    Senator Grassley. Okay. Now, here is one that I think you 
can answer. If confirmed, you will have to help enforce the 
immigration law. Even though the REAL ID law is not under the 
jurisdiction of the Customs and Immigration Service, you may 
play a role in its continued implementation. If confirmed, will 
you use your position as Director to administratively obstruct 
the REAL ID law?
    Mr. Rodriguez. Senator, you can have my assurance that in 
my role as CIS Director I will uphold the laws of the United 
States.
    Senator Grassley. Thank you.
    I wanted to ask a question about congressional oversight. 
While you were chief of staff at Civil Rights, the U.S. 
Commission on Civil Rights conducted an investigation into the 
decision to decline to prosecute a case from Philadelphia 
concerning racial intimidation of voters on election day. On 
May 14, 2010, then Assistant Attorney General Thomas Perez 
testified before the Commission and answered questions 
concerning this inquiry.
    In regard to your working with him, did you help prepare 
Mr. Perez for his testimony before the Commission that day?
    Mr. Rodriguez. I was part of the team. I did not play a 
central role in preparing him for his testimony.
    Senator Grassley. At one point in the questioning, a 
Commissioner asked Mr. Perez whether any political leadership 
was involved in the decision not to pursue this particular case 
of voter intimidation. Mr. Perez responded, ``No.'' However, a 
FOIA lawsuit later revealed that the Department of Justice was 
aware of more than 50 emails between political appointees and 
career attorneys regarding the Government's ``decisionmaking 
process'' to decline to prosecute the case. A Federal judge 
even commented that these internal DOJ documents ``appeared to 
contradict Assistant Attorney General Perez's testimony before 
the Commission that political leadership was not involved.'' 
That is what the judge said in the decision to dismiss this 
case.
    At the time of Mr. Perez's testimony, then, the question to 
you is: Were you aware of these emails' existence?
    Mr. Rodriguez. I am aware generally about--is my--I am on. 
I am aware generally of the issue that the Senator describes. 
It was my understanding that the decisions were made by career 
staff that there certainly were communications with political 
leadership about the decisionmaking process that was being 
undertaken at that particular point in time by the career 
staff. That is my general understanding. I am not specifically 
aware of the context of the emails that the Senator describes.
    Senator Grassley. Also during this investigation, the 
Department of Justice and the Civil Rights Division refused to 
comply with the Commission's lawful subpoenas. Were you 
involved in the deliberation to refuse to honor the 
Commission's subpoenas?
    Mr. Rodriguez. I actually--I was involved in the process of 
gathering large numbers of documents and information to comply 
with the Commission's subpoena. And my recollection is we 
delivered thousands of pages of documents to the Commission.
    Senator Grassley. Here is a question that is very important 
to me because I concentrate on oversight as a Member of 
Congress. Do you believe that it is acceptable for an agency or 
agent of the Federal Government to refuse to comply with a 
lawfully issued subpoena?
    Mr. Rodriguez. No, I do not believe that it is within the 
authority of a Federal agency to refuse to comply with a 
lawfully issued subpoena. I do note that there are occasions 
where there are certain constitutional and statutory privileges 
that may shield certain information or documents from 
production, and I would assume that when those privileges are 
asserted, they are asserted in good faith.
    Senator Grassley. Let me ask you this next question, but 
let me preface it with something like this, that in all the 
years I have been in Congress, there is not a person like you 
or anybody else that has come before us for a political 
appointee that has not always said yes, will you respond to our 
letters, will you come before us to testify, will you cooperate 
with oversight, all those things. And invariably they never 
live up to it.
    So what is your view of the oversight authority of 
Congress?
    Mr. Rodriguez. So I think the Senator's question is how can 
I assure you that I mean it when I say that. Is that correct, 
Senator?
    [Laughter.]
    Senator Grassley. Yes. Thank you for understanding me.
    [Laughter.]
    Mr. Rodriguez. And I think particularly for an agency like 
USCIS, where the role that we play touches every single State, 
every single congressional district, I think our partnership 
with this body and with the House of Representatives is really 
critical, one, to our discharge of our duties as an executive 
agency, but really our ability to effectively do our business 
as Citizenship and Immigration Services.
    I need you to fully understand what we are doing, the 
challenges that we face, the opportunities that we are seeking. 
And so I really view it as in the interest--in the hopeful 
event of my confirmation, in the interest of my agency to have 
an open relationship with your office and to provide you the 
information that you need to fulfill your oversight role.
    Senator Grassley. You know, this may sound like I think 
this is a problem just with this administration. Do you 
understand, I think this is a problem throughout Republican and 
Democrat administrations, and there is a culture in these 
administrations to thumb their nose at the Congress, not to 
respond any more than they have to, have to write five or six 
letters before you really get the answers you want. I have had 
people at the start of this administration before I even knew 
what this administration might do, give a whole file of letters 
unanswered from the Bush administration that I thought surely 
they would help us get answered so that they would not be 
blamed for not answering our letters, you know.
    My last question on another subject. You told Senator 
Durbin that you would put more resources into DACA. That tells 
me you will continue the program. Will you expand the program 
beyond its current form? And, second, news reports have 
suggested that DACA has taken resources away from other 
immigration programs, including family and employment visas. 
Are you saying DACA does not have enough resources today? Won't 
adding more just harm other programs further?
    Mr. Rodriguez. Yes, well, what I meant to say in responding 
to Senator Durbin's question is that we will do what we need to 
do to make sure across the board, throughout our functions as 
Citizenship and Immigration Services, that we have the 
resources that we need, that we are efficiently allocating the 
resources that we have to discharge all of our functions, and 
that we discharge our obligations as to all of our lines of 
business.
    I was not meaning to forecast the future of DACA or to say 
what I would do in the future about DACA. I cannot prejudge 
those situations without yet being confirmed, and I do hope 
that I will be confirmed. What I can say is that if I am 
confirmed, I view it as part of my stewardship of the agency to 
make sure that the agency is proper resourced to do everything 
that it does and that no one line of business suffers over any 
other line of business.
    Senator Grassley. Okay. You have answered my questions 
well. I may not agree with you. You may have too much leeway in 
some instances. But if you answer my letters, you are going to 
satisfy me more than a lot of----
    [Laughter.]
    Mr. Rodriguez. So, Senator, you should also know that I 
have a particular--I am a former false claims prosecutor, and 
so I wanted to take an opportunity----
    Senator Grassley. You are okay then.
    [Laughter.]
    Mr. Rodriguez. Well, I wanted to thank you for your 
leadership on the whistleblower provisions of the False Claims 
Act.
    Senator Grassley. Well, thank you. And thank you, Madam 
Chairman.
    Senator Klobuchar. Well, thank you, Senator Grassley.
    Has anyone else done anything with false claims? No, you do 
not have to answer. That is fine.
    I want to thank you all--and, Mr. Rodriguez, I just wanted 
to put something on the record, and we do not have to go into 
it. Maybe we can later in writing. But Congresswoman Ros-
Lehtinen from the House of Representatives, a Republican, put 
in a good letter of support for you and your nomination, and 
specifically mentioned the work that Senator Grassley had asked 
about with CASA de Maryland and your good work there, and I 
wanted to put this on the record, and just wondered why you got 
involved in that organization and the kind of work that you saw 
yourself as doing in the organization. I know Senator Grassley 
had a serious question about a booklet and some things, but I 
am giving you that chance to talk a little bit about the 
organization.
    Mr. Rodriguez. I come to really my entire professional and 
personal life with the perspectives that came from being the 
son of immigrants. My parents came here fleeing from the Castro 
dictatorship in Cuba. My grandparents actually went to Cuba 
fleeing anti-Semitism and poverty in Turkey and Poland. So it 
is profoundly part of our identity as a family to understand 
what it means to be starting fresh in a new country, what those 
hardships are. And so I always have an affinity to any 
enterprise, be it a Government agency of 18,000 people or a 
small community nonprofit, to support people who are trying to 
pull themselves up by their boot straps and make a good life 
here in America and to help their families realize the dreams 
of this country. So those are really my motivations.
    Senator Klobuchar. Well, thank you. That was a very nice 
way to end this excellent hearing. I know many of you are 
pursuing your dreams in these jobs, and we want to thank you 
for your patience here with our rather interrupted proceeding 
here and there. And also your family members, I did not hear 
any babies crying. I do not know what happened to that baby, 
but I do not know, fell asleep, whatever. And we want to thank 
you for being here, and we will keep the record open for a week 
for further questions, and this hearing is adjourned. Thank 
you, and thank you, Senator Grassley.
    [Whereupon, at 10:39 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]




                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    NOMINATIONS OF HON. BETH BLOOM,
NOMINEE TO BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA; PAUL 
   G. BYRON, NOMINEE TO BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF 
 FLORIDA; HON. DARRIN P. GAYLES, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                                SOUTHERN
  DISTRICT OF FLORIDA; AND HON. CARLOS EDUARDO MENDOZA, NOMINEE TO BE 
           DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF FLORIDA

                              ----------                              


                         TUESDAY, APRIL 1, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Christopher 
Coons, presiding.
    Present: Senators Coons and Grassley.

          OPENING STATEMENT OF HON. CHRISTOPHER COONS,
           A U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Coons. Good morning, everyone. I am pleased to call 
this nominations hearing of the Senate Committee on the 
Judiciary to order. I would like to welcome each of our four 
nominees, their families and friends, to the U.S. Senate and 
congratulate them on their nominations.
    I would also like to welcome Senator Nelson, who is here to 
introduce the nominees, and we may well be joined by Senator 
Rubio.
    Today there are 83 vacancies in our Federal judiciary. This 
is an unacceptably high number. Over 5 years into this 
administration, the Federal bench still sits nearly 10 percent 
vacant, a 70-percent increase in the number of vacancies since 
the President took office.
    The result is that Americans are getting less justice and 
more slowly. In some districts, such as the Eastern District of 
North Carolina, a seat has been vacant for 3,000 days. In 
Texas, vacancies nearly 2,000 days old are leaving courts 
suffering under caseloads more than double that recommended by 
the Judicial Conference.
    And yet the Senate delegations from those States have not 
agreed with the President on any nominees to fill those 
longstanding and now critical vacancies. The judicial selection 
and confirmation process, broadly speaking, is quite simply 
failing to achieve the results contemplated for it by our 
Founders under the Constitution. This hearing is an important 
step in addressing the judicial vacancy crisis.
    There are five current vacancies on Florida's Federal trial 
courts, and today we will hear from nominees for four of those 
seats. I applaud Senators Nelson and Rubio for their progress 
and am grateful for their bipartisan cooperation and look 
forward to their introduction of today's four nominees.
    First, though, I will offer the opportunity to our 
distinguished Ranking Member, Senator Grassley, to say a few 
words. Senator Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. First of all, congratulations to the 
nominees. I will take just a minute to talk about the 
productivity of the Committee, compare the term of President 
Obama with the term of President Bush.
    After yesterday's confirmation votes, the Senate has 
confirmed 64 lower-court Article III judges during President 
Obama's second term. By comparison, up to this point in 
President Bush's second term, the Senate has confirmed only 27 
lower-court Article III judges. So 64 confirmed so far in the 
second term of this administration, 27 in the previous 
Presidency. With respect to the entire 5 years and 3 months of 
a Presidency, we have approved 233 for President Obama, 229 for 
President Bush. So I am glad we are being so productive and 
doing what we have to do, and once again, thanks to the 
nominees.
    Senator Coons. Thank you very much, Senator Grassley.
    I would now like to yield to the distinguished Senators 
from the State of Florida to introduce our nominees. I know 
that both of my colleagues have pressing schedules, so please 
feel free to depart if you must after your introductions, and 
again, thank you for your collaboration in making sure that we 
have judicial nominees to fill these important vacancies.
    Senator Nelson.

          PRESENTATION OF HON. BETH BLOOM, NOMINEE TO
BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA; PAUL G. 
BYRON, NOMINEE TO BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF 
 FLORIDA; HON. DARRIN P. GAYLES, NOMINEE TO BE DISTRICT JUDGE 
 FOR THE SOUTHERN DISTRICT OF FLORIDA; AND HON. CARLOS EDUARDO 
         MENDOZA, NOMINEE TO BE DISTRICT JUDGE FOR THE
        MIDDLE DISTRICT OF FLORIDA, BY HON. BILL NELSON,
            A U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Nelson. Mr. Chairman, I am going to short-circuit 
my remarks, if I may, have my written testimony submitted in 
the record.
    Senator Coons. Without objection.
    Senator Nelson. Senator Rubio and I, as both of you have 
indicated, have a very good working relationship, and we try 
through the process of a committee--ours is called the 
``Judicial Nominating Commission''--to have the expertise of 
the legal community to do the applications screening and then 
interviewing and selecting three for each position that is 
vacant. And today we are coming forth with four nominees.
    Our agreement with the White House is that the President 
will select from among the three that the two of us send to 
him. The two of us interview all of the applicants, and we let 
the White House know if we have an objection, and then the 
White House will so select. And as a result, it is a process 
that works. Partisanship does not get in the way. And as a 
result, as has been proven over time, because this system has 
been used by Florida Senators for a better part of three 
decades, the proof is in the pudding of the quality that we get 
on the bench.
    And so of the four nominees today, Senator Rubio and I come 
to you with our endorsement, our encouragement that we speed 
the process. We have had emergency conditions in both the 
Southern District and the Middle District. And so today you 
will be hearing from Judge Darrin Gayles of the Southern 
District, Judge Beth Bloom of the Southern District, Judge 
Carlos Mendoza of the Middle District, and attorney Paul Byron 
of the Middle District. And since it is in my written testimony 
for the record, there are extraordinary qualifications, and as 
you can understand, in a highly charged political atmosphere 
like this, with a screening process that we have, what we 
present to you today are people that are definitely qualified 
for a lifetime appointment to serve in the Federal judiciary.
    Thank you, Mr. Chairman.
    [The prepared statements of Senator Nelson appear as 
submissions for the record.]
    Senator Coons. Thank you, Senator Nelson.
    Senator Rubio.

          PRESENTATION OF HON. BETH BLOOM, NOMINEE TO
BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA; PAUL G. 
BYRON, NOMINEE TO BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF 
 FLORIDA; HON. DARRIN P. GAYLES, NOMINEE TO BE DISTRICT JUDGE 
 FOR THE SOUTHERN DISTRICT OF FLORIDA; AND HON. CARLOS EDUARDO 
         MENDOZA, NOMINEE TO BE DISTRICT JUDGE FOR THE
        MIDDLE DISTRICT OF FLORIDA, BY HON. MARCO RUBIO,
            A U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Rubio. Thank you, Mr. Chairman, thank you to the 
Ranking Member for holding this hearing, and thanks to the 
nominees who are here with their families. I know it is an 
exciting day for them. As I joked as I walked in, it is not 
crowded up there, which is usually a pretty good sign. But we 
are proud of our nominees here, and I want to talk about each 
of them briefly, because they have an extraordinary amount of 
experience in different fields that I think would add a 
tremendous amount to their service on the Federal bench.
    Judge Beth Bloom is, like me, a graduate of both the 
University of Florida and the University of Miami School of 
Law.
    By the way, the University of Florida at this time next 
week should be the national champion in basketball.
    [Laughter.]
    Senator Coons. I was wondering how long it would take you 
to work that in this morning.
    Senator Rubio. Perhaps we should have waited a week for 
this hearing just so we could celebrate that as well.
    But in any event, she actually went to the same two schools 
that I did, but has been much more successful since because she 
has worked in private practice before becoming a county court 
judge in Miami-Dade County in 1995. She became a circuit court 
judge in 2010 in the Eleventh Circuit where she currently 
continues to serve, and, of course, she has been active in the 
community in South Florida in a number of areas, including 
areas of a particular interest to me: reducing recidivism and 
supporting children who are in our foster system, which has 
been a challenge in Florida over the last few years. And her 
engagement in that has been fantastic and well appreciated.
    Paul Byron earned his undergraduate degree with honors from 
the University of Michigan--which had a heart-breaking loss, 
you may have seen.
    [Laughter.]
    Senator Rubio. But he also went to law school at LSU, 
Louisiana State University, and the school has had some success 
in football especially. I am sorry to color everything with 
sports, but that is how it--we have to have our priorities 
right around here.
    He began active-duty service in the United States Army in 
the Judge Advocate General's Corps where he served first as a 
criminal defense attorney and then as a prosecutor. And after 
completing his duty in 1990, he became a Federal prosecutor in 
the Middle District where he focused on organized crime and on 
white-collar crime.
    In 2001, he served as the senior trial counsel for the 
International Criminal Tribunal for the Former Yugoslavia, a 
pretty interesting background that he brings to this, and since 
2001 he has worked primarily in private practice in Orlando, 
with the exception of 2 years of service with the Justice 
Department's International Division of Asset Forfeiture and 
Money Laundering.
    Judge Darrin Gayles earned his undergraduate degree with 
honors from Howard University and his law degree from George 
Washington University right here in the District, and then he 
began his legal career and has really dedicated himself to 
public service throughout his legal career as an Assistant 
State Attorney in Miami-Dade County from 1993 to 1997. Then he 
moved to Federal practice in 1997 when he became an Assistant 
District Counsel at what was then Immigration and 
Naturalization Service. After 2 years with INS, Judge Gayles 
joined the U.S. Attorney's Office for the Southern District of 
Florida, where he served in the appellate and the major crimes 
and narcotics sections. And in 2004, he became a county judge 
and in 2010 was appointed to the circuit court for the Eleventh 
District, where he served in both the criminal and civil 
divisions. So again, an extensive history of service to the 
community.
    And, finally, Judge Carlos Mendoza is, like me, the son of 
immigrants, and he spent his career giving back to this 
country. He joined the United States Marine Corps Reserves in 
1989 right out of high school--the same year I graduated, by 
the way, so the bench--I guess I am getting older is what is 
happening.
    He had to delay his college education for a year when his 
unit was mobilized, and he was deployed to the Persian Gulf 
during the first Gulf War. And after a distinguished military 
service, he returned home and attended West Virginia 
University, earning his undergraduate degree magna cum laude in 
1993 and then his law degree in 1997.
    After law school, he continued his military service as a 
judge advocate with the United States Navy, a position that he 
held for 8 years. In 2005, he entered public service as a 
civilian, first serving as an Assistant State Attorney in the 
Seventh Judicial Circuit of Florida and then as a municipal 
attorney for the city of St. Augustine. And in 2011, Judge 
Mendoza was appointed to be a circuit court judge in Florida's 
Seventh Judicial Circuit, where he now presides over both civil 
and criminal cases.
    Last, but not least, I want to welcome Chief Judge Anne 
Conway of the Middle District, who I believe is in the audience 
today. Okay? She did not make it? All right. Well, she was 
supposed to be here. She does a great job, so we just wanted to 
recognize her for that.
    And I wanted to wish all of our nominees and their families 
the best throughout this process. I am certain this Committee 
will give these nominees a full and fair consideration, and I 
thank you for your attention today and for the opportunity to 
speak here alongside my colleague Senator Nelson.
    Senator Coons. Thank you, Senator Rubio. Thank you, Senator 
Nelson. We are grateful for your collaboration and what Senator 
Nelson describes as a 30-year-old process to produce highly 
qualified nominees for the Federal bench from Florida. Thank 
you.
    Senator Coons. At this point I would like to now invite our 
four nominees to come forward. It is the tradition of this 
Committee that each witness be sworn, so if you would, please, 
raise your right hand and repeat after me. Do you solemnly 
swear that the testimony you are about to give to this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Judge Bloom. I do.
    Mr. Byron. I do.
    Judge Gayles. I do.
    Judge Mendoza. I do.
    Senator Coons. Let the record reflect the nominees have 
answered in the affirmative. Please be seated.
    I would now like to invite each of you in turn to offer 
your opening statement, and I welcome you to also recognize 
your loved ones and supporters if you so choose. I believe I am 
working from left to right. Judge Bloom.

STATEMENT OF HON. BETH BLOOM, NOMINEE TO BE DISTRICT JUDGE FOR 
                THE SOUTHERN DISTRICT OF FLORIDA

    Judge Bloom. Thank you, Senator Coons, and thank you, 
Senator Grassley, and the entire Judiciary Committee for 
convening this hearing this morning.
    I want to thank Senator Nelson and Senator Rubio for the 
kind introduction and working together to getting each of us to 
this point.
    I also want to thank the President for the honor of this 
nomination.
    With me today is my family: my husband, Lyle Stern, of 21 
years, and with our three children, who are constant pride and 
joy:
    Our son Jacob Stern, who is a senior; he is 17. He is a 
nationally ranked debater, and he will be starting college in 
the fall at the University of Pennsylvania.
    Our son Oliver Stern, who is a seventh grade honors 
student. He is 13. He is a member of the Junior Thespian, a 
member of his school's volleyball team, and he is involved in 
student government.
    And our youngest, daughter Emily, who is 8 years old and in 
third grade, is a gifted piano player, singer, and dancer.
    Also with us today is our friend Laurie Flink, who has been 
a lifetime friend.
    Our children are not in school today, but they are 
certainly getting a wonderful civics lessons, and they have 
been gaining a civics lesson throughout the entire process.
    My father, Dr. Henry Bloom, died some time ago, but he is 
always with me. And my mother, Phyllis Bloom, and my two 
brothers and sister are back in Florida watching via the 
Webcast.
    I am also fortunate to have many friends and colleagues, my 
courthouse family in Miami, that are also viewing this on the 
Webcast.
    I have an extended an extended family that is also as well 
viewing this on the Webcast, and it certainly is an honor and a 
privilege to be here, Senator, and I am looking forward to 
answering your questions.
    Thank you.
    [The biographical information of Judge Bloom appears as a 
submission for the record.]
    Senator Coons. Thank you, Judge.
    Mr. Byron.

 STATEMENT OF PAUL G. BYRON, NOMINEE TO BE DISTRICT JUDGE FOR 
                 THE MIDDLE DISTRICT OF FLORIDA

    Mr. Byron. Thank you, sir. I would like to start by 
thanking Chairman Coons and Ranking Member Grassley for 
convening this hearing today. It is a very important process, 
and we are all very honored to be here before you.
    I would also like to thank Senator Rubio and Senator 
Nelson, Senator Rubio for his kind remarks and Senator Nelson 
for his warm introduction, and for the cooperative manner in 
which they have worked together. It is really inspiring to 
watch them in action.
    If I may, I would like to introduce my family. I will start 
with the most important person in my life, my wife of 30 years, 
Suzanne. Suzanne has always supported me in my desire to serve 
in the public, to serve this country, whether it is the Army, 
the Department of Justice, the United Nations, or in pursuing 
this particular position.
    We are here also with our son, David, who is an Assistant 
State Attorney in Florida, and his fiance, Morgan Conn. And I 
am also proud to introduce my daughter Alexandra, who is 
preparing for her graduate studies; our daughter Taylor, who is 
in eighth grade. And I guess musicians run in this panel. She 
is an accomplished violinist.
    And it is really truly a pleasure to be here, and I look 
forward to answering your questions. Thank you.
    [The biographical information of Mr. Byron appears as a 
submission for the record.]
    Senator Coons. Thank you. We are so far accumulating the 
most talented group of children to be present for a 
confirmation.
    [Laughter.]
    Senator Coons. So, if I might, Judge Gayles.

  STATEMENT OF HON. DARRIN P. GAYLES, NOMINEE TO BE DISTRICT 
           JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA

    Judge Gayles. Thank you, Chairman Coons, Ranking Member 
Grassley. I would also like to thank Chairman Leahy for this 
opportunity to appear before you today.
    I would like to thank both Senator Nelson and Senator Rubio 
for their support and their kind words this morning.
    Of course, I would like to thank the President for his 
nomination to the U.S. District Court. It is an honor for which 
my family and I will be eternally grateful.
    I have several family members here today that I would like 
to introduce brief: my life partner, Raymond Zayas; my mother, 
Janie Banks Gayles, who is seated directly behind me; as well 
as my very proud grandmother, Nettie Banks, who recently 
celebrated her 84th birthday.
    I have my younger sister, Monica Drew, as well as two of 
her older sons, James and Ryan, my Uncle Terryl and my Aunt 
Bernice, as well as a whole host of friends that are present 
with me today, as well as watching us on the Webcast.
    And I welcome any questions that you have for me today.
    [The biographical information of Judge Gayles appears as a 
submission for the record.]
    Senator Coons. Thank you very much, Judge Gayles.
    Judge Mendoza.

    STATEMENT OF HON. CARLOS EDUARDO MENDOZA, NOMINEE TO BE 
             DISTRICT JUDGE FOR THE MIDDLE DISTRICT
                           OF FLORIDA

    Judge Mendoza. Thank you, Chairman Coons, Ranking Member 
Grassley, for the privilege of being here today. I would like 
to start by thanking the President for this incredible honor to 
continue serving my country.
    I would also like to thank Senators Nelson and Rubio for 
their kind words here this morning representing the State of 
Florida in this country.
    Here with me today are three very important people in my 
life. They are the reason why I wake up ready to attack every 
day and why I come home every day from work with a smile on my 
face: my 14-year-old son, Jack, who is a freshman in St. 
Augustine High School, and my 13-year-old daughter, Maddy, who 
is an eighth grader at Marie Middle School. No matter what is 
going on in my life, to them I am Dad, and that is a very 
important part of my life. It keeps me grounded. Sitting 
directly behind me is my wife of over 22 years, an accomplished 
physician, a wonderful wife, a caring mother, and the glue that 
holds this family together, Dr. April Mendoza. And I am 
privileged to have them here during this journey.
    I would also like to introduce two very close friends of 
mine that took time out of their busy schedules to be here 
today: from St. Augustine, attorney Matthew Cline, and from 
Washington, DC, Eric Call.
    I would also like to let the people in Putnam County, 
Florida, know that I am thinking about them. Every person that 
makes that courthouse work, that has made my job pleasurable 
while I have been in that courthouse, I appreciate what you do 
for the State of Florida and what you do for that county.
    And, finally, I want to thank two of the most important 
people in my lives, my mom and dad. They had the courage to 
immigrate to this country and leave everything they knew behind 
to look for a better life for their kids and for their family. 
I thank them for their encouragement. I thank them for never 
giving up on me, for always demanding the most from me. And on 
those times in my childhood when the scenery was not always 
pleasant, I thank them for letting me see my dreams through 
their words, always ensuring that I understood that if I worked 
hard and applied myself, there was no limit to what I could do. 
So I thank them. They are here with me in spirit.
    And I thank you for this privilege of being here, and I 
certainly invite any questions you have this morning.
    [The biographical information of Judge Mendoza appears as a 
submission for the record.]
    Senator Coons. Thank you, Judge Mendoza.
    We are now going to do questions and rounds of, I believe, 
5 minutes each. Yes, the Committee will proceed with 5-minute 
rounds of questioning. Some Committees do 7-minute rounds. 
Forgive me.
    Senator Grassley. Since there are only two of us here, why 
don't you just ask all your questions, and then I will ask all 
my questions. Is that okay?
    Senator Coons. That makes perfectly good sense. Thank you 
to my senior Senator from Iowa, who is far more practical about 
the administration of these hearings than I am.
    If I might, just each of you in turn, if you would, 
beginning with Judge Bloom, just briefly describe for us, if 
you would, your judicial philosophy and how you would approach 
your role as a Federal judge.
    Judge Bloom. Certainly. During the almost 20 years as a 
State trial judge, my judicial philosophy has been to approach 
each case and each issue with an unbiased and open mind; to 
understand the limitations on my power as a judge; to apply the 
law faithfully to the facts as I deem them to be; and to ensure 
great respect and dignity to all that come before the court; to 
render my decisions promptly; and to always be thoroughly 
prepared when the issues are addressed before me.
    Senator Coons. Thank you.
    Mr. Byron.
    Mr. Byron. Yes, sir. Thank you. Let me start by saying I 
agree with Judge Bloom's position, as she stated it, in terms 
of the role of a judge, and I would echo that. I believe it is 
incredibly important for a judge to approach his or her duties 
with integrity, and by integrity I mean the ability to apply 
the law impartially in every case, regardless of the litigants, 
regardless of whether it is a criminal or a civil matter, and 
that requires strict adherence to stare decisis, to ensuring 
that the opinions held by the U.S. Supreme Court and the 
Eleventh Circuit are followed and abided by in the district 
courts.
    Having been a litigator through most of my life, either as 
a prosecutor or in the private sector, having certainty and 
predictability in the legal system is fundamentally important. 
And as a judge, if I am fortunate enough to be confirmed, that 
is a goal that I will seek to enforce every single day.
    Senator Coons. Thank you.
    Judge Gayles.
    Judge Gayles. I agree with Judge Bloom and Mr. Byron. I 
have been a judge now for nearly 10 years. I decide each case 
on its own merits and make my decisions based on the facts and 
the applicable law. And if I am so honored to be confirmed, I 
will continue to do that in the Federal court.
    Senator Coons. Thank you.
    Judge Mendoza.
    Judge Mendoza. And I agree with my colleagues. I think the 
finality that people look for and closure that comes out of a 
courtroom is better preserved and respected when the variables 
that go into those decisions, such as respect for the parties 
in front of you, efficiency, adherence to the rule of law, are 
what we use in reaching those decisions. And if I am fortunate 
enough to be confirmed by this body, I would take that forward 
with me.
    Senator Coons. Thank you.
    Each of you have experience in the law in a range of 
different backgrounds, but if I might, Judge Bloom, you have a 
wealth of experience serving as a State judge--several of you 
do--and you have experience across this whole panel in civil 
and criminal and international contexts, but less so in Federal 
law.
    If each of you would speak in turn to how you will prepare 
to administer Federal statutes and case law, if confirmed, I 
would appreciate it.
    Judge Bloom. Thank you, Senator, for the question. I have 
served in the State trial court in many different divisions. In 
each division I have handled different issues in different 
cases.
    To prepare for my transition into each of the divisions, I 
have certainly used my work ethic in ensuring that I understand 
the substantive and procedural law and that I am able to apply 
that law. And I have done that in each of the divisions that I 
have served. I have also handled constitutional issues and 
issues of statutory construction.
    I believe that the work ethic that I have shown over the 
last almost 20 years as a State trial judge as well as my 
responsibility, which I take very seriously, to understand and 
be able to apply the law will serve me well if I am fortunate 
enough to be confirmed as a Federal judge.
    Senator Coons. Thank you, Judge Bloom.
    Mr. Byron, a different background, but I think the same 
question is relevant, about how you would be fully prepared to 
serve on the Federal bench.
    Mr. Byron. Yes, sir. I am very happy and proud of the fact 
that I had the formative years of my legal career as an 
Assistant United States Attorney, and in that capacity we 
applied Federal law on a daily basis. I have served in both the 
organized crime section, the white-collar section, and did a 
tour in the Civil Division representing the VA and other 
governmental entities that were being sued for various causes 
of action.
    I have always come to the approach of applying the law by 
starting with the statute, looking at the clear language of the 
statute, and that is where my training began, and that is how I 
approach every case, even in my private practice 
responsibilities. I have tried a number of cases--the majority 
of my cases, actually--in Federal court.
    So looking at cases from the Federal perspective is 
something that is inherently in my approach to the law. Even as 
a State court practitioner, I follow the same analysis: looking 
at the statute first, its clear language, then looking at 
applicable controlling decisions from higher courts and 
analyzing the cases in that regard.
    To prepare myself more fully to be a district court judge, 
my focus will be turning toward the management of cases, which 
is different than being an advocate for a particular party, and 
I have started preparing for that by reading various manuals on 
management of complex litigation, how to deal with case 
management orders from the judge's perspective as opposed to 
the litigator's, and I continue to prepare myself as we move 
forward.
    Senator Coons. That is terrific. Thank you, Mr. Byron.
    Judge Gayles.
    Judge Gayles. I have spent my entire career upholding the 
law. I began my career as an Assistant State Attorney, and the 
balance of my experience as an attorney was spent in the 
Federal courts, both in the Federal immigration court as an 
Assistant District Counsel for the former Immigration and 
Naturalization Service, and later as an Assistant United States 
Attorney in the Southern District of Florida.
    I have worked in both the appellate section, handling 
appeals before the United States Court of Appeals for the 
Eleventh Circuit, and the major crimes section, and later in 
the narcotics section. And I handled in those divisions the 
full breadth of cases one would handle, at least in the 
criminal realm, from court-approved wire surveillance, grand 
jury investigations, any number of pre- and post-trial matters 
that came up before the United States district judges as well 
as the Federal magistrate judges.
    So I think I am very well versed in the Federal court and 
with Federal law, and I think that the 10 years I have now 
spent on the State court bench would only serve to assist me 
well if I am so honored to serve in the Federal court.
    Senator Coons. Thank you.
    Judge Mendoza, you also have experience with Federal law in 
your military capacity, but as a State court judge, help us 
with how you would prepare for service as a Federal judge.
    Judge Mendoza. And thank you for the question. My 
professional career has been a group of transitions from 
graduating law school to becoming a judge advocate in the 
United States Navy to then serving as a specially appointed 
Assistant U.S. Attorney for the Eastern District of Virginia to 
being an Assistant State Authority in St. Augustine, Assistant 
City Attorney in St. Augustine, now on the circuit bench. Every 
one of those transitions required a steep learning curve, and 
those sort of variables that I used in becoming proficient and 
efficient in those jobs are what I will take forward with me. 
And it is worth noting that if I am privileged enough to be 
confirmed, I am aware that I will be surrounded by a very 
capable set of accomplished colleagues in the Middle District, 
and I certainly will seek, unabashedly seek their advice and 
counsel if I am fortunate enough to be one of their colleagues.
    Senator Coons. Thank you, Judge Mendoza.
    My last question for the whole panel, if I might, is: 
Several of you have made reference in your opening comment to 
the importance of dignity, of how you treat all litigants 
equally, regardless of the matter that brings them before you 
or the circumstances that bring them before you. As a district 
court judge, how would you see your role in ensuring fair 
access to the American legal system? If you would, Judge Bloom.
    Judge Bloom. I believe that fair access means certainty of 
a decision and also the ability to know what is the decision. 
So in terms of my role, I certainly am going to ensure that 
case management is done effectively, that I will have an early 
scheduling order and a meeting early with the parties so that 
the parties know the time parameters and we can set reasonable 
parameters, depending upon the uniqueness of the case.
    I also will ensure, as I have done for the past 20 years, 
that my rulings are clear and they are understandable and that 
the rulings are prompt and that I am prepared for the hearings 
and I have taken the time to review the submissions ahead of 
time so that I am able to rule, since decisiveness is one of 
the--certainly the most important responsibilities of a judge. 
I believe that temperament and the way that the litigants are 
handled in the courtroom in terms of the respect and dignity 
that they deserve and the ability to answer questions and to 
refer individuals, particularly pro se individuals, to, for 
example, the law library that serves as a unique resource for 
those who may not be familiar as one who might be represented 
by counsel.
    So those are the services and the qualities that I bring to 
the bench in terms of access to the court.
    Senator Coons. Thank you, Judge Bloom.
    Mr. Byron.
    Mr. Byron. Yes, sir. I agree with Judge Bloom's 
observations that access to the court is a multipronged 
analysis. Part of it is the prompt administration of justice 
through scheduling orders that are consistent, they are 
complied with by the parties and by the court, and that when 
matters, including dispositive matters, are presented to the 
judge, that he or she rules on them promptly and does not let 
them languish. I think that does not help the litigants, and it 
certainly does not help the process in terms of access to the 
court, which includes not just the ability to file an action, 
whether it is a criminal case or civil case, but promptly 
moving it through to its conclusion.
    In the Middle East District of Florida, there are also 
services provided to litigants who may not have counsel. There 
is the Federal public defender's office. There are a variety of 
other panels where individuals could obtain assistance. And the 
court has library facilities available to help those folks, 
recognizing, of course, once their matter is before the court, 
they are treated the same as any other litigant.
    Senator Coons. Thank you, Mr. Byron.
    Judge Gayles.
    Judge Gayles. I think the effective administration of 
justice is an important goal for any judge. I think that my 
time in the State court has well prepared me. I agree with the 
sentiments of both Judge Bloom and Mr. Byron. The work of a 
judge is very important as far as case management and moving 
cases along.
    In Miami-Dade County, where I serve as a circuit judge, 
when I came into the Civil Division a couple of years ago, my 
caseload was approximately 4,700 cases. We are now down in my 
Division to about half of that. And case management, engaging 
the lawyers, holding status conferences, asking the lawyers 
what help they need to move their cases along I think are all 
very important because we have an important role not just to 
adjudicate matters but to make sure that it is done timely and 
effectively.
    Senator Coons. Thank you, Judge.
    Judge Mendoza.
    Judge Mendoza. And I would agree with my colleagues and add 
that, for example, in my judicial circuit in Florida, judges 
participate with bar associations to encourage and to promote 
the idea of pro bono representation and volunteerism. And to 
the extent that judges are possible, I think that is a very 
positive thing when judges are involved with bar associations 
to add prestige and encourage those attorneys practicing in 
front of them to engage in some level of pro bono work, and 
certainly to the extent that I am able, that would be an 
important part of my process.
    Senator Coons. Thank you for that valuable addition. Thank 
you very much to our four nominees.
    I will turn now to Senator Grassley for his questions.
    Senator Grassley. I generally ask different questions of 
different nominees, so do not feel bad if I do not ask you all 
the same questions.
    I am going to start with Mr. Mendoza, and the Chairman 
already asked the first question I was going to ask you, so I 
only have one question of you. Oftentimes when judges are here, 
I quote various Supreme Court Justices and ask for a comment, 
agree or disagree. I do not always put it in a context, so you 
may not know the context. This time I am going to quote Justice 
Scalia's speech in 2005. ``I think it is up to the judge to say 
what the Constitution provided, even if what it provided is not 
the best answer, even if you think it should be amended. If 
that is what it says''--I suppose that means the Constitution. 
``If that is what it says, that is what it says.''
    So two questions. Probably the second part is more 
important than the first part, but whether or not you agree 
with Justice Scalia. And second, do you believe a judge should 
consider his or her own value or policy preferences in 
determining what the law means? If so, under what 
circumstances?
    Judge Mendoza. I would start by answering the first part of 
your question and indicating that as a district court judge, if 
I were fortunate enough to serve in that capacity, I would be 
bound by all opinions written by the Eleventh Circuit Court of 
Appeal and the U.S. Supreme Court. So as far as I am concerned, 
all of our Supreme Court Justices are always right. And I would 
follow their opinions without any hesitation.
    My personal views do not enter into the decisionmaking 
process. People have to have an understanding and a belief that 
what comes out of court is fairly and objectively concluded. So 
my personal opinion does not nor will it ever enter into my 
decisionmaking process. I will make decisions, if I am 
fortunate enough to serve in this capacity, based on the facts 
of the case and the applicable authority that is applicable to 
those facts.
    Senator Grassley. Okay. Mr. Gayles, I have got, I guess, 
maybe two questions or a question with two parts. Getting to a 
view of constitutional interpretation, there are a number of 
different theories explaining how judges should interpret the 
Constitution. Some theories emphasize original understanding. 
Some emphasize literal meaning. And some analyze general 
principles underlying the Constitution and then apply a 
contemporary meaning to those principles.
    While all nominees who appear before this Committee repeat 
the mantra that you just heard from Mr. Mendoza--and I do not 
say that in a derogatory way--that they apply the law to the 
facts, I am looking for an answer with a bit more thought 
behind it. What interpretive model would guide you when you are 
faced with constitutional questions?
    Judge Gayles. As with a statute, when the Constitution is 
clear on an issue--I do not mean to be--I am not trying to be 
glib by saying this, Senator, but the meaning is clear, and 
then my job is relatively easy. As a judge, we are faced with a 
number of issues--constitutional issues, statutory construction 
issues--pretty regularly. I think in my career--well, I know in 
my career I have followed the law and have done it faithfully. 
I have never interjected my own personal beliefs as far as the 
law and how it should be interpreted in over 10 years. I mean, 
I have been reviewed by the Third District Court of Appeal. I 
do not think I have ever been reversed--well, I have been 
rarely reversed, but when I have been, it has never been 
because I made a decision that was far outside the dictates of 
the law. I respect the law. I am sworn to uphold the law. And I 
will follow Supreme Court precedent as well as Eleventh Circuit 
precedent if I am so fortunate to be confirmed.
    And the specific question that you asked me as far as how I 
will consider Supreme Court--I am sorry, constitutional 
language, I do not believe that I have an overarching 
philosophy regarding the issue, but I will faithfully uphold 
the law.
    Senator Grassley. I am going to quote for you from Justice 
Breyer, and then I have got a couple questions that follow on 
this. Justice Breyer has described the law as ``a conversation 
among judges, among professors, among law students, and among 
members of the bar.'' He provided this description in the 
context of his argument that it is sometimes appropriate for 
judges to look to sources other than the Constitution or 
Federal statutes when reaching a decision about what the law 
means.
    The first question, and then I will let you answer that, 
and then the second one.
    First, do you share Justice Breyer's views that judges 
should occasionally look for guidance from sources like law 
review articles or other scholarly comments, commentaries?
    Judge Gayles. I respect the Justice's statement and opinion 
regarding that issue. I think our Constitution has served us 
well for over 200 years. Consistency I think is important.
    I think certainly revealing a treatise or law review 
article, it might be nice to maybe get an understanding, but 
that should certainly not be the guiding force as far as how 
you interpret the Constitution. So I respect the Justice's 
statement, but I do not completely agree with it.
    Senator Grassley. Okay. And, second, do you believe that it 
is appropriate to rely on legislative history--I also have down 
here ``floor statements made by Members of Congress,'' but I 
think that is all part of legislative history, as well as 
Committee reports--when deciding what a law means?
    Judge Gayles. That may be a factor after you have 
considered other factors in interpreting a statute. When I was 
an undergraduate at Howard University, I had the good fortune 
of interning on the Hill for the House of Representatives 
Standing Committee for the District of Columbia. I know a bit 
about how the legislative history comes about. I know that it 
is not inherently reliable. There may be problems with relying 
on that.
    So it would not and it has never been a cornerstone of how 
I interpret a statute. It is an available tool, but it is not 
something that I rely upon.
    Senator Grassley. Just as an aside, Justice Scalia would 
like to hear what you said, because I asked him that question 
when he was up for confirmation almost 30 years ago, and he 
said, ``I never rely on it at all. You cannot rely on it.''
    [Laughter.]
    Senator Grassley. Or something to that effect.
    I am going to go to Mr. Byron. In 2004, you gave a 
presentation on combating terrorist financing through 
charitable organizations. I realize that the purpose of your 
presentation was to help attendees recognize that there are 
fake charities set up for purposes of financing terror. In one 
slide you discussed ``barriers in the fight to stop 
terrorists.'' One of these barriers is the fact that religious 
organizations and churches are not required to file Form 990 
and the facts that the IRS cannot routinely examine churches.
    Could you discuss in more detail the problems that you were 
referring to?
    Mr. Byron. Yes, sir. I was focusing not on the 
Establishment Clause or the free exercise of religion aspects. 
Certainly that was not part of my focus. My focus was more from 
a procedural or a tactical approach of transparency, and I do 
not believe that those comments were intended to include, for 
lack of a better term, mainstream religious organizations. I 
was really talking about fronts that at that time had been 
identified as being front organizations that were hiding behind 
the cloak of being a religious organization, in part to avoid 
transparency and the movement of money. And that failure to 
have transparency in those organizations frustrated the ability 
of law enforcement to track the flow of money and allowed for 
individual donations to be collected and moved overseas for 
terrorist financing proposes. There had been an investigation 
actually in Alexandria, I think, at that time of just such an 
organization. I was really referring to that, and not 
mainstream religious organizations or the fact that our 
Constitution provides certain protections and rights to 
religious *organizations, which I fully support and agree with.
    Senator Grassley. Okay. And my last question to you, when 
is it appropriate for the Federal Government to preempt State 
law? If confirmed, what sources and approaches would you 
utilize to assess whether Congress or the executive branch, in 
fact, intended to preempt State law and acted within the scope 
of their authority to do so?
    Mr. Byron. Yes, sir. Thank you, sir. I think we have to 
start with the Tenth Amendment, which sets forth exactly the 
division of power between the Federal Government and the 
States. And I think Justice Roberts spoke about that in the 
National Federation of Businesses v. Health and Human Services, 
which we are all familiar with. He gave a very detailed 
explanation of the division of powers between the Federal 
Government and the State authorities and when preemption is not 
appropriate, such as commandeering the activities of what are 
typically purely State functions. So there is this interplay 
between the Necessary and Proper Clause, the Commerce Clause, 
and the taxation authorities, for example, of the United 
States, and the line is drawn between the authority of the 
Federal Government and the States, depending on the issue, 
whether it is a Commerce Clause issue or some other issue.
    So my approach, sir, would be to look at the particular 
activity that is being preempted or governed, and then go back 
to the Constitution to determine, first off, is it a Federal or 
a State right that we are dealing with. And if so, is the 
particular statute that is being applied one that fits within 
the authority of the Federal Government to regulate that 
behavior, looking at controlling case law to guide me along the 
way, sir.
    Senator Grassley. Thank you.
    And, Ms. Bloom, I have two questions for you. I believe, 
looking at your record, that you have not had much, if any, 
Federal law experience either as a practicing attorney or a 
judge. If I am wrong on that, you can correct me. So, question: 
Are you comfortable with the Federal rules and procedures? And 
since being nominated, have you taken any steps to familiarize 
yourself with them?
    Judge Bloom. Thank you for the question, Senator Grassley. 
The answer to both is yes, and in terms of my feeling 
comfortable, certainly I have handled constitutional questions 
as a State trial court judge as well as statutory construction. 
So I certainly believe that my skill set in the State trial 
court will serve me well, and certainly my work ethic, in 
taking the opportunity to understand the substantive and 
procedural law. And in terms of my preparation, I have 
certainly taken the time to observe many of our Federal judges 
in the Southern District. I now have the Federal Judicial 
Center's Manual that I have started to review. I have read the 
Federal Rules of Civil Procedure and am now reacquainted with 
the Federal Rules of Evidence that I remember from my days in 
law school. And certainly I have had experience with the 
Sentencing Guidelines since I have served for many years in the 
Criminal Division. So I certainly have had that experience.
    So in answer to your question, Senator Grassley, I believe 
that I am well prepared if I am fortunate enough to be 
confirmed.
    Senator Grassley. Okay. And my last question has two parts. 
You have been reversed by the appellate court on a couple of 
occasions. I would like to ask you about a case where you did 
not grant a recusal motion.
    First, what factors do you consider when reviewing a 
recusal motion? And I might as well ask the second part of 
that. Can you explain the situation in Miami Elevator v. 
Marbrad, a case where you did not recuse? And how did you reach 
your decision?
    Judge Bloom. Thank you, Senator, for the case. The first 
case in which I was reversed for my failure to recuse myself 
was, in looking at the factors, the motion itself was legally 
insufficient. It was not signed by the moving party, the 
client. It was only signed by the attorney. And there were no 
facts that were attested to. So certainly from the case law in 
the Third District it was found to be legally insufficient. In 
the Miami Elevator case, I do not particularly remember what 
were the facts that led to my recusal, but certainly it was 
grounded on a legally sufficient motion to recuse.
    Senator Grassley. Congratulations, all of you, and thank 
you.
    Judge Bloom. Thank you, Senator.
    Mr. Byron. Thank you, Senator.
    Judge Gayles. Thank you.
    Judge Mendoza. Thank you.
    Senator Coons. Thank you, Senator Grassley.
    At this point, there being no other questions, I will 
simply suggest that Members of the Committee who were not able 
to be with us today but want to submit questions for the record 
may do so for 7 days, and this hearing is hereby adjourned.
    [Whereupon, at 10:49 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]






                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 NOMINATIONS OF HON. JULIE E. CARNES, NOMINEE TO BE CIRCUIT JUDGE FOR 
                  THE ELEVENTH CIRCUIT; JILL A. PRYOR,
                    NOMINEE TO BE CIRCUIT JUDGE FOR
THE ELEVENTH CIRCUIT; LESLIE JOYCE ABRAMS, NOMINEE TO BE DISTRICT JUDGE 
                  FOR THE MIDDLE DISTRICT OF GEORGIA;
 HON. MICHAEL P. BOGGS, NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN 
 DISTRICT OF GEORGIA; MARK HOWARD COHEN, NOMINEE TO BE DISTRICT JUDGE 
 FOR THE NORTHERN DISTRICT OF GEORGIA; LEIGH MARTIN MAY, NOMINEE TO BE 
 DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA; AND HON. ELEANOR 
  LOUISE ROSS, NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT 
                               OF GEORGIA

                              ----------                              


                         TUESDAY, MAY 13, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Richard 
Blumenthal, presiding.
    Present: Senators Blumenthal, Feinstein, Durbin, Klobuchar, 
Franken, Coons, Hirono, Grassley, Lee, and Flake.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL,
          A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. I am very pleased to call this hearing 
to order. I want to welcome the Ranking Member, Senator 
Grassley, and thank Senator Leahy for giving me this 
opportunity to chair this very, very important hearing.
    In my view as a lawyer and a litigator, the U.S. Senate has 
few responsibilities more important than the confirmation of 
judicial nominees. They are the voice and face of justice in 
this country. Whether at the district court or the court of 
appeals level, they practically and really are the ones who 
determine the quality of our courts, our justice system, and 
what most Americans see is their face and voice when they seek 
justice in our courts. And as one who has practiced before many 
judges, I have the highest respect for the work, the very hard 
work that they do, the sacrifices they make, the service they 
provide to our country and, likewise, that their families 
provide.
    So I want to welcome all of the nominees here today, 
including your families, who are part of your team, each of 
your teams, and contribute mightily to the work that you will 
do. And I am particularly honored today to welcome two of our 
colleagues, two of our most able and well regarded colleagues, 
Senators Isakson and Chambliss.
    And if you have an opening statement, I would be pleased to 
call on you and then go to our two colleagues.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Thank you. I just shook hands with all 
the nominees. I want to congratulate you once again. And I want 
to also congratulate your family and friends, who obviously are 
proud of your advancement today.
    Today we are going to hear from seven nominees who have 
been nominated to serve in courts in Georgia: two appellate 
court nominees and five district court nominees. Today's 
hearing is a product of very long deliberations between the 
White House, the Georgia Senators, and this Committee. I am 
happy to see this bipartisan solution to the vacancies in 
Georgia, and I am looking forward to hearing from today's 
nominees.
    I would note that one Member of the House of 
Representatives requested to testify in opposition today, and 
the Chairman did not grant that request. The Chairman's 
decision regarding outside witnesses in opposition to judicial 
nominees for lower courts is very consistent with past 
Judiciary Committee practice.
    I would also note that several outside liberal interest 
groups have already weighed in on and urged Senators to oppose 
two of today's nominees.
    Now, I would hope that my Democrat colleagues would not 
subject these nominees to any litmus test, and instead I would 
hope my colleagues would give these nominees the same benefit 
of the doubts and give their home State Senators the same 
deference that Republicans so often provide for President 
Obama's nominees.
    As Senators, nearly every nominee who comes through our 
Committee has taken some position that we may disagree with. 
That is why home State support is so important, and as I have 
said, all these nominees have the support of both the President 
of the United States and their home State Senators.
    I have given great deference to the home State Senators' 
support when reaching decisions on whether to support nominees. 
I believe home State support is important in the process, 
including the Judiciary Committee, as well as the full Senate. 
In fact, very soon the full Senate will consider six district 
court nominees from Arizona. Even though I have some concerns 
about several of those nominees, I plan to support them in part 
out of deference to home State Senators who recommended them. I 
would hope that my colleagues on the other side would show the 
same deference with respect to the nominees that we are going 
to hear today.
    So, once again, I welcome the nominees and their families 
today and look forward to their testimony and their answers to 
our questions. Thank you.
    Senator Blumenthal. Thank you very much, Senator Grassley.
    Senator Chambliss, welcome, and thank you so much for being 
here. It means a lot to us, and I am sure to the nominees that 
you and Senator Isakson are here today for. Thanks.

         PRESENTATION OF HON. JULIE E. CARNES, NOMINEE
         TO BE CIRCUIT JUDGE FOR THE ELEVENTH CIRCUIT;
  JILL A. PRYOR, NOMINEE TO BE CIRCUIT JUDGE FOR THE ELEVENTH 
             CIRCUIT; LESLIE JOYCE ABRAMS, NOMINEE
 TO BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF GEORGIA; HON. 
MICHAEL P. BOGGS, NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN 
DISTRICT OF GEORGIA; MARK HOWARD COHEN, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA; LEIGH MARTIN MAY, 
   NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF 
 GEORGIA; AND HON. ELEANOR LOUISE ROSS, NOMINEE TO BE DISTRICT 
   JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA, BY HON. SAXBY 
                           CHAMBLISS,
            A U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Chambliss. Well, thank you very much, Senator 
Blumenthal, and to you and Ranking Member Grassley and other 
Members of the Committee, particularly Chairman Leahy, with 
whom Senator Isakson and I have worked so closely together to 
reach this point, not just the point of the hearing but to 
reach the point of the nominations, I thank you.
    We are here today to consider the nominations of Julie 
Carnes and Jill Pryor to be circuit judges for the Eleventh 
Circuit; Leslie Abrams to be a district court judge for my home 
district, Georgia's Middle District; and Michael Boggs, Mark 
Cohen, Leigh May, and Eleanor Ross to be district court judges 
for Georgia's Northern District.
    Johnny and I, Senator Isakson and I have a committee of six 
very distinguished lawyers from around the State who are our 
judicial nomination review committee, and we have one simple 
requirement of those six lawyers, and that is, when considering 
judicial nominees, send us excellent lawyers. In this case 
today, we have got seven excellent lawyers to be presented to 
the Committee for ultimately, hopefully, confirmation to the 
Eleventh Circuit as well as to two of our districts in Georgia.
    Now, they will introduce their family, but these seven 
individuals are so highly thought of by lawyers in Georgia that 
today there are two individuals here, although the last I heard 
they were stuck in traffic--I hope they are here by now. But 
there are two individuals who represent the epitome of the 
legal justice system in Georgia who on their own have spent 
their time and spent their money to come show their support for 
all seven of these individuals, and that is, the Chief Justice 
of the Georgia Supreme Court, Justice Hugh Thompson; and also 
the Chief Judge of the Georgia Court of Appeals, Judge Herbert 
Phipps, is here to show support.
    It is my pleasure to introduce these Georgians, the seven 
Georgians, to the Committee today. We have before us a very 
diverse and highly qualified group of legal minds from all 
across our States. Georgia and the Eleventh Circuit will be 
well served by both the breadth and depth of experience of 
these individuals. Their full biographies are well known to the 
Members of the Committee, so I will not go into extensive 
detail. But I do want to take a moment just to briefly 
recognize each of these nominees.
    Judge Julie Carnes has been a Federal district judge for 
the Northern District of Georgia since 1991, and she has served 
as chief judge since 2009.
    Jill Pryor has been in private practice in Atlanta for 
nearly 25 years. During that time she has played a pivotal role 
in some of the largest and most complex cases in Georgia 
history.
    Leslie Abrams has been an Assistant U.S. Attorney in 
Atlanta since 2010. Her experience both as a Federal prosecutor 
and from her time in private practice will serve her well on 
the bench.
    Judge Michael Boggs has served on the bench since 2004, 
first as a superior court judge, which is our highest trial 
court level, and as a judge on Georgia's court of appeals since 
2012. He was also co-chair of Georgia's Criminal Justice Reform 
Council in 2012 and 2013. I found out yesterday Judge Boggs has 
actually disposed of in excess of 14,000 cases while on the 
bench.
    Mark Cohen's legal career actually began clerking for a 
Federal judge. He then went on to work with both the Georgia 
Attorney General's and the Governor's offices before entering 
private practice in 1999.
    After a Federal clerkship of her own, Leigh May entered 
private practice in 2000, and she has been accumulating 
accolades ever since. She has been repeatedly recognized as an 
outstanding lawyer by her peers.
    Finally, Judge Eleanor Ross has been a State court judge 
since 2011 where she has an outstanding record. Prior to her 
time on the bench, she worked for more than 15 years as a 
prosecutor.
    Each and every one of these individuals would be an asset 
to the Federal bench no matter where they sat. But given the 
growing caseloads for judges on the Eleventh Circuit and the 
Northern and Middle Districts, their confirmations are 
particularly important.
    Finally, I would like to take a moment to thank the 
President, his counsel, Kathy Ruemmler, and the rest of his 
staff for going above and beyond in this process. The 
collaborative effort here is an example of what we can 
accomplish when we work together, and I am greatly appreciative 
of the time they put in to ensure these vacancies are filled 
with such high-caliber individuals.
    And with respect particularly to Kathy Ruemmler, she has 
served the President well as his counsel. Unfortunately, she is 
leaving the Office of Counsel to the President at the end of 
this week, and we will certainly miss Kathy but wish her well 
in her future private endeavors.
    So, Mr. Chairman, thank you very much for letting us be 
here this morning to introduce this outstanding panel of seven 
Georgia lawyers to be considered for confirmation as Federal 
judges.
    Senator Blumenthal. Thank you, Senator, for those excellent 
remarks.
    Senator Isakson.

         PRESENTATION OF HON. JULIE E. CARNES, NOMINEE
         TO BE CIRCUIT JUDGE FOR THE ELEVENTH CIRCUIT;
  JILL A. PRYOR, NOMINEE TO BE CIRCUIT JUDGE FOR THE ELEVENTH 
             CIRCUIT; LESLIE JOYCE ABRAMS, NOMINEE
 TO BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF GEORGIA; HON. 
MICHAEL P. BOGGS, NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN 
DISTRICT OF GEORGIA; MARK HOWARD COHEN, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA; LEIGH MARTIN MAY, 
   NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF 
 GEORGIA; AND HON. ELEANOR LOUISE ROSS, NOMINEE TO BE DISTRICT 
  JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA, BY HON. JOHNNY 
                            ISAKSON,
            A U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson. Chairman Blumenthal, Ranking Member 
Grassley, Senator Franken, Senator Klobuchar, it is an honor 
for me to be before the Judiciary Committee today. I associate 
myself with all the remarks made by Senator Chambliss. We are 
presenting to you today seven very qualified lawyers to be on 
the bench of the circuit court and the district court of our 
State of Georgia: Julie Carnes and Jill Pryor to the circuit 
court; Leslie Abrams, Mike Boggs, Mark Cohen, Leigh May, and 
Eleanor Ross to the district court.
    Now, I am not a lawyer, Mr. Chairman, but I ran a company 
for 33 years, and I have been in court a few times. And I know 
what I like to look for in a judge, and that is, somebody that 
is going to call it like they see it; they are going to call it 
down the middle. They are going to be fair, they are going to 
be equitable, and they are going to be respected. I can submit 
to you that, without reservation or question, all seven of 
these individuals meet every one of those tasks.
    As Senator Chambliss has said, he and I have a joint 
committee of six lawyers from around the State that vet all of 
the potential nominees for the court appointments that we have 
to offer and we will confirm. All six have given these their 
highest recommendation in the vetting process and recommended 
them without reservation.
    I also want to thank the President of the United States. We 
have had a process that began 3 years ago to fill what then 
were two vacancies, now are seven vacancies in Georgia. Without 
hesitation or reservation, President Obama has been inclusive 
of Senator Chambliss and myself and our committee, and Kathy 
Ruemmler has done a steadfastly wonderful job to see to it that 
the very best nominees from our State come before you today to 
be introduced.
    I would not single one of them out because, as you can 
tell, they are all exceptional, but I have to add one note of 
personal privilege. Thirty-seven years ago, I served my first 
year in elected office in Georgia as a member of the Georgia 
House of Representatives. Back on the back row of the Georgia 
Legislature was a guy named Charlie Carnes. He was called ``the 
head of the Saw Mill Gang,'' which were seven members that sat 
at the back of the room and made it tough on any of us arguing 
any case before the Georgia Legislature.
    His daughter, Julie, is here today, and I am confident that 
Charlie is looking down with great pride of a father in a 
wonderful daughter who has had a distinguished career and I am 
proud to call my friend, and I am proud to call Charlie my 
mentor.
    So it is a privilege for me to introduce to you these seven 
distinguished nominees for the bench in Georgia. We would 
appreciate your looking favorably upon their confirmation, and 
we thank you for your time today.
    Senator Blumenthal. Thanks, Senator Isakson. Thank you both 
for your insights and wisdom about these nominees. And I know 
you have tremendously busy schedules, so just to tell everyone 
here you may not be able to stay for the remainder of the 
hearing, but we really very much appreciate your contributing 
as you have this morning. Thanks so much.
    I will now ask the first panel to please come forward: 
Julie Carnes and Jill Pryor. The Committee welcomes you. They 
are nominees to serve as circuit judges for the Eleventh 
Circuit.
    Julie Carnes has served as a judge on the United States 
District Court for the Northern District of Georgia since 1992 
and as chief judge since 2009.
    And Jill Pryor has been an attorney at Bondurant, Mixson 
and Elmore--I hope I got the pronunciation right--since 1989, 
serving as a partner since 1997.
    Our custom here is to swear you in first, so I am glad you 
are standing. Do you affirm that the testimony that you are 
about to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Judge Carnes. I do.
    Ms. Pryor. I do.
    Senator Blumenthal. Thank you.
    If you have a short opening statement, we would welcome you 
to give it.
    Judge Carnes. Starting with me, Senator.
    Senator Blumenthal. Judge Carnes.
    Judge Carnes. All right. Certainly.

           STATEMENT OF HON. JULIE E. CARNES, NOMINEE
          TO BE CIRCUIT JUDGE FOR THE ELEVENTH CIRCUIT

    Judge Carnes. First, I would like to thank President Obama 
for this high honor that he has conferred on me. I am deeply 
appreciative of the President for the trust he has placed in 
me.
    Second, I would like to thank our Georgia Senators, 
Senators Chambliss and Isakson. I know that but for their 
recommendation of me to the President and their enthusiastic 
support, this would not have come to pass.
    And, last, I would like to thank you, Senator Blumenthal, 
and you, Senator Grassley, for both presiding and serving as 
Ranking Member, respectively, and to all the other Senators who 
are joining us. It is a great honor just to appear before this 
body.
    I think I can speak confidently for all seven of us that we 
recognize this is a large group of people to have at a hearing, 
and I know there must have been some logistic challenges for 
you all to put this group together. So we are appreciative for 
the opportunity for the hearing.
    Now I would like to introduce the family members that I 
have present with me today.
    First, my husband, Steve Cowen, who is behind me. Steve is 
a very respected lawyer in Atlanta. He is the smartest, wisest 
lawyer I have ever dealt with, and he is a man who has made a 
lot of personal and professional sacrifices through the years 
in support of my career, for which I am always grateful.
    My daughter, Kelly, I think is behind me. Kelly is an 
Assistant Attorney General for the State of Georgia, a lawyer.
    My step-daughter, Susanna Cowen, and her husband, Ross 
McSweeney, are here, back there somewhere. You will not be 
surprised they are also lawyers. Both are lawyers. They live 
here in DC. But I guess the headline news for them recently is 
that Susie gave birth in November to twins, Felix and Orla, and 
made us grandparents for the first time. So that has been a 
happy occasion.
    There are three people not here who I would like to 
acknowledge: my son, Jeff Campanella, is pursuing an acting 
career in L.A. He would certainly want to be here with you, 
Senator Franken, to meet you. That would have been a wonderful 
honor.
    [Laughter.]
    Senator Franken. Why?
    [Laughter.]
    Judge Carnes. In the hopes you could find a job for him.
    Senator Blumenthal. Your first mistake was giving Senator 
Franken the floor.
    [Laughter.]
    Judge Carnes. And, second, the two people that have meant 
the most to me in my life and are responsible directly and 
indirectly for every good thing that ever happened to me, and 
that would be my mother and my father. My mother, Mary Carnes, 
celebrated her 87th birthday last week but due to health 
reasons could not be here.
    My father, you heard Senator Isakson speak of him. He had a 
remarkable life. He was the youngest of 13 children, grew up in 
a very poor farming family in north Georgia, signed up for the 
Navy in World War II and in the Korean War, came back and used 
the GI bill to finish his education, going to school for 9 
years at night to get a college and law degree, and ultimately 
running for the legislature and then becoming chief judge of 
his court for 17 years. And he was a very esteemed and beloved 
figure in Georgia legal circles, was a great mentor to me, and 
was the most patriotic man I have ever met. He would just be 
thrilled that this happened.
    And so with that, I appreciate your indulgence, and I am 
happy to answer any questions, Senator.
    [The biographical information of Judge Carnes appears as a 
submission for the record.]
    Senator Blumenthal. Thank you, Judge Carnes.
    Ms. Pryor.

           STATEMENT OF JILL A. PRYOR, NOMINEE TO BE
             CIRCUIT JUDGE FOR THE ELEVENTH CIRCUIT

    Ms. Pryor. Good morning, Senator Blumenthal, Ranking Member 
Grassley, Senators Durbin, Klobuchar, and Franken. I thank you 
and the other Members of the Senate Judiciary Committee, 
Chairman Leahy and the others, for considering my nomination. 
Appearing here today is the greatest honor of my life. I say 
that honestly.
    It is also a great privilege to be here with Chief Judge 
Carnes. She has been a mentor and a role model to me and 
countless other women lawyers in the State of Georgia.
    I would like to thank Senators Isakson and Chambliss for 
their generous introductions and also for working hard with 
President Obama, whom, of course, I would also like to thank, 
in the spirit of cooperation to fill the judicial vacancies in 
the State of Georgia.
    With me here today are some of my family members: My 
husband of nearly 20 years, Edward Krugman, who is also my law 
partner and one of the finest lawyers I have ever encountered.
    My 16-year-old son, Pryor Krugman, is here. He is a student 
at the Paideia School in Atlanta, and I am very pleased that he 
is here.
    Also, my friend, Julie Reiley, who was my roommate my very 
first year in law school, and has been a friend ever since.
    I have a daughter, Leila Krugman, who unfortunately is at 
home in Atlanta. She came down with a little bit of a bug over 
the weekend. But I have to say, at the age of 13 years old, she 
would probably rather go to school than have to spend a couple 
of days with her parents. So we are probably fortunate that she 
is not here today.
    I also have people----
    [Laughter.]
    Ms. Pryor. She is very well behaved, though. It would have 
been the weekend that would have been tough.
    I also have people watching from home: my parents, Jerry 
and Ginny Pryor. Without their loving guidance, I would not be 
here today, that is for sure. My aunt and uncle, Carol and Bob 
Madden; my sister, Suzanne Henderson; my sisters-in-law, Deucy 
Rachelson and Laura Venzall, and their families, and many other 
families and friends are watching and cheering me on today.
    Twenty-five years ago, I had the privilege of clerking for 
Judge Edmondson on the Eleventh Circuit, and to commemorate my 
hearing today, Judge Edmondson gave me the gift of this vintage 
World War II eagle pin that I am wearing. Judge Edmondson is 
the person who first started me on the path with this 
tremendous institution, the Eleventh Circuit. I am very 
grateful to him for that and for his guidance over the years.
    And, finally, I would like to extend my gratitude to Emmet 
Bondurant, Mickey Mixson, Jay Elmore, and all the partners, 
associates, and staff of my law firm, Bondurant Mixson and 
Elmore, who have generously supported me throughout this 
process. They are some of the finest professionals I have ever 
met, dedicated to their cases and their clients, and I cannot 
thank them enough for all of their support. Anything I have 
accomplished in my legal career, I owe the credit to them.
    Thank you, and I am ready for your questions.
    [The biographical information of Ms. Pryor appears as a 
submission for the record.]
    Senator Blumenthal. Thank you both for those excellent 
opening statements.
    Judge Carnes, I am interested, perhaps you could tell us 
what you think will be the greatest challenges in going from 
the district court to the court of appeals.
    Judge Carnes. Well, I think it should be a pretty smooth 
transition. I will go for the positive parts before I get to 
the challenge. Most of the cases that they handle are cases I 
will have handled over the last two decades. And while district 
judges handle trials and hearings, we also issue a lot of 
opinions, so opinion writing is what appellate judges do, and I 
am familiar with that.
    What I think will be the major difference is the process by 
which opinions are issued. As a district judge, we all write 
our opinions by ourselves, with no input or review from anyone 
else. On the court of appeals, of course, it is a different 
matter. You operate in panels of three, and that means that 
opinion writing, decisionmaking on the court of appeals is a 
collaborative process, and you have to work with other people.
    And so that will be a difference for me. I hope--I think 
that I will be able to master that. I know most of the judges 
on the court. Ms. Pryor and I know each other and have a very 
cordial relationship, and I hope that will be a pretty easy 
transition.
    Senator Blumenthal. Have there been times during your 
service as a district court judge when you staunchly disagreed 
with the outcome and opinion of your court of appeals?
    Judge Carnes. You mean with regard to one of my cases?
    Senator Blumenthal. Exactly.
    Judge Carnes. ``Staunchly'' would be strong. No judge likes 
to be reversed, and sometimes if you are reversed, you look at 
it and say, well, you know, maybe there was a point there; 
maybe they had it righter than I had it. And sometimes you read 
it and think, well, no, I think I disagree. So you see it both 
ways. But I do not think I have ever had staunch disagreement 
with anything they have done.
    Senator Blumenthal. Ms. Pryor, what do you think for you 
will be the greatest transition challenges going from private 
practice to the judicial role?
    Ms. Pryor. Well, Senator, obviously, I have been an 
advocate for more than 25 years, so it will be a little 
different to assume the role of a judge. However, I have 
practiced appellate practice for all of those years, and I am 
familiar with the impact of decisions on the parties, the 
litigants who come before the court and the importance of well-
reasoned, clear opinions that will guide the parties' actions 
and practicing lawyers in the future.
    I have also had the opportunity, as I said, to serve as a 
law clerk on the Eleventh Circuit Court of Appeals.
    So I think the difficulty, most of the difficulty, will be 
involved with the internal procedures and practices of the 
court, becoming familiar with those and learning how to be 
efficient in my work.
    Senator Blumenthal. Have you practiced a great deal before 
the court of appeals?
    Ms. Pryor. Yes, I have, sir, as well as the State court of 
appeals and Supreme Court.
    Senator Blumenthal. Thank you.
    Senator Grassley.
    Senator Grassley. I am going to start with Ms. Carnes. You 
have had a distinguished career as Assistant U.S. Attorney, 
appellate practitioner, commissioner on the U.S. Sentencing 
Commission, and now as chief judge. I would ask you a few 
specific areas of your judicial practice. I am going to start 
with the scope of remedies available under Section 1983 when a 
constitutional violation occurs. I would first point you to 
AT&T Wireless v. Atlanta. This is one of those cases that you 
did not want to be reversed in, I assume. So let me ask you a 
few questions.
    As an appellate judge, how would you decide what is the 
scope of remedies available under Section 1983?
    Judge Carnes. And I think it was a long time ago, but I 
believe the case you are referring to is where AT&T had sued 
because a particular county was not giving them cell phone 
access or something. And they won on that point. I agree they 
won on that point. But AT&T went a little bit farther, and they 
sued under 1983 so that they could get attorneys' fees. And I 
ruled that while they could get their cell phone put up that 
they could not sue pursuant to 1983 because this was a very 
carefully regulated area by the Congress and 1983 did not come 
into play.
    The Eleventh Circuit initially reversed me, but then the 
case was vacated, called for en banc. They never got to a point 
of an en banc hearing. AT&T went away, and I do believe the 
Supreme Court in the next couple of years issued an opinion 
that vindicated my original position.
    Senator Grassley. Okay. In another case, Schwier v. Cox, 
that the Eleventh Circuit reversed in 2003, that was involving 
1983 remedies for violation of voting rights and the Privacy 
Act. I would like to have you talk about your views on the 
scope of remedies available for violation of privacy rights and 
voting rights.
    Judge Carnes. Well, in that particular case, there had been 
no precedent in the circuit, and I actually relied on a Ninth 
Circuit case in holding that there was no private right of 
action for this particular alleged breach. The circuit 
disagreed with me, and, of course, in that case or any other 
case, I will follow their precedent in the future.
    Senator Grassley. And what about the voting rights issues?
    Judge Carnes. Which case are you referring to, Senator?
    Senator Grassley. What?
    Judge Carnes. Which case are you referring to?
    Senator Grassley. Well, I thought both privacy rights and 
voting rights were involved in the Schwier case.
    Judge Carnes. Well, as I recall--again, it has been a long 
time, but it was whether or not the potential voter was 
required to give her Social Security number as a prerequisite 
to being allowed to vote.
    Senator Grassley. Thank you.
    Now, a little more general question for you, and I am going 
to refer to Justice Breyer. He has described the law as ``a 
conversation among judges, among professors, among law 
students, among members of the bar.'' He provided this 
description in the context of his argument that it is sometimes 
appropriate for judges to look to sources other than the 
Constitution or Federal statutes when reaching a decision about 
what a law means.
    First question of two that I will ask: Do you share Justice 
Breyer's views that judges should occasionally look for 
guidance from sources like law review articles or other 
scholarly comments? And maybe I better--just leave Justice 
Breyer out of that. Let me say, Do you share a view that judges 
should occasionally look for guidance from sources like law 
review articles or other scholarly commentary?
    Judge Carnes. I do not think there is anything wrong with 
looking at a law review article for the purposes if they have 
collected a lot of cases and it shortens the research process. 
But to the extent that the statement is being made to indicate 
that a judge should try to be--or be influenced in the 
decisionmaking by what a law professor or someone has said, 
absolutely not. We rely on the cases, not the opinions of 
someone in academia.
    Senator Grassley. And my last question: Do you believe that 
it would be appropriate to rely on legislative history when 
deciding what a law means, assuming the law is not clear?
    Judge Carnes. Well, I think for most judges, legislative 
history is the last thing you look to if nothing else is there 
to help you. And like a lot of judges, I am a little leery 
about it. I would never say never, but I think the theory or 
the concern is that legislative history is not something 
Congress enacted; it is something that staff members have 
written after the fact. And so all else would have to fail 
before I would look at the legislative history, and I look at 
it with great scrutiny.
    Senator Grassley. Thank you.
    Now I am going to go to Ms. Pryor. During your legislative 
career, you have been involved with several challenges to 
Georgia's parole system. What has been your interest in parole 
issues?
    Ms. Pryor. Well, Senator, throughout my career as a lawyer, 
I have taken on pro bono cases, and in the parole cases you 
mention, particularly the Sultenfuss case, I was actually 
appointed by the Eleventh Circuit to represent an inmate who 
was proceeding pro se. And I think pro bono work is very 
important, and when the court calls upon me to do that work, I 
have always responded in the affirmative.
    Senator Grassley. Okay. So then your interest comes mostly 
when you were invited into that environment?
    Ms. Pryor. Yes, sir. I had no previous knowledge or 
experience with that issue.
    Senator Grassley. Is there anything about this experience 
that would influence your review of lower court sentencing 
decisions if confirmed as an appellate judge?
    Ms. Pryor. No, sir. I would apply precedent and follow the 
law.
    Senator Grassley. The next question might sound 
confrontational. It is a question I ask a lot of people that 
are involved in political activity. Over the course of your 
career, you have contributed to quite a few Democratic causes 
and politicians over the years. So I always seek assurances 
that these nominees can give me that you will be fair to all 
litigants who come before you, and in particular those who 
represent or who advocate on behalf of causes that you may 
disagree with personally or politically.
    Ms. Pryor. Senator, my personal beliefs or political 
beliefs would not enter into any judicial decisionmaking that I 
might have. I was exercising my First Amendment rights in those 
situations. But, of course, as a judge and also as a nominee, I 
am prohibited from engaging in any such activity.
    Senator Grassley. Okay. Two more questions. If confirmed, 
what would be your judicial philosophy or approach in applying 
the Constitution to modern statutes and regulations?
    Ms. Pryor. Well, the Constitution is an unchanged document, 
I believe. Obviously, we have to apply it to new situations and 
new technologies, but I do not believe that that changes the 
meaning of the Constitution itself.
    Senator Grassley. Last question: Do you believe that a 
judge's gender, ethnicity, or other demographic factors has any 
or should have any influence on the outcome of the case? And I 
would like to have you explain if it would have.
    Ms. Pryor. No, I do not.
    Senator Grassley. Okay. Thank you, Mr. Chairman. Thank you, 
both nominees.
    Senator Blumenthal. Thank you, Senator Grassley.
    I want to enter in the record, if there is no objection, a 
statement from Senator Leahy and then go to Senator Durbin.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Senator Durbin. Mr. Chairman, thank you. In the interest of 
time, I would just acknowledge that Judge Carnes, in testifying 
before the House Judiciary Committee 5 years ago, raised an 
issue relative to mandatory minimum sentencing and what you 
described as the ``blunt and inflexible tools'' of that law. 
And I would just note that we have passed out of this 
Committee, now pending on the floor, the Smarter Sentencing 
Act, which is going to address that not just for you but for 
all Federal judges in the future. So I thank you for that 
testimony, and I would yield back to the Chair.
    Senator Blumenthal. Thank you, Senator Durbin.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Congratulations to you both. Judge Carnes, congratulations 
on being a grandparent.
    Judge Carnes. Thank you.
    Senator Franken. It is a big deal. And, also, I am sorry 
that your son has chosen to be an actor.
    [Laughter.]
    Senator Franken. That almost never turns out well.
    [Laughter.]
    Judge Carnes. Maybe he will listen to you more than to us.
    Senator Franken. No. I hope he has a great career.
    You talked both about being reversed and being reversed I 
guess from the standpoint of being a district judge by a 
circuit court judge. But there are going to be reversals, too, 
when you are on the circuit court, or there may be. And, you 
know, you also both talked about judging in your job, remaining 
true to precedent.
    I am not a lawyer. When I first got here, the fifth day I 
was here we had the Sotomayor confirmation hearing, on my fifth 
day. And I was kind of a little bit confused by one thing, 
which is that it seemed that Judge Sotomayor, who had been on 
the circuit court, had been taken to task for two decisions 
that she made that were overturned by the Supreme Court. One 
was on hiring firefighters and the promotions, I guess, of 
firefighters in New Haven and using race as part of that. And 
she voted one way, and it was decided that way. And then the 
Supreme Court reversed that decision. But it seemed to me that 
she had been observing stare decisis and that she had been 
ruling according to precedent.
    Then there was another one on the Second Amendment, and the 
same thing was the case. But she was very much taken to task by 
Senators on the other side.
    If you are reversed by the Supreme Court but you had 
observed stare decisis, what is your feeling about that?
    Judge Carnes. Well, I think on the court of appeals you 
really have no choice but to do that. If I am sitting on a case 
and there has been precedent in the Eleventh Circuit, I am 
required to abide by that precedent. I have no other 
alternative, except there is a provision for en banc. So if on 
the appellate court a judge believes that the precedent on 
which she is relying has fallen into disuse or it is confusing, 
it is not creating clear standards for the litigants or there 
are conflicting opinions, then you can request an en banc and 
have the full court decide. But absent that, if a judge is 
relying on precedent, I do not think that judge can be faulted 
for that.
    Senator Franken. That is kind of what I thought, too. And, 
Ms. Pryor, you said you were going to rule according to 
precedent, right?
    Ms. Pryor. Yes, Senator.
    Senator Franken. So when a situation comes up when there is 
a question like, okay, this is something that is pretty ripe, 
but there is really no cause for me to go en banc, then that is 
the proper way to go, right, is to rule according to what has 
already been decided by the Supreme Court or by the court 
itself?
    Ms. Pryor. Yes, Senator Franken.
    Senator Franken. Okay. That is what I agree with, and that 
is what I thought then, and it is what I think now. 
Congratulations again to both of you for your nomination, and 
thank you, Mr. Chairman.
    Senator Blumenthal. Thanks, Senator Franken.
    That is all of our questions for you this morning. We thank 
you again for being here as well as your families and wish you 
well. The positions that you are hopefully going to occupy are 
positions of immense trust and importance to our justice 
system. Again, thank you for your willingness to serve. Thank 
you.
    Judge Carnes. Thank you.
    Ms. Pryor. Thank you, Senator.
    Judge Carnes. Thank you all.
    Senator Blumenthal. We will go on now to our next panel, if 
they would come forward.
    If you would please raise your right hand, do you affirm 
that the testimony you are about to give before the Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Ms. Abrams. I do.
    Judge Boggs. I do.
    Mr. Cohen. I do.
    Ms. May. I do.
    Judge Ross. I do.
    Senator Blumenthal. Thank you. Please be seated, and I 
invite each of you to provide an opening statement.

STATEMENT OF LESLIE JOYCE ABRAMS, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE MIDDLE DISTRICT OF GEORGIA

    Ms. Abrams. Thank you, Chairman Blumenthal, Ranking Member 
Grassley, Senator Durbin, and Senator Franken. Thank you all 
for being here, for calling this hearing, and for hearing from 
us today. I would also like to thank President Obama for this 
nomination and for the faith that he has put in me.
    Now I would like to recognize several people who are here 
with me, both family and friends.
    First, two people who are simply the best thing that have 
ever happened to me and who have never missed a parent-teacher 
conference, a recital, or anything that has been important to 
me, my parents Reverend Robert and Carolyn Abrams, who are 
seated right behind me. My parents are both ordained elders in 
the United Methodist Church.
    Also with me is one of my college roommates from Brown 
University, Tiffany Thompson, and her mother, Mrs. Thompson, 
who I lovingly refer to as ``my fairy godmother.''
    Two of my best friends and study group members from Yale 
Law School who are part of a group of friends that still get 
together every year, and we called ourselves the ``Law School 
Ladies,'' Becky Monroe and Kristi Graunke. And two of my 
compatriots from my time at Skadden Arps Slate Meagher and Flom 
here in DC, Keba Marshall and Avia Trower.
    I also have watching via live streaming my five brothers 
and sisters--Dr. Andrea Abrams, the Honorable Stacy Abrams, 
Richard Louis Abrams, Walter Abrams, and Dr. Jeanine Abrams 
McLean--as well as my grandmother, Wilter Mae Abrams.
    I would also just like to thank my U.S. Attorney's Office 
family, my Skadden family, and my family from Central United 
Methodist Church, as well as the judge that I clerked for, 
United States District Court Judge Marvin J. Garbis.
    Thank you.
    [The biographical information of Ms. Abrams appears as a 
submission for the record.]
    Senator Blumenthal. Judge Boggs.

  STATEMENT OF HON. MICHAEL P. BOGGS, NOMINEE TO BE DISTRICT 
           JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA

    Judge Boggs. Thank you, Senator Blumenthal, Ranking Member 
Grassley, Members of the Committee for the opportunity to be 
here today. I would like to also thank Chairman Leahy and his 
staff for arranging for this meeting. I am very proud and 
appreciative to the President for nominating me. I also want to 
thank Senator Chambliss and Senator Isakson for the warm 
introduction and for their support throughout this process.
    I have with me today my wife of 15 years on Thursday, 
although I am not sure a trip to DC was what she had in mind 
for an anniversary gift, but we will celebrate our anniversary 
on Thursday, and my wife, Heather, is a kindergarten teacher in 
the public school systems in Georgia, and I am really proud of 
what she does to improve the lives of so many young children in 
our State. She was the Teacher of the Year last year for our 
school district, and I get quite a bit of encouragement from 
her and what she does.
    I am also honored to have two special guests from the 
judiciary in Georgia with me today. Seated behind me is Chief 
Justice Hugh Thompson of the Georgia Supreme Court and also 
Chief Judge Herb Phipps of the Georgia Court of Appeals, the 
court on which I currently serve. And I am really honored. 
These are both mentors of mine and both very astute members of 
the judiciary and well-respected members of the judiciary in 
our State.
    I am also honored to have two very good friends. Richard 
Hyde, the chief investigator with the Georgia Judicial 
Qualifications Commission, is here with me today, as well as a 
friend of now probably 30 years from when I was first 
legislative aide to a Democrat Congressman from Georgia 
straight out of law school, my good friend Pete Robinson, who 
is a lawyer with the law firm of Troutman Sanders in Atlanta 
and also in DC.
    My parents passed when I was--my father approximately 30 
years ago when I was 21. My mother passed a couple of years 
ago, but everything I have ever accomplished I am confident is 
because of the things that they taught me in the time I had 
with them.
    I have two wonderful in-laws, my wife's parents, Dr. Porky 
and Becky Haynes, and I know they are very proud and very 
excited for me on this occasion.
    I am honored to be here, Mr. Chairman, and I want to thank 
the many people that have helped me: my judge family on the 
court of appeals, I know many of them, including my staff, are 
watching via Webcast, and I am so very appreciative for their 
support.
    And with that, Mr. Chairman, I appreciate the opportunity 
to introduce my friends and family, and I welcome any 
questions.
    [The biographical information of Judge Boggs appears as a 
submission for the record.]
    Senator Blumenthal. Thanks, Judge Boggs.
    Mr. Cohen.

 STATEMENT OF MARK HOWARD COHEN, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE NORTHERN DISTRICT OF GEORGIA

    Mr. Cohen. Thank you, Senator Blumenthal, Senator Grassley, 
and also thanks to Chairman Leahy and the rest of the Members 
of the Committee for making this Georgia Day at the Senate 
Judiciary Committee. We really do appreciate it.
    I want to thank President Obama for giving me the greatest 
honor that I have ever had in 34 years of practicing law--this 
nomination.
    I want to thank Senators Chambliss and Isakson for their 
warm remarks and also for their support throughout this 
process.
    There are several people I would like to introduce today. 
First and foremost, sitting behind me is my wife, my best 
friend, and the love of my life, Bonnie Cohen. Bonnie was a 
legal secretary for over 35 years, and despite having to work 
for lawyers her entire adult life, she agreed to marry me. And 
for that I will be forever grateful. I would not be sitting 
here today without her love and support, and we celebrate our 
17th wedding anniversary next week.
    Also here today are two people who are like family members 
to Bonnie and me: Judge Stephanie Manis and Bob Manis. Judge 
Manis and I worked together at the Georgia Attorney General's 
Office for many years. She has been a mentor, a friend, and a 
role model, and someone whose career has been an inspiration to 
me throughout my professional career.
    Here today also with me are two young partners from my law 
firm, Troutman Sanders: Jaime Theriot and Kevin Meeks. Jaime 
and Kevin have worked with me on every major piece of 
litigation that I have handled at the firm. They are two of the 
finest young lawyers it has been my privilege to work with 
during my legal career. And I would not be sitting here without 
their support.
    Also here also for me as well as Judge Boggs is Pete 
Robinson, who is the managing partner of our Atlanta office, a 
former Democratic Majority Leader in the State Senate and a 
long-time friend. And two former colleagues of mine at the law 
firm who now work in Washington. Bill Arnold and Trenton Ward 
are also here, and I appreciate their attendance.
    There are a lot of people watching on the Web who are 
friends and colleagues of mine. I want to particularly mention 
one very special one, and that is one of the most beloved 
Georgia attorneys, Norman Underwood. When I came to Troutman 
Sanders 15 years ago, Norman became my mentor. He took me under 
his wing, and he made me a better lawyer. And if I am fortunate 
enough to be confirmed by this august body, I will be 
privileged to say that I got to practice law with Norman 
Underwood.
    And, finally, I would like to recognize my parents, Vivian 
and Irving Cohen. My parents were born in Brooklyn, New York. 
They are children of immigrants. They are children of the Great 
Depression. And because of their family situation, they were 
unable to achieve the education that they provided for their 
only son. My father enlisted in the United States Army during 
World War II. He was a disabled veteran, and he ran a small 
business. My mom was a secretary and worked in the home. 
Together, because of their support and sacrifice, I was able to 
go to college and law school and lead the life that led me to 
this moment before you today. I know if they were here they 
would be very proud.
    And with that, I welcome any of your questions.
    [The biographical information of Mr. Cohen appears as a 
submission for the record.]
    Senator Blumenthal. Thank you, Mr. Cohen.
    Ms. May.

STATEMENT OF LEIGH MARTIN MAY, NOMINEE TO BE DISTRICT JUDGE FOR 
                THE NORTHERN DISTRICT OF GEORGIA

    Ms. May. Thank you, Senator Blumenthal, Ranking Member 
Grassley, and the rest of the Senate Judiciary Committee. Thank 
you for holding this hearing, and I am honored to be here today 
to answer your questions. I also want to thank Senators 
Chambliss and Isakson for their kind introduction and for their 
support throughout this process.
    I would like to thank President Obama for the great honor 
that he has given me in this nomination. It is something that I 
am very proud of, and it is the highest honor that I can think 
of achieving.
    I have quite a crowd of family here today, so I will try to 
go quickly.
    My husband, Gil May, is here. He is an architect in 
Atlanta, the love of my life, and the person that has been 
there for me every day throughout this process.
    I also have with me my 7-year-old son, Griffin May. He is a 
first grader at the Paideia School in Atlanta, Georgia, and has 
thoroughly enjoyed his trip to DC, especially the chance to get 
to go up in the Washington Monument yesterday as it reopened. 
So it has been a very special trip for him.
    My mother, Beatrice Williams, is here. She is in her final 
year as a first-grade teacher in Decatur County, Georgia. She 
has had a long career in public education and is very excited 
about her upcoming retirement.
    My in-laws are here, Dr. Jerrell and Lauren May, and they 
also have both retired from public education, and I am very 
happy to have them here today.
    I have my brother, sister-in-law, niece, and nephew. 
Stephen, Julie, Lucy, and Hollis May are here from Daphne, 
Alabama.
    I also have my law partner, Joel Wooten, and a daughter of 
one of my other law partners, Sandra Lynne Fryhofer, that are 
here for me today. I really have appreciated the support of my 
law firm, Butler Wooten and Fryhofer, that the partners and the 
other staff and attorneys in the firm have given me, and I am 
very proud to have Joel and Sandra Lynne here with me today.
    Thank you very much.
    [The biographical information of Ms. May appears as a 
submission for the record.]
    Senator Blumenthal. Thanks very much, Ms. May.
    Judge Ross.

         STATEMENT OF HON. ELEANOR LOUISE ROSS, NOMINEE
         TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT
                           OF GEORGIA

    Judge Ross. Thank you, Chairman Blumenthal, Ranking Member 
Grassley. I would like to thank the entire Senate Judiciary 
Committee. Thank you to Senators Chambliss and Isakson for the 
warm introduction as well as the bipartisan efforts throughout 
this process. Thank you also, President Barack Obama, for the 
honor of this nomination.
    I, too, have some very special people with me. First, my 
husband of 13 years, fellow attorney Brian Ross, who is seated 
behind me. He is my rock and source of inspiration in all of my 
professional and personal endeavors.
    Our two daughters, 12-year-old 6th grader Briana Valerie 
Ross and 10-year-old 5th grader Leeann Danielle Ross. They 
graciously made the sacrifice to miss a day of school to 
attend. I thank them and their teachers for allowing them to do 
so with the understanding that they will be making up missed 
school work.
    Speaking of teachers, I also have behind me my mother, 
Otelia Barnwell, who is a retired public school teacher from 
right here, the D.C. Public School System.
    Also, my siblings are present: my sister, Dr. Valerie 
Barnwell, and my brother, fellow attorney George Otis Barnwell.
    My father, George Miller Barnwell, also was a teacher. He 
passed away when I was 8. He is with me here in spirit, as he 
always has been, and today I have with me a person who has 
served as a father figure for my entire life, that is, my 
uncle, Jim Clarke.
    And I also have with me my two beautiful teenage nieces, 
Savannah and Arianne Barnwell.
    I would also like to acknowledge my mother-in-law, Shirley 
Covington, who also is a retired public school teacher as well 
as principal. She could not make the trip to DC today, but she 
supports me from her home in Columbus.
    And, finally, I would like to acknowledge my colleagues and 
my exceptional staff at the DeKalb State Court. They are 
keeping things running smoothly while I am here in Washington.
    Thank you, and I welcome your questions.
    [The biographical information of Judge Ross appears as a 
submission for the record.]
    Senator Blumenthal. Thank you very, very much to all of you 
for your opening statements and, most important, for your 
records of public service. And I want to say again how 
important these hearings and this process are.
    I want to welcome Chief Justice Thompson, Chief Judge 
Phipps. You honor us by your presence here today. Sorry you had 
a bit of difficulty getting here, but you were mentioned in 
absentia by Senators Isakson and Chambliss.
    Like you, these individuals have performed a great deal of 
public service over the course of your careers already. The 
decisions we make here really will be to put you in a place 
where for many people seeking justice you will be the last 
person making a decision. Even though there may be a right of 
appeal to the court of appeals, you will be the source of 
justice for them. And so this decision for us is immensely 
important, and we are going to approach it, I think, with the 
close scrutiny that it deserves in every instance.
    I would like to begin, Judge Boggs, with some questions to 
you, if I may. As I look through the responses to the 
Committee's questionnaire, I noted that there were no texts of 
remarks, no speech drafts, notes, anything in writing of that 
kind. Over the course of your very long career in public life, 
did you never deliver a prepared speech? Did you never submit, 
for example, to the Judiciary Committee when you served in the 
State legislature any prepared remarks?
    Judge Boggs. Well, thank you, Senator. It was not the 
practice of myself while I was serving for the 4 years in the 
General Assembly to speak regularly before committees. In fact, 
the only occasions I had to do that were on bills that I had 
authored. I never spoke to any Committee of the House or Senate 
on any bill that I did not author other than a bill I was asked 
to carry by the Secretary of State, which meant that I had to 
testify before the Senate on that matter.
    It is not the practice of the General Assembly then and I 
do not think now that witnesses submit any written comments or 
testimony, and indeed that was not my practice. I typically 
spoke extemporaneously and generally spoke from the bills, the 
text of the bills that I was presenting.
    Senator Blumenthal. On some of the videos, I think, that 
are of your service in the legislature, you seemed to be 
reading from something. Did you keep none of those texts?
    Judge Boggs. I was reading from the text of the bills that 
I was presenting at the time. I was not speaking about support 
or--I was simply asking legislators to support the bill. But 
what I was reading from and what I always took to the well on 
those limited occasions was the text of the bill.
    Senator Blumenthal. And on the issue, for example, of 
women's reproductive rights, I know that you have spoken 
passionately about your views on that topic. On rights of women 
to seek reproductive health care, I know that you have stated 
your opposition to abortion. You prepared no remarks on any 
occasions that you delivered?
    Judge Boggs. Senator, to my knowledge, I have never given 
any public comments on my position on reproductive rights. I 
have cosponsored some bills in the General Assembly. To my 
knowledge, I also voted on a couple of amendments on the floor 
of the House that I did not author and had no authorship in. 
But to my knowledge, I have never given any speeches concerning 
reproductive rights.
    I know this, Senator: I never authored any of those bills. 
Even the ones I cosponsored, I had no role in drafting that 
legislation.
    Senator Blumenthal. And I noticed also, as you well know, 
that on April 10, you supplemented your responses to the 
questionnaire to this Committee with additional materials, some 
of them dealing with the controversial issues that may be of 
interest to my colleagues. Can you assure us that there are no 
additional materials that are relevant to particularly 
questions 12c and 12d of the questionnaire?
    Judge Boggs. Yes, sir, Senator. I can assure you of that. I 
appreciate the Committee's indulgence and opportunity to submit 
additional submissions with respect to my original responses to 
questions 12c and 12d. I respectfully suggest that the effort 
that I went to to supply the information in my original 
questionnaire was quite exhaustive. I did all of the notable 
searches on Internet searches that were available. The 
newspapers that covered the area that I served as a legislator 
are not searchable by the public in any form other than by 
review of the hard copies.
    In addition, I reviewed applications and questionnaires of 
nominees who had had prior legislative service and attempted to 
mirror what they had done with respect to their submissions. I 
did not note that any of those nominees had ever submitted a 
listing of bills that they had cosponsored. That is certainly a 
matter of public record, and I could have easily provided it. 
But with respect to question 12c, which asked for my public 
statements on matters of public policy, I did not view bills 
that I cosponsored, that I did not author, that I had no 
interest in other than cosponsoring, that I had nothing to do 
with the drafting of, to be my public statements.
    And so in that regard, I did exhaust additional resources 
in order to provide this Committee with everything that was 
available. That meant going to Georgia Public Broadcasting, who 
at the time I served in the legislature made videos of 
legislative sessions. The information they had from 2001 to 
2004 was old. It was on servers that were not searchable. It 
was in a format that was not searchable, that had to be decoded 
and put into a searchable format. It took me roughly 6 weeks of 
almost daily contact and personal visits to Georgia Public 
Broadcasting to retrieve the videos that I did supply.
    With respect to question 12c, that dealt with public 
speeches I might have given while I was a legislator from 2001 
to 2004. I have been a judge both on the trial court bench and 
the appellate court bench for 10 years. On advice of the State 
Bar of Georgia, I destroyed my files from my old law office, 
which would have possibly contained references of when I spoke 
to certain civic organizations, dates, and to whom I spoke. But 
because that information and media coverage of that was not 
available, I took 5 days, I traveled 250 miles to my home town, 
and I reviewed 515 newspapers, roughly 8,000 pages, personally, 
and then hired someone to review on the internal programming 
system of our daily newspaper their data in order to provide 
the additional submissions. And I am very appreciative for the 
opportunity to have done that.
    Senator Blumenthal. I appreciate that explanation. I would 
remind you, I know I do not need to remind you, that some of my 
colleagues, particularly on this side of the aisle, have found 
the failure to be completely forthcoming and frank with this 
Committee in terms of providing materials as a reason to 
disqualify, in fact, put in jeopardy the nomination of a 
judicial nominee. So I would urge you, if there are any other 
materials that are discernible in any way, that you provide 
them as quickly as possible.
    Judge Boggs. Absolutely, Senator.
    Senator Blumenthal. Let me go to some remarks and actions 
that you made in the course of your career, if I may. When you 
were a candidate for the Georgia Superior Court, you spoke at a 
candidate forum. You told the audience at that time, and I am 
quoting: ``I am proud of my record. You do not have to guess 
where I stand. I oppose same-sex marriage.'' And you went on: 
``I have a record that tells you exactly what I stand for.''
    Wouldn't your co-authorship of those amendments in the 
Georgia Legislature dealing with reproductive rights and a 
woman's right to choose be indicative of how you will serve as 
a judge on the district court in Georgia if you are confirmed?
    Judge Boggs. Thank you, Senator, for the question. I did 
make the comments that you refer to. Later in that same speech, 
I referred to my respect for the separation of powers and the 
lawmaking authority that is vested in the legislature and that 
judges should not be policymakers. I have maintained that 
position for the entirety of my judicial career.
    However, I agree that the comments that I made probably 
gave the wrong impression to the audience to whom I was 
speaking, particularly with respect to the job that I was 
seeking. I should have done a better job of delineating the 
roles, the different roles and the markedly different roles, 
between being a legislator and being a judge. I was a 
legislator at the time I made those comments, but I was seeking 
the office of judge.
    However, I think that my record, my 10-year record of 
disposing of roughly 14,000 cases demonstrates unequivocally 
that I have never allowed personal views I may have on an issue 
to affect how I analyze issues or how I decide cases.
    Senator Blumenthal. Have any of those cases dealt with 
reproductive rights or a woman's right to choose?
    Judge Boggs. I think on my time on the Georgia Court of 
Appeals I have dealt with one case on my panel. It was not a 
case that I authored, but one case that dealt with Georgia's 
current statute on a minor having to receive parental consent 
in order to receive an abortion. It was on appeal from a 
petition to a juvenile court. Other than that, no.
    It is true that throughout my judicial career both as a 
trial court judge and an appellate court judge that I have 
rarely dealt with issues of those constitutional magnitude.
    Senator Blumenthal. So other than that one case, to know 
where you stand on that issue of reproductive rights or a 
woman's right to choose, we would have to go back to your 
actions in the Georgia State Legislature?
    Judge Boggs. I do not necessarily agree, Senator. I think 
that the best evidence of the type of judge I will be is the 
record of the type of judge I have been. I do not think that my 
legislative record that is over a decade old is indicative of 
what type of judge I might be on the Federal district court. I 
would point to my record as a trial judge, disposing of 14,000 
cases, dealing with civil cases and criminal cases, ruling for 
plaintiffs, ruling for defendants, ruling for the State, ruling 
against the State. I think that is the best evidence of the 
type of judge I would be.
    Senator Blumenthal. Where do you stand now on reproductive 
rights or a woman's right to choose?
    Judge Boggs. Senator, my personal opinion on matters that 
might come before the court would be--it would be, I think, 
inappropriate and a violation of the Code of Judicial Conduct 
of Georgia that I currently am bound by to state any position 
on those matters. But I can state unequivocally that my 
personal position on that matter or any other issue is 
irrelevant to how I have decided cases for the past 10 years, 
how I have analyzed issues, and I am committed to following the 
rule of law, the doctrine of stare decisis, and always doing 
that if I am fortunate enough to be confirmed.
    Senator Blumenthal. And the Constitution's right to privacy 
included?
    Judge Boggs. Absolutely.
    Senator Blumenthal. In your response to questionnaires 
before this Committee, you said that you are a ``strict 
constructionist.'' Is that your general philosophy?
    Judge Boggs. I think at the time I made those comments, 
which was upon my transferring from the superior court to the 
court of appeals, I made those comments to a reporter. What I 
intended to convey was my fidelity to the rule of law and my 
fidelity to the limited role of a judge in our democracy, and 
intended to convey my respect for the limited role of a judge, 
and that is to not decide cases based on public opinion, to not 
decide cases based on public clamor, but to decide cases based 
on the faithfulness to the rule of law and the doctrine of 
stare decisis, which I believe my record demonstrates I have 
done.
    Senator Blumenthal. Normally, a strict constructionist is 
one who looks very specifically, and judges would say 
faithfully, to the text of the Constitution and the philosophy 
is to avoid going beyond what is actually written in the text 
of the Constitution. Is that a fair description of strict----
    Judge Boggs. It is my understanding of strict 
constructionism. Yes, sir, it is a form of constitutional 
interpretation and analysis.
    Senator Blumenthal. In 2004, you said that the right of 
privacy is not ``in the context or in the text of the 
Constitution.''
    Judge Boggs. I am not familiar with having said that, 
Senator. If you--I am happy to respond later if I can find out 
where that quote might come from. I am not familiar with having 
said that.
    Senator Blumenthal. Well, you said it in 2004. It was a 
while ago. But let me give you a chance to explain now.
    Judge Boggs. Sure.
    Senator Blumenthal. If the right of privacy is not 
specifically delineated or described in the text of the 
Constitution, is it still equally valid as the rule of law?
    Judge Boggs. Yes, sir, I believe that the easy answer to 
that question is that I would base every decision on rights of 
privacy, fundamental rights, and use a constitutional 
interpretation model that is based on precedents of the U.S. 
Supreme Court and the Eleventh Circuit.
    Senator Blumenthal. And so you would not permit or allow 
your view of the Constitution as a strict constructionist to 
interfere in any way with carrying out the rights of 
individuals, the rights of privacy to individuals who may come 
before your court?
    Judge Boggs. Absolutely not, Senator.
    Senator Blumenthal. Let me ask you about another part of 
your record relevant to this same issue. You supported 
legislation that would require doctors to report the number of 
abortions they perform. Would you tell us why you supported 
that legislation? Don't you think it was ill advised?
    Judge Boggs. Well, Senator, let me respond this way: The 
legislation that you refer to was an amendment made on the 
floor of the House of Representatives. It was not an amendment 
that I drafted. It was not an amendment that I was familiar 
with. It came up on the floor of the House in the routine of 
handling the business of the legislature for that day.
    I supported measures like that and including that because 
those issues were very important to the people that I 
represented. My constituents as a State legislator were 38,000 
citizens in one county in southeast Georgia for the first 2 
years that I served. The district grew a little larger than 
that. But that district is a very conservative and a very pro-
life constituency. I believed that it was the obligation of a 
legislator to vote--listen to and vote the will of their 
constituency. Those issues were very important to my 
constituents, and that is why I supported that floor amendment.
    Senator Blumenthal. That amendment came within a few years 
after and before attacks on doctors who provided abortion 
services. Would you agree with me that it was a mistake to 
support that kind of amendment?
    Judge Boggs. In light of what I have subsequently learned, 
yes, sir, I do not think that it would be appropriate to be 
listing the names of doctors that perform abortions within what 
was then the Georgia Patient Right to Know Act, which dealt 
predominantly with litigation that doctors had been involved 
with and the ability of patients to see that information.
    Senator Blumenthal. Thank you. My time has expired, and I 
would turn to Ranking Member Grassley.
    Senator Grassley. It might surprise you, but I am going to 
ask you a lot of questions, and I am going to ask similar 
questions of what you did. I find no offense with your 
approach. And I hope the rest of you do not feel left out.
    [Laughter.]
    Senator Grassley. You served the past 10 years as--again, 
to Judge Boggs, you served the past 10 years as an elected 
State court judge, and I think you verified that already.
    Judge Boggs. Yes, sir.
    Senator Grassley. In this election did you run under any 
particular party?
    Judge Boggs. No, sir. Georgia's judges are elected 
nonpartisan at the levels that I ran.
    Senator Grassley. Okay. So your role as a judge has been a 
nonpolitical, nonpartisan. Is that correct?
    Judge Boggs. Entirely. Yes, sir.
    Senator Grassley. In 2001, as you have already said, you 
were elected as a Democrat to the Georgia General Assembly, 
right?
    Judge Boggs. That is correct.
    Senator Grassley. You have been criticized by some groups 
for some of the policy positions you took as a legislator. For 
instance, as a legislator, you had a pro-life voting record. 
You supported traditional marriage. I would ask you a couple 
questions. First I am going to read something that you said 
during Senate Resolution 595. This resolution recognizes 
marriage as a union between a man and a woman. In the statement 
on the resolution, you said, ``It is my opinion both as a 
Christian and as a lawyer and as a member of this House that it 
is our opportunity to stand up in support of this resolution.''
    So please explain what you meant by this statement.
    Judge Boggs. I clearly meant, Senator, that my personal 
opinion was at the time, over a decade ago, that I was in 
support of a proposed constitutional amendment that would have 
banned same-sex marriage. My position on that, Senator, may or 
may not have changed since that time, as many people's have 
over the last decade. Moreover, my position on that, as 
reflected by those personal comments in 2004, have never had 
any import whatsoever in how I decided cases or how I analyzed 
issues, both as a trial court judge and an appellate court 
judge.
    Senator Grassley. Is it fair to say that your Christian 
faith informed your policy positions as a legislator?
    Judge Boggs. Yes, sir.
    Senator Grassley. By contrast, how does your Christian 
faith affect you and your decisionmaking process as a judge?
    Judge Boggs. It never has interfered with my decisionmaking 
process whatsoever, Senator.
    Senator Grassley. Is there anything in your personal view, 
whether religious or otherwise, that would make it impossible 
for you to apply the law as a Federal judge, even if you 
personally disagreed with it?
    Judge Boggs. No, sir.
    Senator Grassley. You have also said, ``While serving you 
at the Georgia House of Representatives, I was proud to 
represent you. I tried to base all my decisions on commonsense, 
conservative values that are based on the fact that I was 
raised in a Christian home, and that has given me true family 
values.''
    Again, do you hold any personal or religious views that 
would make it impossible for you to apply the law as a Federal 
judge even if you personally disagreed with it?
    Judge Boggs. Absolutely not, Senator.
    Senator Grassley. Further, as I mentioned, you have been 
criticized for your legislative record with respect to 
abortion. During your time in the legislature, you cosponsored 
bills that would help encourage women to consider adoption and 
a bill that required minors to be accompanied by a parent or 
guardian before getting an abortion.
    Three questions in regard to that. There may be some 
concern that your personal views on abortion may influence your 
ability to follow precedent as a judge. What is your commitment 
to following precedent? I think you have made that very clear. 
I do not think you need to answer that.
    Please describe what you see to be the differences in 
responsibility as a policymaker and a judge regarding the topic 
of abortion. I think you made that very clear in your answer to 
Senator Blumenthal.
    Do you hold any views regarding abortion, religious or 
otherwise, that would make you unable to discharge your duties 
faithfully as a U.S. district judge?
    Judge Boggs. No, sir, I do not.
    Senator Grassley. You have many years of experience as a 
judge. Have there been any times where you decided a case based 
on your policy preferences or desired outcome rather than 
following the law or applicable precedent?
    Judge Boggs. That has never happened, Senator, and you have 
my commitment that, if I am fortunate enough to be confirmed, 
that would never happen.
    Senator Grassley. Mr. Cohen, you have been involved in 
litigation of the Georgia voter ID law. I have three questions 
in regard to that.
    Can you describe who you were representing in these cases 
and how you came to be involved in them?
    Mr. Cohen. Yes, Senator. Based on my experience in the 
Georgia Attorney General's Office, which was over 13 years, 
when I went into private practice, then Attorney General 
Thurbert Baker hired me to represent the State and its agencies 
in a variety of high-profile litigation. That varied from 
defending the University of Georgia's affirmative action 
program to defending a redistricting plan passed by a 
predominantly Democratic General Assembly to defending 
Georgia's photo ID law.
    In all of those cases, I was never involved in the 
enactment of any of those policies or legislation. I never was 
a lobbyist for any group either advocating for or against the 
legislation. I was hired just like any other lawyer is hired, 
and that is, to represent their client and advocate their 
position in court.
    Senator Grassley. If you were confirmed, how would your 
experience with voter ID laws influence your decisionmaking 
process as a judge if a voter ID case were to come before you?
    Mr. Cohen. It would not make any--it would not implicate my 
decisionmaking at all. I would be bound by the decisions of the 
U.S. Supreme Court, which in this case is the Crawford v. 
Marion County case in the Eleventh Circuit Court of Appeals in 
resolving that issue.
    Senator Grassley. Some have claimed that voter ID laws 
generally--and these would be like laws you have defended--
exist ``for no other reason than to deny African Americans the 
right to vote.'' Do you agree with that statement?
    Mr. Cohen. I think the case law in this area has come down, 
depending on the State it was brought in, in different ways. In 
Georgia, the evidence that was presented in our case did not 
lead the court to conclude that there was a denial of the right 
to vote. I am aware that in other States, because of different 
factual circumstances that were presented in those States and 
sometimes different statutes and different State constitutional 
provisions, the decision came out differently.
    So I think in any case involving a challenge to a photo ID 
law, it depends on the facts that are presented and the 
specific statute that is being reviewed.
    Senator Grassley. You already made reference to affirmative 
action cases you have been involved in. In Johnson v. Board of 
Regents, a class of students who were denied admission 
challenged the university system awarding points to applicants 
based on diversity. You defended the university's point system. 
The Eleventh Circuit found that the university's system was not 
narrowly tailored and, hence, unconstitutional.
    Tell us about the case and your role in it. Who were you 
representing?
    Mr. Cohen. I was representing the Board of Regents at the 
University of Georgia, again, hired by Attorney General 
Thurbert Baker. At that time that was before the Supreme 
Court's decisions in Grutter and Gratz. So the University of 
Georgia was implementing a points program very much like the 
University of Michigan was in its undergraduate institution. 
Both cases kind of were appealed at the same time. The Michigan 
case got to the U.S. Supreme Court, and our case was settled 
before that time.
    Senator Grassley. If confirmed, this ruling will be binding 
precedent over your court. What assurances can you give this 
Committee that you will follow it and any other precedent even 
if you may not personally agree with it?
    Mr. Cohen. Well, Senator, as a district judge, an Article 
III judge, I am bound by the decisions of the U.S. Supreme 
Court, and in the issue of affirmative action in higher 
education, that would currently be the Fisher case, the Gratz 
case, the Grutter case, and any other decision that might be 
issued.
    Senator Grassley. Ms. Abrams, I am going to quote, as I 
often do, Justice Scalia on living Constitution theory, who 
said: ``The risk of assessing evolving standards is that it is 
all too easy to believe that evolution has culminated in one's 
own views.''
    Do you believe that--forget that Scalia said that. Just 
think of the concept.
    [Laughter.]
    Senator Grassley. Well, I respect Justice Scalia, but I do 
not want him to be the focal point here.
    Do you believe that judges should consider evolving 
standards when interpreting the Constitution?
    Ms. Abrams. Thank you, Senator. I believe that a judge, and 
particularly a district court judge, is bound by the rule of 
law, bound by precedent, and in my case it would be the 
precedent--if I am so fortunate as to be confirmed, it would be 
the precedent of the Supreme Court and the precedent of the 
Eleventh Circuit, and that, and nothing else, would guide my 
decisions.
    Senator Grassley. Do you believe it is ever appropriate for 
a Federal judge to incorporate his or her own views when 
interpreting the Constitution?
    Ms. Abrams. No, Your--no, Senator.
    Senator Grassley. Because there was a split in the ABA 
rating of you, while a majority of the Standing Committee on 
the Judiciary rated you a qualified, a minority found the 
opposite. And the attachments you provided in response to 
questions to your Senate questionnaire provided very little in 
the way of examples of legal writing. Is there anything further 
that you could share with the Committee to ease any doubts that 
may exist about whether your experience has prepared you for a 
lifetime appointment?
    Ms. Abrams. Thank you again, Senator. I have practiced 
both, in Federal court, civil law as well as criminal law. And 
in that capacity, I have had a strong motions practice, both 
written and oral, and appellate practice. In my last almost 4 
years at the U.S. Attorney's Office, I have handled criminal 
cases from their very inception through sentencing, including 
trials, both jury trials and the equivalent of bench trials. I 
also handled my own habeas motions and have argued before the 
Eleventh Circuit Court of Appeals.
    In addition, after graduation from Yale Law School, I 
served as a clerk to a district judge, and I believe that 
firsthand experience has made me--helped me understand what the 
day-to-day obligations of a district court judge. While I 
understand that there will, in fact, be a steep learning curve, 
I have spoken to all of the judges of the Middle District of 
Georgia who I will work with if I am so fortunate as to be 
confirmed. And I know that they will support me in getting up 
to speed, and I think that my ability to study--and I have 
studied all of the rules and the bench book--and my hard work, 
my hard work ethic will help me do my duty as a district court 
judge if I am confirmed.
    Senator Grassley. I am going to yield. I am going to assume 
you two will not be here. Go ahead.
    Senator Blumenthal. Thank you, Senator Grassley.
    Just for the information of my colleagues, we are scheduled 
to have a vote I think at 11:10. I am going to turn the gavel 
over to Senator Franken when that happens, and he and I will 
trade places, and we will continue the hearing.
    I am going to turn to Senator Durbin now, but before I do, 
Judge Boggs, you mentioned a case that was decided while you 
were a judge, perhaps on the Georgia appellate court, dealing 
with the State's parental notification. I am not aware of that 
case. Could you provide the name and the opinion, if there was 
one, to the Committee?
    Judge Boggs. I may have misspoken. What I was referring to 
was that the parental notification law has been the law in 
Georgia since 1987, well before I became a legislator. My 
actions in the General Assembly--I am not sure of the year, but 
between 2001 and 2004--to amend that bill in two specific ways 
was to amend current statute. I do not know of any case--the 
case that you are referring to would be the one that was on my 
panel at the court of appeals?
    Senator Blumenthal. Yes.
    Judge Boggs. Oh, absolutely. Certainly, Senator.
    Senator Blumenthal. If you could provide the name and the 
opinion, if there was one, and any other details about that 
case.
    Judge Boggs. Certainly.
    Senator Blumenthal. Appreciate it. Thank you.
    Senator Grassley.
    Senator Grassley. I am going to submit questions in 
writing.
    Senator Blumenthal. And we will have--the record will stay 
open for all of us for a week after this hearing to submit 
questions in writing, but that one in particular, if you could 
respond to, I would appreciate it. Thank you.
    Judge Boggs. Yes. Thank you, Senator.
    Senator Blumenthal. Thank you.
    [The information referred to appear as submissions for the 
record.]
    Senator Blumenthal. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman. And at the outset 
let me say to all nominees, thank you for being here today, and 
special thanks should be given to your two Senators, Senators 
Isakson and Chambliss, who have worked very hard for this 
moment and have buttonholed each and every one of us about your 
nominations. They think very highly of you, and that commends 
all of you to our consideration, positive consideration.
    I do have a few questions, Judge Boggs, I would like to ask 
you because you appear to have served in the Georgia General 
Assembly at a very controversial moment when your State was 
debating its State flag. And the question was whether or not 
the flag would be changed and no longer display the Confederate 
X battle symbol.
    You were embroiled in that debate, and I ask you this 
question: Do you believe that Confederate flag issue had 
anything to do with the issue of race?
    Judge Boggs. You know, when that flag was passed in 1956, 
Senator, there was no legislative history. I was not a flag 
historian then, nor am I now. But in looking back on that issue 
and preparing for today, I know that some argue that race, 
particularly the--it was passed in reaction to the Brown 
decision from the U.S. Supreme Court in 1956. I have no reason 
to dispute that, although there are arguments on the other side 
as well as to what the motivation was for the bill originally.
    Senator Durbin. Beyond the motivation for the original form 
of the flag, when you were serving in the General Assembly and 
the debate was underway, and I believe overwhelmingly the 
African American legislators opposed that symbol in the flag, 
did that lead you to believe that that debate had anything to 
do with the issue of race in your time?
    Judge Boggs. Yes, sir.
    Senator Durbin. And what was your feeling?
    Judge Boggs. I was offended by the flag, Senator. At the 
time that I made that vote in 2001, I was a freshman 
legislator. I was in my 17th day of service. I was very 
respectful of the opinions that a majority of the African 
American community in my State had toward that flag. It was not 
only a symbol of a reminder of the Civil War and a horrific 
tragedy and horrible time in American history, a reminder of 
the institution of slavery, but it was also, I think, even more 
predominant, the more contemporary uses of that flag by 
organizations that espoused hate, that espoused oppression, 
that spouted over racism.
    I found that one of the most challenging things of being a 
legislator was deciding when to vote the will of my 
constituents and when to vote the will of myself and my own 
conscience. It was something that I have known other 
legislators to struggle with. I struggled with it regularly, on 
that issue particularly. The overwhelming majority of the 
constituents in my one county that I represented, which 
likewise contained a minority population that I was not 
ignorant of, overwhelmingly, though, those constituents desired 
that Georgians be permitted an opportunity to vote on whether 
Georgia changed the flag, and that is why I cast the vote the 
way I did. However, I am glad the vote--I am glad the flag was 
changed. It reflected something that I thought Georgia could do 
better with, quite frankly, Senator.
    Senator Durbin. Since you understood that the debate in 
your time dealt with issues that at least brought up echoes of 
race problems and slavery, let me ask you this: When a new 
compromise design was proposed in 2003 that removed the 
Confederate X but echoed the Confederate Stars and Bars flag, 
this design was supported by African American Democrats, and 
you voted against it. Why?
    Judge Boggs. Yes, sir. For the same reasons. The 
overwhelming majority of my constituents wanted a choice 
between the 1956 flag and the current flag. Intervening between 
the vote you just mentioned and my original vote was yet 
another opportunity to vote for a referendum on the flag, and I 
voted for that one. That would have afforded Georgians an 
opportunity to vote.
    However, I reiterate with the utmost respect, looking back 
on that vote, at the time I cast that vote, it was a very 
difficult decision to decide whether to vote my conscience, 
which was reflective of the will of the people in my 
community--I am sorry, the will of the constituents in my 
community or vote my own conscience. Terribly agonizing. I 
could not have been more respectful of the opinions of the 
people that desired that that flag change. And I am glad the 
flag did change.
    Senator Durbin. Judge Boggs, each year for over 10 years, a 
Congressman from your State, John Lewis, organizes a civil 
rights pilgrimage, inviting members of both political parties 
to come down and to personally witness some of the scenes of 
the civil rights struggles of the 1960s. And I was honored to 
be invited 1 year, and as fate would have it, walked over the 
bridge at Selma with Congressman Lewis in the early morning 
Sunday hours, and he pointed out the spot where he was beaten 
unconscious and clubbed down by troopers on that march to 
Selma, Alabama. And he said that--from Selma, Alabama. And he 
said to me, ``You know, there are many people who are 
acknowledged as heroes, and I should not be one of them.'' He 
said, ``I was just here doing what I thought was right.''
    But there was one in particular who hardly ever gets 
credit, and his name is Frank Johnson. Frank Johnson was a U.S. 
Federal district court judge, the position that you five aspire 
to, in the Middle District of Alabama. He not only ruled that 
the statue that allowed putting Rosa Parks in the back of the 
bus was wrong, he went on to rule that that Selma march would 
be allowed. For that, his mother's home was firebombed. He was 
basically invited away from polite society in his part of 
Alabama, but became an icon to many of us in terms of courage 
on the bench.
    I understand the role of a legislator and a politician, 
trying to measure your constituents and what they want against 
what you believe is right. And sometimes, sadly, they come in 
conflict.
    Obviously, Judge Johnson decided, sitting on that Federal 
court, that even though he would be ostracized by many of his 
friends, he would do what he felt was right.
    I have asked you a lot of questions about when you were a 
State representative, and you have basically said, ``I have 
reflected the way my people felt.'' So now how do you view that 
issue of race when you have an opportunity to serve on the 
district court here?
    Judge Boggs. Thank you, Senator, for the question. First 
let me say I have the utmost respect for Congressman Lewis. I 
know him. I respect his career. While I know he might have been 
critical of me during this process, I do not take any affront 
to that. I deserve that criticism based on that vote. I have 
nothing but the utmost respect for Congressman Lewis and for 
all of those, including my colleague that sits behind me, Judge 
Herb Phipps, who fought through years and decades of racism and 
oppression and became the second juvenile court--African 
American juvenile court judge in our State.
    So my vote was never intended to be disrespectful. It was 
never intended to fail to acknowledge the sacrifices that an 
enormous number of people made, from Dr. King to others, for 
the struggle that ultimately succeeded in equality. My vote was 
never intended to reflect that.
    I believe as a judge that everyone that comes before me 
should be treated equally. I believe that my record as both a 
trial court judge and as an appellate court judge reflects my 
faithfulness to that. I do not think anyone can disprove if 
someone is accusing someone of being a racist. How do you 
disprove that? I think the best evidence I would have that the 
people that know me best do not believe that in me is that 
after that vote, I had a primary challenge in the Democratic 
primary, and every African American elected official in my 
community supported me, including the mayor, city and county 
commissioners. They grew up with me. I went to school with them 
or their children in the public school systems. They know me. 
They know that that vote was not indicative of any bias I hold 
toward anyone.
    In that election I received 90 percent of the vote to be 
returned to the General Assembly for a second term. And these 
same groups and these same people overwhelmingly supported me 
with 80 percent of the vote when I ran for superior court 
judge, and I think that is the best evidence that I hold no 
bias, Senator.
    Senator Durbin. Thank you, Judge Boggs.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Durbin.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman. Thanks to all of you 
for your willingness to be here and your willingness to serve.
    Ms. Abrams, let us start with you. I see most of your 
practice throughout your career has been in civil litigation. 
Is that right?
    Ms. Abrams. Yes.
    Senator Lee. Although less so in the U.S. Attorney's 
Office.
    Ms. Abrams. Definitely.
    Senator Lee. That has given you a good flavor for both of 
them, both of which will be important components of your 
caseload, should you be confirmed.
    When you approach a civil case--and, you know, as you know, 
a lot of civil cases are decided on dispositive motions, and 
when they are not decided on dispositive motions, there is 
usually a dispositive motion that is made at some point or 
another.
    When you review a dispositive motion, whether it is a 
motion to dismiss or a motion for summary judgment, is it 
appropriate for a judge to err on the side of granting or 
denying a dispositive motion? In other words, there are some 
judges occasionally that will say, at least privately, ``I 
would rather err on the side of giving the plaintiff his or her 
day in court, a trial.'' Do you lean in either direction? In 
other words, is it just as bad to grant a dispositive motion 
where it is not warranted as it is to deny one where it is? Is 
either one worse than the other?
    Ms. Abrams. Thank you, Senator. I do not believe that one 
is either worse than the other or that it would be appropriate 
for me to hold a belief as to that. I think that every case 
that comes before me, if I am confirmed, should get the same 
treatment, and that is, a fair and impartial application of the 
law to the facts of that particular case.
    Senator Lee. Okay. So you would not have any predilection 
one way or another toward granting or denying them. You are 
going to call them as you see them based on the issues brought 
before you.
    Ms. Abrams. Yes, Senator.
    Senator Lee. I sometimes see a dangerous tendency in the 
courts in that sometimes we can end up with trial by attrition 
where those--you know, it is easier to deny a motion for 
summary judgment than it is to grant one in some ways. And in 
some ways it involves less risk. You do not have to write a 
lengthy opinion when denying one. It is often easier to write 
the opinion. It is not immediately appealable in most 
circumstances, and so it is often easier to just say, well, I 
will deny this one and see what happens on appeal. Would you 
tend to agree with that?
    Ms. Abrams. I think that that certainly does happen. I 
fortunately was trained by a judge who believed that we had to 
get it right, and when I was a clerk, I did, in fact, deny a 
number of motions that, in effect, ended cases. But that was 
because the law, the applicable law, dictated that that was how 
a case should be handled. And I hope that I learned enough from 
Judge Garbis and that I would, in fact, fairly and impartially 
apply the law to the facts of each case as it comes before me.
    Senator Lee. Judge Garbis is still on the bench, right?
    Ms. Abrams. Yes, he is.
    Senator Lee. So Judge Garbis is still available if you ever 
need to----
    Ms. Abrams. He most certainly is.
    Senator Lee. That is good.
    Judge Ross, you are already a judge. Do you agree with what 
Ms. Abrams has said? Do you disagree with any of this?
    Judge Ross. I agree with Ms. Abrams that I would have no 
predilection either way, and also I can say that having served 
as a State court judge, I have never ruled on a motion for 
summary judgment just at the point of being cautious.
    Now, I have taken longer to rule on some of them than on 
other issues because, like Ms. Abrams said, I wanted to get it 
right. And I am fortunate enough to say that none of the 
rulings that I have rendered on motions for summary judgment 
have gotten reversed with the exception of one portion of one 
ruling based on attorneys' fees. And I did agree with the court 
of appeals that I should have analyzed it slightly differently.
    Senator Lee. Okay. Ms. May, do you have any particular 
judicial philosophy? How would you describe or define your 
judicial philosophy?
    Ms. May. Thank you, Senator Lee. My judicial philosophy 
would be to apply the law fairly and equally to all people, if 
I am confirmed as a district court judge, that would appear in 
front of me. I think it is very important for judges, as Ms. 
Abrams said, to get it right, and that means following the 
applicable Supreme Court and Eleventh Circuit precedent to the 
letter and not allowing my own personal opinions to get in the 
way of stare decisis and applying the applicable law.
    I also think it is important for judges to treat both the 
parties and the attorneys with respect and to listen to all 
sides to an argument to make sure that as a judge I would 
understand the arguments of the parties; and also when issuing 
orders or ruling on specific issues, I also believe it is very 
important for a judge to be clear and let the parties know 
exactly what the ruling is so that they can apply that to the 
rest of the case and move forward.
    Senator Lee. Thank you.
    Judge Boggs, you commented a few minutes ago about your 
inclination as a legislator to try to figure out, you know, 
what your constituents would prefer and that that can sometimes 
put a legislator in a difficult position.
    Does any of that apply to you as a judge, either as a State 
judge or would it apply to you as a Federal judge if you were 
confirmed?
    Judge Boggs. Thank you, Senator. No, it does not apply, and 
that is a very comforting part about being a judge. I think I 
am more suited to be a judge than I was a legislator, quite 
honestly. There is a lot of comfort in the rule of law. There--
--
    Senator Lee. Are you saying you would look good in the 
robe?
    [Laughter.]
    Judge Boggs. I am confident not.
    You know, the gauging of public sentiment on any issue as a 
legislator is always difficult. The political implications of 
votes are difficult. The considerations that partisan 
politicians have to make day in and day out are difficult 
decisions.
    The decisions judges make are likewise difficult, but the 
fortunate part about the faithfulness to the rule of law is you 
do not stick your finger in the wind every time you decide a 
case to decide what is popular and what is public will and what 
is the general direction of the public on this issue.
    I am very comforted in knowing that if you are faithful to 
the rule of law, if you are faithful to apply precedent to 
every case, and you do not interject your personal opinions, 
while it is true you may make some unpopular decisions, 
popularity is not the test of whether justice has been done.
    Senator Lee. Would that apply even when you are being asked 
to make a ruling that is going to be strongly against the 
public will? I mean, it is not just that it might not be the 
most popular ruling, but a ruling that, in the eyes of the 
public, might seem harsh, might seem unfair, might go against a 
very popular party before you, perhaps a very sympathetic 
plaintiff or defendant?
    Judge Boggs. Yes, Senator, I think indeed judges that are 
faithful to the law are going to make unpopular decisions on a 
regular basis. The comforting part about being a judge is that 
the law should prevail in each and every case. Sympathy for the 
party, empathy for the party has no role. The gender or role or 
sexual orientation of a party has no role in deciding how you 
issue a decision.
    It is much more difficult when you are, I think, a partisan 
legislator to deal with those issues because, quite frankly, I 
think most of you all have districts in your States, your 
entire States, and I did as a legislator, where your entirety 
of your constituency do not always agree or rarely agree on 
everything. Fortunately, as a judge, you are not concerned with 
those issues.
    Senator Lee. Okay. Thank you. I see my time has expired.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Lee.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much. Thank you to all of 
the nominees. This is a very special day, and I can see you 
have a lot of happy family members back there.
    I was going to ask some questions of Mr. Boggs. I know, Mr. 
Boggs, you were a judge--for how long?
    Judge Boggs. Ten years now, Senator.
    Senator Klobuchar. Ten years, okay. And obviously there is 
a lot of understandable questions about the positions that you 
took as a candidate and in the legislature on choice and civil 
rights and marriage equality. Did you rule on any of those 
cases when you were a judge, cases involving those issues?
    Judge Boggs. As a trial court judge in Georgia's highest 
level of trial courts, I did not have jurisdiction to rule on 
constitutional questions, if that is your question. As a judge 
on the intermediate appellate court in Georgia for the last 
2\1/2\years, we have limited constitutional jurisdiction. 
Specifically, we only deal with the Constitution as applied and 
whether it was applied in an unconstitutional fashion. But 
jurisdiction in constitutional cases presides with our Supreme 
Court.
    Senator Klobuchar. Thank you. Could you talk about your 
oval judicial philosophy, how your personal views have shaped 
that philosophy?
    Judge Boggs. I do not know, Senator, that my personal views 
have shaped my philosophy. My experiential views as having been 
a judge for 10 years has shaped my philosophy. I try to emulate 
characteristics that I see in other judges that I value. My 
general judicial philosophy is that judges should be faithful 
to the law. They should be faithful to the doctrine of stare 
decisis. They should understand the limited role of the 
judiciary, and they should not be policymakers.
    In addition, I think it is imperative that judges are 
continually treating every party that appears in front of them 
equally before the law. That builds public confidence in a fair 
and impartial judicial system, which I think is very important.
    Senator Klobuchar. And in your opinion, how strongly should 
judges bind themselves to the doctrine of stare decisis?
    Judge Boggs. Well, I think the doctrine of stare decisis 
should bind all judges. It bound me as a trial court judge. I 
was bound by the decisions of the court I now serve on and also 
the Supreme Court of Georgia. I think as an appellate court 
judge I am bound obviously by the decisions of the Supreme 
Court of Georgia. And if I am fortunate enough to be confirmed, 
I would be bound and follow all of the decisions of the Supreme 
Court, even on those issues that you discussed.
    Senator Klobuchar. Well, the Supreme Court ruled nearly 50 
years ago in the Griswold and Eisenstat cases about privacy 
rights and access to contraception. Do you view these cases as 
settled law?
    Judge Boggs. I do, and I would follow that precedent if I 
were fortunate enough to be confirmed.
    Senator Klobuchar. I am concerned about this amendment. I 
know there is a lot of background here, and I have read it all, 
but one of the things that really stuck out to me as someone 
who is a former prosecutor dealing with public safety issues 
was the amendment that you supported in the Georgia State 
Legislature--and I think Senator Blumenthal had asked about 
this. I had to leave for another hearing, but I had some more 
questions on it--that would have required posting on the 
Internet about the number of medical procedures that doctors 
have performed having to do with terminating a pregnancy. I 
think there could clearly be public safety implications for 
these doctors if you put all this detailed information about 
them online. And I think you can see it in other areas as well, 
and I think we have certainly seen lives being taken from these 
doctors that terminate pregnancies. And we do not put this kind 
of information online for other procedures in other medical 
areas.
    My first question is if your views on this issue are still 
the same.
    Judge Boggs. Well, I would be hesitant to give you my views 
on that issue inasmuch as that may come before me as a judge, 
but I would tell you, as I did Senator Blumenthal, that that 
was a floor amendment. I did not have any idea it was coming. I 
did not have anything to do with the drafting of it. The author 
of that amendment on the floor of the House when he presented 
it did not discuss it with me ahead of time.
    In retrospect, and particularly in light of what I have 
learned subsequently concerning the public safety issue, I 
should not have voted for that amendment.
    Senator Klobuchar. And so did you consider that at that 
time when you voted on it, the public safety risk?
    Judge Boggs. I was not aware, as I am now, Senator, at the 
time of the public safety risk. Again, in the back and fro of 
bringing up a bill, floor amendments coming up, I should have, 
and in hindsight it is regretful that I did not.
    Senator Klobuchar. Okay. Last year the Supreme Court issued 
an important ruling on marriage equality in the Windsor case. 
How would your personal views on marriage equality impact your 
decisions as a judge?
    Judge Boggs. They would not. I am faithful to the 
obligation to follow stare decisis, and I would follow Windsor 
and any other cases out of the Supreme Court, including Romer 
and Lawrence.
    Senator Klobuchar. Would you commit to following Supreme 
Court precedent in this area when it comes to marriage 
equality?
    Judge Boggs. Absolutely, Senator.
    Senator Klobuchar. All right. I know that there has also 
been some attention around comments you made while running to 
be a State court judge. If confirmed, what role do you think 
your personal opinions about women's reproductive rights should 
have on the cases before you?
    Judge Boggs. My personal opinion on women's reproductive 
rights has no role on how I would decide legal issues or decide 
cases or analyze issues were I to be confirmed as a district 
court judge.
    Senator Klobuchar. One of the things that has been brought 
to my attention I think would concern a lot of people, but not 
as much as the amendment on the doctors' posting. But you 
cosponsored a bill that took some pictures with license 
plates--you took pictures with a license plate, I think, and it 
said ``Choose Life,'' the license plate. What do you think 
about that and how it would influence any decisions that you 
would make going forward?
    Judge Boggs. Well, thank you, Senator. The Choose Life 
adoption support program was a bill that was presented to the 
General Assembly. I cosponsored it along with probably a 
majority of the members of the 180-member House of the General 
Assembly in Georgia because it was important to the 
constituents that I represented. It would have no impact, my 
personal beliefs, on reproductive rights as with my personal 
beliefs on any issues. Not only would it have no impact if I 
were fortunate enough to be confirmed, but I think my record 
demonstrates over the last 10 years that I am faithful to never 
interject my personal opinion into decisions I make.
    Senator Klobuchar. Were there any questions about you 
injecting your personal opinion into decisions that you made? I 
am sure you had cases appealed, like everyone else does, as a 
State court judge. And were the basis of any of the appeals 
that you had somehow injected your personal views on any 
subject?
    Judge Boggs. I am proud to say, no, Senator, not one time.
    Senator Klobuchar. All right. Thank you very much. I 
appreciate your answers.
    Judge Boggs. Thank you.
    Senator Hirono. [Presiding.] I will be chairing. Senator 
Flake?
    Senator Flake. Well, thank you. I hate to keep this going, 
but, Judge Boggs, just quickly, in 2013 you received the Grass 
Roots Justice Award that was given by the Georgia Justice 
Project on behalf of the Criminal Justice Reform Council. 
According to the Georgia Justice Project, the Grass Roots Award 
was created in 2008 as a way to lift up the work of people and 
organizations whose efforts give voice or lend aid to the 
poorest in the community, and in doing so, complement the work 
that they do at the Georgia Justice Project.
    Can you tell about the role you played in the Criminal 
Justice Reform Council and the work you did to receive that 
award?
    Judge Boggs. Thank you, Senator. That award was received by 
me on behalf of the Criminal Justice Reform Council. It was not 
an award specific to me, but an acknowledgment of the work of 
the entire council, which I co-chaired. I have had the 
pleasure, since I have been both a trial court judge and an 
appellate court judge, to work to improve the judicial system 
for the very people that are most frequently involved in it, 
particular in the criminal justice arena.
    As a trial court judge, I developed and presided over our 
circuit's first felony drug court program. I believed that it 
was appropriate to try to assist people whose mental health 
issues or substance abuse issues were driving their felony 
criminal conduct.
    I am proud to say that that program still exists. It has 
now expanded into a mental health court program, which I had 
always aspired to do had I stayed on that bench.
    In 2011, the chief justice of the Georgia Supreme Court 
appointed me as a member of the Georgia Criminal Justice Reform 
Council, and as a member, we addressed adult felony criminal 
justice reform by doing a lot of the things, quite honestly, 
Senator, that this body is considering, both in the Smart 
Sentencing Act, the Recidivism Reduction Act, and Chairman 
Leahy's Safety Valve Act of 2013, where we have looked at 
mandatory minimums and provided a couple of safety valves. We 
have looked at programs that would assist people with substance 
abuse issues that are involved in felony criminal conduct so 
that we can assist them in the community.
    We found that those programs that are evidence-based 
programs are very successful in reducing recidivism. They are 
much better at saving taxpayer money. And, importantly, they 
put people back with their families, and they restore people to 
a productive life.
    Later, the Governor of the State of Georgia appointed me 
for the last 2 years to co-chair Criminal Justice Reform. In 
2013, we addressed juvenile justice reform, developed a fiscal 
incentive grant program to incentivize local communities to 
treat juveniles in their community as opposed to very costly 
and unproductive, we think, out-of-home placements. And then 
last year, I co-chaired the council again, and we addressed the 
concept of re-entry. What do we do with the approximately 
18,000 inmates that are being released from Georgia's prison 
system a year? How can we better equip them to be successful? 
How can we ensure public safety at a better rate than what we 
have been achieving? Our recidivism rates are currently roughly 
30 percent, and that is unacceptable, particularly with respect 
to the cost to the taxpayers in our State.
    And so with the charge we were given, I have been very 
fortunate in being part of developing a program, an evidence-
based program in the State that will help these inmates while 
they are in prison learn job training skills that are 
transferable, help these inmates with substance abuse programs 
while in the system, provide a seamless transition from prison 
to the community, and then provide resources to the community 
to ensure that these citizens are productive, lawful, compliant 
with the law, but also productive citizens that can get their 
lives back. And I have been very proud to be a part of that, 
and I appreciate your question, Senator.
    Senator Flake. Thank you. That is all.
    Judge Boggs. Thank you.
    Senator Hirono. Senator Feinstein.
    Senator Feinstein. Thank you very much, Madam Chairman.
    I would like to ask a couple of questions, if I can. Again, 
I regret that I was not here, Judge Boggs, to hear your answer 
to the question on essentially the bill that had online 
profiles to the number of abortions performed by a doctor over 
the prior 10 years. And I think you said it was a mistake. What 
exactly did you mean by it was a mistake?
    Judge Boggs. I do not think it would be appropriate, 
Senator, to post that information online. It would be a huge 
public safety risk for the physicians that are performing, 
lawfully performing abortions pursuant to the authority they 
have from the Supreme Court. And that is what I meant.
    Senator Feinstein. Okay. So you are saying essentially the 
bill was wrong.
    Judge Boggs. The amendment that was proposed was not----
    Senator Feinstein. The amendment, yes.
    Judge Boggs. It was not my amendment, but, yes, ma'am, the 
amendment was ill conceived, I believe, in hindsight.
    Senator Feinstein. Because I trust you are aware of the 
kind of violence that takes place around this issue. And, you 
know, there is a question, I think, among many of my colleagues 
whether an activist conservative judge can no longer--or an 
activist conservative can become a judge that is not an 
activist judge. I happen to believe that is possible. In a 
couple of cases, I have voted for an Eleventh Circuit and a 
Fifth Circuit judge that I think have done very well when they 
said they would not continue to be activist.
    I think when you come to a Federal court, it is really very 
important that the questions of constitutionality on an issue 
are active by someone who, as Judge Abrams has said, will 
follow precedent. And this Committee--I sat on it for 22 
years--we have been acutely disappointed by the fact that 
people pledge themselves to stare decisis, and then they leave 
here and they take the oath as a judge, and you just watch and 
you say, ``Where has it all gone?''
    I do not want to cast a vote for someone where that 
happens, and so I want to ask you a couple of questions.
    The issue of choice is extraordinarily important to me. I 
represent a State which is dominantly pro-choice. What would be 
your position on issues revolving around a woman's right to 
choose? Now, this is purposely an open question.
    Judge Boggs. Yes, ma'am. Thank you, Senator. My position on 
matters that might appear before me regarding a woman's right 
to choose would be faithfulness to the rule of law, 
faithfulness to stare decisis. And while I respect that there 
have been some bad experiences maybe by Members of this 
Committee, I think the best example I can give you is not what 
I say that I will do but evidence of what I have done as both a 
trial judge and an appellate court judge in my State, disposing 
of roughly 14,000 cases.
    I think my record is the best evidence that I can separate 
any political or partisan or public policy position I may have 
from my ability to be an impartial decisionmaker. And you have 
my commitment that, if I am fortunate enough to be confirmed, I 
will follow the precedent of the U.S. Supreme Court on women's 
reproductive rights issues as I will on any other issue that 
they decide.
    Senator Feinstein. Well, you see, I listened to a couple of 
Supreme Court Justices say just that, and Senator Hirono was 
not here then, but there were long discussions on this, and 
then, bingo, it all changed. And it makes us feel very foolish 
to believe what we hear.
    So, I mean, for me, I have to make a judgment whether you 
mean what you say or whether it will be just like the Supreme 
Court Justices who pledged to us diligent pursuance of stare 
decisis. And it just did not happen.
    Now, let me ask you another issue, and Senator Klobuchar 
began it, and I would like to just do it in a slightly 
different way, and that is, U.S. v. Windsor. I am aware that a 
lawsuit is pending in the court to which you are a nominee, so 
I want to be very careful. But I am the main author on 
repealing the Defense of Marriage Act. I was one of 14 that 
voted against it in the 1990s, and we have 42 cosponsors. We 
lost Baucus, but we are getting close. And as you know, 17 
States and the District of Columbia have essentially approved 
the right of marriage to same-sex partners.
    What DOMA did was--family law--divorce, et cetera--is 
generally the preserve of State law, but in that case, they 
made it the preserve of Federal law and in so doing removed 
some 1,100 Federal rights from couples that are duly married in 
their State. So this involves estate tax rights, Social 
Security rights, and on and on and on.
    So the question I have would be: If your State were to 
approve same-sex marriage or the Supreme Court on the Windsor 
case would repeal DOMA, how would you feel and how would you 
act as a judge?
    Judge Boggs. My personal feelings would be irrelevant to 
how I would act as a judge. You have my commitment that I would 
follow the decision in Windsor. I would follow any precedent 
from the Eleventh Circuit or the Supreme Court on marriage 
equality issues, as I would any issues. My personal opinions 
expressed over 10 years ago on that issue may or may not have 
changed. But whatever my personal beliefs are on that or any 
other issue, they have never been relevant to how I have 
decided cases.
    With respect to your earlier question, Senator, my 
fundamental philosophy is that judges have an obligation to 
follow the law. You do not have to believe me necessarily when 
I say here today under oath--I hope you would--that I would 
follow precedent. But I hope you would also look to what I have 
done for the last 10 years that demonstrates a faithfulness to 
follow precedent in over 14,000 cases and 273 opinions I have 
authored on the Georgia Court of Appeals that have all been 
made available to the Committee.
    I think it is a fundamental obligation of judges to follow 
stare decisis, but I recognize that maybe that is not always 
followed through with by some nominees.
    Senator Feinstein. Well, at least my vote depends on 
whether I believe that or not and for how long I can continue 
to believe it. And I think this is a very hard one.
    The third issue, of course, is race. I think you were 
eloquent on the subject of the Confederate flag and what it 
means. It really means much more than just the material of that 
flag. It is a whole history, it is a whole set of beliefs, 
which are rather counter to America of today.
    So my hope is--and I do not know. I hope to have a chance 
to talk with you more after this. But what I want you to know 
is for my vote I have to have certainty. And I do not know 
quite how to get it in view of this record. So I want to just 
put that on the table publicly.
    Judge Boggs. Thank you, Senator. I respect that position.
    Senator Feinstein. Thank you. My time is up.
    Thanks, Mr. Chairman.
    Senator Blumenthal [presiding]. Thank you, Senator 
Feinstein.
    Let me just close by going back to a line of questioning 
that I began--I know that some of my colleagues have pursued 
it--the amendment dealing with publicizing doctors' 
performances of abortion. And I know that you said that it was 
not your amendment, that you may have been--well, maybe I 
should just ask you: Were you unaware about the violence that 
was linked to performing abortions at that time? Dr. Barnett 
Slepian was killed in 1998. The FACE statute in New York was 
passed in 1994. Your amendment was voted on in 2001. There was 
clearly a very powerful history of violence linked to doctors' 
providing these services. And I find frankly incredible the 
idea that you would not understand that this amendment would 
put doctors at risk.
    Judge Boggs. Well, thank you for the question, Senator. 
Indeed, it was not my amendment. However, I did support it on 
the floor. I have stated earlier in this hearing that I 
believed the amendment was ill conceived. I regret that I voted 
for it. I recognize the public safety risk now much more so 
than I did at that time.
    Ultimately, I think, as a legislator casting thousands of 
votes for amendments and bills and making decisions in 
committee, it is not, I think, entirely unexpected that there 
may be some votes that I have cast throughout my judicial 
career that in hindsight looking back on them as a legislator 
trying my best to represent the people that I represented in a 
very staunchly pro-life district, I might have made some 
mistakes. I was not a perfect legislator. I am not a perfect 
judge. But looking back on it, I regret that vote, and I 
recognize fully the public safety risk.
    Senator Blumenthal. Well, I appreciate your disavowal of 
it. I think it is more than just another vote. This one was 
significant. We all cast votes here, and we are all responsible 
for every one of them, and some are more significant. This one 
strikes me as profoundly significant insofar as it involved not 
just a matter of constitutional rights, not just the rule of 
law, but physical safety for medical care providers, doctors 
who were providing constitutionally guaranteed rights to women 
vulnerable to the same kind of violence.
    So I appreciate your comments on it, and I think it is 
something that we will have to take into account.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. I, too, have some 
questions for Judge Boggs, and I know that mainly it is--and 
the rest of you should feel good about that, is what I am 
saying. You should feel very happy about that.
    Judge Boggs, I had the opportunity to meet you a couple 
weeks ago, and I enjoyed that meeting. And I believe that 
judges can decide things by--you know, in the proper way, even 
if they have had a record before of votes when they are in the 
legislature that are contrary to constitutional--what has been 
decided constitutionally. And I do not want a situation where 
we cannot ever have people confirmed because they have some 
public record on something. I think that is a bad tendency. I 
think that is a bad tendency to do that. So I think that--
because a judge's role is to make decisions based on what the 
law is, and not take their personal opinions, although personal 
opinions or experience I think do shape how a judge--and it 
invariably has to. And Oliver Wendell Holmes said that, you 
know, experience is the law in many ways for judges.
    So I think it is important, we have to factor it in, but we 
cannot establish a system here where we are just looking at 
things in the past, either at votes as a legislator or just 
opinions expressed by a professor, you know, who is writing 
scholarship. I think that is a dangerous thing that we are 
doing.
    But I do think that we--I think it was good that we get to 
question you, and I think it is good that we get to actually 
meet you beforehand in private, and I did that. And when I 
talked to you about the Confederate flag or the Confederate war 
symbol, or battle emblem, rather, I guess, on the flag, you 
told me that you voted against changing the flag because your 
constituents wanted the right to vote on it on referendum. 
Isn't that right? Isn't that what you told me?
    Judge Boggs. I did tell you that, Senator, yes.
    Senator Franken. So then I look back, and it turned out you 
voted twice on this, and at the first time, in 2001, there was 
no referendum.
    Judge Boggs. Correct.
    Senator Franken. So I felt kind of, you know, a little odd 
about that because I went like, okay, well, that one there was 
no referendum. And so give me a chance--or I would like to give 
you a chance to explain that, because what I got out of our 
meeting was that you had--that your constituents overwhelmingly 
wanted a referendum on this, and yet there was no referendum 
attached the first time. So can you explain both votes?
    Judge Boggs. Well, the first vote, Senator, indeed there 
was no non-binding referendum presented in that legislation. My 
constituents overwhelmingly believed that a vote against that 
bill might subsequently result in a referendum that would offer 
them an opportunity to choose between the old flag and what 
subsequently we had changed to.
    You know, I have expressed earlier my position on that. I 
do not know how to explain it any further. I will tell you, 
Senator, that it was an agonizing opportunity 17 days into my 
legislative career to make this balance between and address 
this challenge between voting the will of my constituents and 
voting what I believed conscientiously was the correct thing to 
do.
    Subsequently, there was an opportunity to choose--to 
present to the public in Georgia a non-binding referendum that 
includes the post-1956 flag and the flag that we had changed to 
in 2001. I voted for that referendum. It provided my 
constituents with what I thought they wanted.
    Subsequently, however, that did not pass, and there was 
another referendum to the one I think to which you refer, and 
voted the same way I did the first time.
    Senator Franken. Did you introduce a resolution in 2001 to 
have a referendum?
    Judge Boggs. No, sir. I never--I did not introduce a 
referendum. I did not author any of these bills. But I did not, 
likewise, introduce a referendum.
    Senator Franken. Okay. Well, you understand from my point 
of view where, when I asked about this, you said it was because 
your constituents overwhelmingly wanted a referendum.
    Judge Boggs. Yes, sir.
    Senator Franken. But there was no referendum on that vote, 
and you did not introduce anything about a referendum. Did you 
say anything about there bring a referendum? Was there anything 
in the public record about your saying there should be a 
referendum?
    Judge Boggs. No, sir, I never spoke then publicly about my 
position on the flag. I do not necessarily----
    Senator Franken. Okay, but you talked to me about it.
    Judge Boggs. Yes, sir.
    Senator Franken. And what you said to me was the way you 
voted was because your constituents overwhelmingly wanted to 
vote on it.
    Judge Boggs. Yes, sir.
    Senator Franken. And it does not seem like that vote had 
anything to do with a referendum.
    Judge Boggs. I understand the question, Senator, and 
appreciate it. I am trying to clarify it. I do not see the 
inconsistency that your question presumes. My constituents 
wanted to vote, we were not presented with an opportunity to 
vote, and that therefore represents an inconsistency. My 
position was, my constituents' position was to vote against any 
flag change that did not present them with an opportunity to 
vote on the flag. And 17 days into my career would not have 
probably been the time for me to introduce a non-binding 
resolution on that matter.
    Senator Franken. Okay. But what you told me was that you 
voted because you wanted them to have a chance to vote, but 
nevertheless, there is no record of your saying that.
    Judge Boggs. Right.
    Senator Franken. And, actually there is a record of your 
telling a local newspaper that you voted to keep the flag with 
a Confederate--this is in 2001, that you voted to keep the flag 
with a Confederate symbol because your constituents 
overwhelmingly supported the flag.
    Judge Boggs. Yes, sir, I did say that, and I think that is 
consistent with what I have said today, and what I told you 
when we met.
    Senator Franken. It seems like that when we met, you said 
that--you did not say it was because your constituents 
overwhelmingly supported the flag. It was because your 
constituents overwhelmingly wanted to vote on it. And I think 
those are two different things. And it gave me the--it led me 
to the understanding, whether you intended it or not, that your 
only vote was a vote on whether to put that flag up for a vote, 
that that is what you wanted, that you voted against changing 
the Confederate flag on the Georgia State flag--it is like a 
bit part of the flag. It is like half the flag or something. 
And that was passed in 1956, and for no other--I mean, that was 
because of Brown. And so it really was about--this was not 
something that was part of the Georgia State flag after 
Reconstruction. It happened in 1956, 2 years after Brown.
    So to me, this is a very important thing, and as I said, I 
do not think that we should be judging--or we should be 
confirming people based on public stuff they said before unless 
it is so antithetical to being a good judge. And I know you 
have been a judge for 10 years now, and I hear wonderful things 
about you. The thing that upsets me or that gave me some pause 
is that we had this meeting, and in the meeting I felt that you 
gave me a little slightly misrepresentation of your record on 
this by saying that the reason you voted against changing the 
Confederate flag being on the bill--on the State flag was that 
your constituents wanted a referendum on it. But there was no 
referendum tied to that 2001. You did not raise anything about 
a referendum. You did not say anything publicly about a 
referendum. And, in fact, you told a local newspaper that the 
reason you voted against it was because your constituents 
overwhelmingly want to keep that flag. And those are two 
different explanations to me. Those are two different things.
    And so while I am very--you know, I am very disturbed about 
this tendency of us to vote against people because something in 
their past--because they were brave enough or acted out of 
conviction beforehand, I do judge by my meetings with people 
how forthright they are.
    On this last thing, or on this thing that the Chairman 
brought up about the voting to put online the number of 
procedures, abortion procedures, that doctors had performed, 
you know, there was at that time these Nuremberg files that 
they talked about, which they put on the names of doctors. 
There had been doctors murdered for this. And yet you say that 
you were a State legislator then and that you were not aware of 
that at all?
    Judge Boggs. Senator, respectfully, I was not. That was not 
my amendment. The bill that was proposed to be amended was a 
Patient Right to Know Act that would have listed 20 other 
things about physicians, predominantly related to medical 
malpractice lawsuits and settlements.
    Senator Franken. But did it list procedures, other 
procedures?
    Judge Boggs. I do not recall, Senator, if it listed other 
procedures.
    Senator Franken. You do not recall.
    Judge Boggs. But I have indicated here today and I would 
have indicated previously that my position on that was ill 
conceived.
    Senator Franken. But you were a State legislator at the 
time but were not aware of any of the public safety issues that 
were involved around this whole issue?
    Judge Boggs. I was not, and I think that is probably 
attributable to the fact that this came as a floor amendment, 
not a bill, not something I had an opportunity to study, not 
something I had an opportunity to even speak to other 
legislators about. It happened on the floor of----
    Senator Franken. So this was simply off your radar, all 
this news around threats to doctors and bombings of clinics and 
those kinds of things? How old were you at the time?
    Judge Boggs. Thirty-seven.
    Senator Franken. You were 37 years old.
    Judge Boggs. Yes, sir.
    Senator Franken. And a State legislator.
    Judge Boggs. Yes, sir.
    Senator Franken. And you were not aware of any of that.
    Judge Boggs. No, sir.
    Senator Franken. Okay. Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Franken.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman. And I thank all of 
the panel members for being here.
    Judge Boggs, you explained your vote regarding the Georgia 
flag, you explained your position regarding the online posting 
of abortion instances as basically, if I understand you 
correctly, reflecting your constituents' views and not your own 
conscience. Is that an accurate statement?
    Judge Boggs. With respect to the flag, yes, Senator, that 
is correct. With respect to at the time my position on 
reproductive rights issues, I was respecting also the will of 
my constituents, yes.
    Senator Hirono. For those of us who have served in State 
legislatures, we certainly know the challenges in when to 
express your constituents' views and when to vote your 
conscience. So as you think back, can you give an example of 
when you went against the will of your constituents and voted 
with your conscience?
    Judge Boggs. I can think of several instances, Senator. I 
supported reapportionment maps drawn by Democrats in the 
General Assembly during my term in the legislature that were 
not supported by the majority of the people in my district.
    Senator Hirono. Well, if you do not mind my interrupting, 
then considering that so many of the questions that we have 
been asking have to do with in the area of reproductive rights, 
civil rights, those areas, have you at any point when you were 
in the State legislature voted your conscience on matters that 
are related to the gist of the questions that we have been 
asking?
    Judge Boggs. Senator, I cannot think of any specific 
instance at this time. I would be happy to answer that question 
in writing after having been given an opportunity to review my 
legislative voting record.
    Senator Hirono. That is fair.
    [The information referred to appears as a submission for 
the record.]
    Senator Hirono. You have voted a number of times as a 
legislator for bills and amendments that raise the question 
regarding your views on abortion. So I wanted to ask you, 
because you said that your personal view on abortions would not 
be appropriate for you to let us know, but do you agree with 
the Supreme Court's decision in Roe v. Wade that granted a 
constitutional right to a woman to have an abortion?
    Judge Boggs. Absolutely, and also in the Casey decision as 
well, and I would be bound by those if I were confirmed, and I 
pledge to you that I would faithfully follow that precedent.
    Senator Hirono. So until and if the U.S. Supreme Court 
changes its decision on Roe v. Wade, you will apply Roe v. Wade 
in the way that it should be applied?
    Judge Boggs. Without question, Senator.
    Senator Hirono. Thank you.
    Now, you were also a vocal proponent as a State legislator 
on Georgia's constitutional amendment prohibiting same-sex 
marriage. You have also raised questions about judicial 
activism. I think the way you put it was you have concerns 
about judges issuing decisions that venture into policymaking. 
I take it that that is what you mean by judicial activism when 
they venture into policymaking that should be left to the 
legislature.
    Judge Boggs. Yes, Senator.
    Senator Hirono. So getting back to Georgia's constitutional 
amendment against same-sex marriage, you do know that that 
constitutional amendment is being challenged.
    Judge Boggs. Yes, sir.
    Senator Hirono. So if the constitutional amendment is 
struck down by the Federal court, would you consider that court 
to be engaging in judicial activism?
    Judge Boggs. I would not, but to----
    Senator Hirono. Why is that?
    Judge Boggs. To go back to my comments made in 2004 as a 
State legislator, candidly, I did believe that at that time. 
Ten years ago, my comments about judicial activism were that 
judges that were to determine same-sex marriage as 
constitutional would have been engaging in that. Looking back 
on that now, particularly with 10 years being a judge, 10 years 
being faithful to the obligation to follow stare decisis, 10 
years of looking back on a career as a legislator and noting 
the notable differences between both roles, that is what I was 
referring to in 2004. But I do not believe that now, that that 
judge that might decide, in Georgia or otherwise, that that 
constitutional amendment is unconstitutional would be engaging 
in judicial activism.
    Senator Hirono. So would you consider judicial activism in 
the context of if it were a lower court that were doing things 
that did not comport with what you viewed as what the Supreme 
Court, the U.S. Supreme Court held, that that would be deemed 
judicial activism? For example, when our Supreme Court decided 
Lily Ledbetter or decided Citizens United, would you consider 
those decisions judicial activism? Because they did take a lot 
of people by surprise, to say the least.
    Judge Boggs. No, Senator, I would not, and the difference 
is my view of judicial activism as a legislator versus my view 
of judicial activism as a judge. I have grown in my job as a 
judge to respect the role of judges to decide those cases based 
on the facts presented before them. When I was a legislator, I 
was not a judge. I did not have an obligation to be faithful to 
the rule of law. I was not making decisions in that capacity. 
And so I think the crux of the distinction is determining what 
I was at the time I made those comments.
    But certainly you are correct: Comments I made in 2004 were 
reflective of the sentiment you expressed.
    Senator Hirono. Except that as a judge, though, you will be 
confronted with cases before you that the decisions that you 
make on those cases could be deemed and described by State 
legislators, like you were, as engaging in judicial activism. 
And you can see that possibility as a Federal judge.
    Judge Boggs. Sure, Senator. Judges at all levels of court 
in my State or any State are routinely criticized for making 
unpopular decisions, maybe making decisions that legislators do 
not believe are appropriate. I have been in legislative 
hearings when that has happened, and I have been a judge where 
I have heard that happen.
    The difference is a judge that shows faithfulness to the 
rule of law is going to apply precedent faithfully, and while 
it is true those issues, the equal rights issues, have not come 
before me on a regular basis as an appellate judge, the 
jurisdiction that I have on the court of appeals is broad. We 
heard appeals from every class of course, and in each instance 
I have been faithful to follow the rule of law and to apply 
precedent.
    Senator Hirono. So you could as a Federal judge engage in 
what some legislators may consider to be judicial activism 
based on the facts of the case and what is presented to you?
    Judge Boggs. I cannot presume what a State legislator might 
think about any decision I made----
    Senator Hirono. One like you.
    Judge Boggs [continuing]. as an appellate judge. Well, one 
like me very well may criticize me. But what I would say to 
that is that I have shown a dedication to the Code of Judicial 
Conduct in Georgia and never decided cases based on public 
clamor or fear of criticism. And I commit to you that I would 
continue to be faithful to those obligations.
    Senator Hirono. Just for clarification, then, as a State 
court judge, have you had cases dealing with marriage equality, 
equal protection for gays and lesbians? And I think you did 
note that you had one case involving a minor seeking an 
abortion. So as to marriage equality cases, equal protection of 
gays and lesbians, have you had as a State court judge any 
cases in those areas?
    Judge Boggs. I have had one, Senator, that it is an 
adoption case that the record is sealed, and I would not want 
to do anything to jeopardize the rights of the mother or--but I 
will tell you that I did have a case as a trial court judge 
several years ago wherein a woman who identified herself as a 
lesbian and identified her partner before me in chambers 
requested that I approve her adoption of a child from foster 
care.
    Georgia law is particular with respect to juvenile court 
matters and particular with respect to adoptions, and we are--
it is sacred that we maintain the fidelity of our laws in that 
those records are sealed. I do not know what she may have told 
family or others in her community concerning her sexual 
orientation. It is irrelevant to me. But I do know that I was 
presented with that case by a lawyer that told me that he had 
presented that case to our circuit's chief judge and our 
circuit's chief judge refused to hear that case. So he came to 
me, the junior judge in the circuit. And I heard the case. I 
listened to her evidence, her fitness to be an adoptive parent. 
I listened faithfully and impartially to the evidence presented 
by the Department of Family and Children's Services, and I 
approved the adoption.
    And as I have said routinely, I am faithful to follow the 
law. That was the appropriate decision to make in that case, 
not because of her sexual orientation but because the facts 
warranted it. She was capable of taking care of this child. She 
had shown an ability to take care of the child through the 
foster care program. DFACS had indicated that every time they 
conducted a home evaluation, her home was clean and she was 
capable of taking care of the child. I handled that case as I 
would for any other petitioner concerning adoptions.
    Senator Hirono. Thank you. My time is up. Thank you.
    Senator Blumenthal. Thank you, Senator Hirono.
    Senator Coons.
    Senator Coons. Thank you, Senator Blumenthal. I would like 
to thank all of the nominees who appear before us this morning. 
Thank you for the opportunity to join what I understand has 
been a vigorous exchange with other Members of the Committee, 
and I would like to thank Senator Blumenthal for chairing 
today.
    First, if I might, I would just like to ask each of you in 
turn if you would offer what comments you wish on what role you 
think you would have as a member of the Federal judiciary in 
ensuring equal access to justice and ensuring fair and balanced 
treatment of all litigants who might appear before you, and 
what in your experience gives us some confidence that you will 
make that a priority in your service, if we might, Ms. Abrams, 
welcome, and from you to your left, that would be wonderful. 
Thank you.
    Ms. Abrams. Thank you, Senator. As I have stated, I believe 
that my role as a judge, if I am confirmed, will be to fairly 
and impartially apply the applicable law to the individual 
facts of each case, and that would necessitate that I be fair 
and impartial with each person that comes before me.
    I believe that throughout this process people have talked 
to lawyers who have appeared opposite me, and I think that my 
interaction with them, my attempt to be fair in all cases, even 
as a prosecutor, to see the full picture, not disregarding my 
duty as a prosecutor and as an advocate for the Government, but 
to be fair and to be considerate of what was going on, and I 
believe that lawyers who have worked with me on the other side, 
and I believe judges whom I have appeared before would say that 
I do attempt to be fair and balanced, and I would carry that 
into being a district court judge if I am confirmed.
    Senator Coons. Thank you.
    Judge Boggs.
    Judge Boggs. Thank you for the question, Senator. Equal 
access is kind of a broad topic. I view equal access to the 
court as being a model of efficiency, and that is that the 
judge has an obligation to move cases through the system so 
that cases do not languish, so that litigants have an 
opportunity to bring closure to their cases. The efficiency of 
the judicial system is bent on that, and I think it is 
necessary. You have corporate litigants that have no closure to 
cases because cases are not moving, and so equal access means a 
lot of things. It means that the judge should remain active--to 
me, the judge should remain active in the case, move cases 
forward, set reasonable deadlines, but also move the court into 
a system that is more efficient, and that may mean--for 
example, when I was a trial court judge, I dealt with the drug 
court program to move some of the felony cases off the original 
docket, the main docket, criminal docket. It also may mean 
that--I supported pretrial diversion programs. I supported 
mandatory mediation in civil trials where juries had been 
requested--all models built on allowing equal access by 
improving how quickly people could get to court.
    With respect to ensuring everyone is treated fairly, I 
think the best evidence I could give you of that would be my 
record as a trial court judge and appellate court judge, where 
I have an unblemished record of having ensured that everybody 
that appears before me is treated equally, with an unbiased and 
an impartial application of the law to the facts of their case. 
And that is what has prepared me, I think, to model that if I 
were fortunate enough to get confirmed on the district court.
    Senator Blumenthal. Thank you, Your Honor.
    Mr. Cohen.
    Mr. Cohen. Senator, if I am fortunate enough to be 
confirmed, the oath that I would take provides that I would 
administer justice without respect to person and to equal 
rights to the poor and to the rich, and I would take that very 
seriously. I think that is a cardinal fact that any Federal 
judge has to consider when he or she is presiding over a case.
    I think it is also important, just looking at my record, a 
lot of us attorneys in private practice have done pro bono 
work, and I certainly have done some with respect to working 
through the Atlanta Bar Association's eviction defense program 
and representing people who are being unjustly thrown out of 
their apartments. And also for many years I served on a board 
of a wilderness group that provided for alternative sentencing 
for juveniles that, frankly, should not have gone into a 
juvenile detention facility but deserved to go to a program 
where they can get education and work to keep themselves out of 
the adult prison system down the road.
    So also as a district judge, we have the Federal Defender 
Program in the Northern District of Georgia, and I, of course, 
would, in accordance with the rules in the Northern District, 
whenever a defendant came before me, make sure that that 
defendant had the opportunity not only for counsel but 
obviously to notify the Federal Defender Program if they could 
represent that person.
    Senator Coons. Thank you.
    Ms. May.
    Ms. May. Thank you, Senator Coons. Throughout my time in 
private practice, I have mainly been handling plaintiff's 
litigation. So in terms of my work experience, I oftentimes 
represent people that are not familiar with the court system 
and have to kind of take them through what is going to happen 
and educate them about the civil system. So from that 
standpoint, I have experience in those areas.
    Along with my colleagues, I do believe the most important 
part of equal access is to treat everyone fairly before the 
law, no matter what their circumstances are. But there are some 
concrete activities that the judges can do to make that more 
likely. For example, courts on their websites can provide links 
to different resources that pro se people can utilize. Judges 
in their standing orders can provide more detail for folks 
represented pro se so they can learn more what is expected of 
them in the courtroom.
    I also believe a judge has a responsibility to encourage 
pro bono work and to be out in the community and speaking on 
issues about equal access to the courts. And in my own career, 
I have been very active in pro bono activities.
    Thank you.
    Senator Coons. Thank you. Ma'am.
    Judge Ross. Thank you. You cannot see my nameplate.
    Senator Coons. Yes, forgive me.
    Judge Ross. Eleanor Ross. That is fine, Senator. Thank you 
so much.
    Senator Coons. Forgive me.
    Judge Ross. That is no problem at all. As a State court 
judge, I have concerned myself very much with equal access. 
First of all, we do have a lot of pro se litigants in State 
court, so it is important to assure that they know all of the 
resources available to them, including the services of the 
public defender and legal aid as well as the law library.
    Also, in terms of fairness, I have demonstrated as a State 
court judge that I am very fair and respectful to the litigants 
who appear before me, whether they are pro se litigants or the 
most well versed, well-known attorneys.
    So it is a pattern that I have demonstrated time and time 
again as a State court judge, and if I am fortunate enough to 
be confirmed as a district court judge, I would definitely 
continue it.
    Senator Coons. Thank you, Your Honor.
    Judge Ross. Thank you, sir.
    Senator Coons. Judge Boggs, if I might, I have a few 
questions rooted in your record that I wanted to get to, if I 
might.
    Judge Boggs. Yes, sir.
    Senator Coons. You cast a vote when a member of the Georgia 
Legislature to approve posting profiles of abortion doctors 
online, and there has been some exchange about that. What, in 
your opinion, motivated your vote for that measure? And how 
could I understand that measure as being anything other than an 
intent to burden a woman's right to choose?
    Judge Boggs. Thank you for the question, Senator Coons. I 
was motivated by a very strong desire to represent the will of 
my 38,000 constituents in south Georgia who were predominantly 
pro-life. Those issues were important to my constituents. That 
amendment, albeit an amendment that I did not have very much 
time to consider and for which I have expressed regret for not 
having been more considerate of that vote, in the end of the 
day the motivating factor for my vote on pro-life issues in 
general was motivated by my desire to represent my 
constituents.
    Senator Coons. You in 2012 completed a judicial 
questionnaire in your application to the court of appeals on 
which you now serve, and you stated, and I think I quote, ``The 
judiciary continues to endure criticism, fairly earned in some 
cases, of abrogating their constitutionally created authority 
by issuing decisions that venture into policymaking.'' This is 
the question of activism by the judiciary.
    If you could, just help me understand. Did you believe the 
Georgia Supreme Court was being inappropriately activist when 
they struck down Georgia's sodomy law in Powell v. State or the 
U.S. Supreme Court in Lawrence v. Texas? Were they being 
inappropriately activist in the way you detailed there?
    Judge Boggs. No, sir.
    Senator Coons. Could you name three or four cases where you 
believed the judiciary has fairly earned criticism for, as you 
put it, abrogating their constitutionally created authority? 
What cases did you have in mind?
    Judge Boggs. At the time I made not necessarily those 
comments but other comments on the floor of the House as a 
legislator, I had in mind judges that were declaring same-sex 
marriage as constitutional, candidly. That is what I thought as 
a legislator. That is the cases that I was referring to, those 
States where judges had declared that law constitutional.
    Looking back on that, particularly now, 13 years later, and 
particularly now, with the benefit of having been a judge for 
10 years, the concept of activist judge that I had as a 
legislator is no longer prevalent in my mind-set.
    Senator Coons. You said, I believe, earlier today in an 
exchange with Senator Blumenthal that it would be inappropriate 
under Georgia's Canon of Judicial Ethics, or perhaps under the 
Federal Canon of Judicial Ethics as well, to convey to this 
Committee where you stand on particular issues, yet those same 
canons would have applied to you as a judicial candidate in 
2004 when you made a public announcement in a candidate forum 
about where you stood on issues like same-sex marriage. Was 
that a violation of the Canon of Judicial Ethics?
    Judge Boggs. I do not know. I would leave that to the 
Judicial Qualifications Commission in Georgia. I will tell you 
that, in looking back on those comments made while I was still 
a legislator but also seeking the job of judge and, candidly, 
probably after I had qualified for the position of judge, I 
regret that I was not more articulate and artful in crafting an 
explanation to my constituents that reflected my understanding 
of the role of a judge, looking back on it.
    Senator Coons. The Georgia Canon of Judicial Ethics states 
a judge or a candidate for election to judicial office shall 
not make a contribution to a political organization, and a 
political organization is defined as ``a political party or 
group the principal purpose of which is to further the election 
of a candidate to office.''
    Would you consider Georgia Conservatives in Action to be a 
political organization under that definition?
    Judge Boggs. Senator, I would have to look at it. I am 
not--I am familiar with that organization, but not enough with 
regard to tax status and otherwise to determine if they meet--
--
    Senator Coons. You are familiar with it because your 
campaign committee perhaps made a contribution to it in 
September 2012, and my understanding is that Georgia 
Conservatives in Action endorses political candidates, 
including a candidate for the U.S. Congress. That is an issue 
that is of some concern to me in terms of crossing, I think, a 
line that is fairly clear.
    Canon 7-A of the Georgia Canon of Judicial Ethics also says 
that a candidate shall not publicly endorse a candidate. When 
did you announce your candidacy for superior court judge?
    Judge Boggs. Senator, I do not recall. It would have been 
sometime in 2004.
    Senator Coons. And at that point, were you a member of the 
Bush-Cheney Democrats for Bush National Steering Committee?
    Judge Boggs. To my knowledge, I have never been a member of 
that committee. It was only throughout this process that I 
discovered I had been listed, and I believe my listing, without 
my permission or even knowledge, was by virtue of me having 
attended a meeting prior to President Bush's fundraiser in 
Georgia. I did not attend the fundraiser. I did not make any 
political contribution. I did go back and having now seen that 
I was a member of that committee, 13 years later, and realized 
that everybody that attended that, with the exception of one 
member, was listed. Again, it was done without my authority. I 
had no knowledge of it.
    And as to your comments back on Conservatives in Action, at 
the time I made a contribution from my campaign, judicial 
campaign, to Conservatives in Action, I had no knowledge of 
their sponsorship or endorsement of any candidates for elective 
office.
    Senator Coons. I appreciate your answers to these 
questions. I may have others for the record, and, Mr. Chair, I 
appreciate your forbearance in the time I have taken. I do 
think there is a voluminous record here that well bears 
consideration. I appreciate your testimony today. And to the 
rest of the panel, thank you very much for your testimony as 
well.
    Senator Blumenthal. Judge Boggs, the questions that you 
have been asked by Senator Coons lead me to one last set of 
questions, and I promise they will be brief.
    On the topic of judicial activism and the right to privacy, 
you may recall in February 2004, in your capacity then as a 
State legislator, you spoke on the floor of the Georgia House 
of Representatives in favor of a resolution calling for a 
proposed constitutional amendment that would have banned same-
sex marriage. And in support of that resolution, you said to 
your colleagues that they should recognize the ``dangers'' 
posed by ``activist judges and mayors operating in derogation 
of current State law.'' And you cited as an example of that 
activism and derogation of State law a decision by the Supreme 
Court of the State of Georgia in the 1998 case of Powell v. 
State. You may recall in that case the Georgia State Supreme 
Court struck down the Georgia sodomy statute that imposed 
sentences of 20 years to people who engaged in consensual sex 
in the privacy of their own homes.
    And my question to you is: Number one, do you think the 
Georgia Supreme Court wrongly decided Powell in striking down 
those laws?
    Judge Boggs. I do not now, no, sir.
    Senator Blumenthal. You did then but you do not now?
    Judge Boggs. My views have changed and my roles have 
changed. As a legislator, talking about activist judges was 
quite markedly different than what I believe now, yes.
    Senator Blumenthal. And you would not now support a 
constitutional amendment banning same-sex marriage, I take it.
    Judge Boggs. No, sir. I mean, my position on that issue, 
whatever it might have been then and whatever it is now, 
though, however, has no import whatsoever on how I decide 
cases.
    Senator Blumenthal. In that speech in 2004, you cited Judge 
Carley's dissent in Powell, and you cited his dissent as 
evidence of the potential dangers of judicial activism. And I 
wonder whether you would agree now with Justice Carley, who 
wrote in that dissent, ``A constitutional right to privacy 
obviously cannot include the right to engage in private conduct 
which was condemned as criminal at the very time that the 
Constitution was ratified.'' I will repeat it for you.
    Judge Boggs. Please.
    Senator Blumenthal. ``A constitutional right to privacy 
obviously cannot include the right to engage in private conduct 
which was condemned as criminal at the very time that the 
Constitution was ratified.'' You cited that dissent with 
approval in support of a view that, in effect, Powell was 
wrongly decided. And I would just point out that Georgia had 
many statutes, including criminalizing sexual relationships in 
marriages between people of different races at the time the 
Constitution was passed, and Justice Carley's dissent would 
indicate that the right to privacy would cover none of those 
kinds of private consensual acts now.
    Judge Boggs. I think to the extent that you are asking me 
to agree or disagree with my opinions about Justice Carley's 
dissent, I have not read that dissent in 10 years. My personal 
views on that are irrelevant, but I would say this: To the 
extent his opinion has been conflicted by decisions from the 
Supreme Court, I would follow the decisions of the Supreme 
Court. And while I have respect for Justice Carley, a very good 
friend of mine, formerly on the Georgia Supreme Court, my role 
as judge would be to apply precedent.
    Senator Blumenthal. Thank you.
    You know, I want to close by thanking all of you as 
potential and likely district court judges because you are 
really going to serve as the protectors and guardians of our 
Nation's legal conscience, and I am reminded of that fact, 
thinking of Judge Frank Johnson, who was invoked--his memory 
was invoked by Senator Durbin. You know Judge Johnson's 
history. He was more than an icon. He was really a hero. And I 
think he is the reason that many of us chose this career, chose 
to be trial lawyers or prosecutors, because of his conscience 
and conviction and courage standing up to ostracism, physical 
threats, and violence.
    And so I hope that you will take this responsibility--I 
know you will take it seriously because you are truly going to 
be the voice and face of justice for the people who come into 
your courtrooms. So I want to thank you for the long hours that 
you will spend, your willingness to serve, your families again 
who are here today, your friends who have supported you, to the 
Senators of your State, Senators Chambliss and Isakson, for 
their leadership in making your nominations possible, and to 
the President of the United States for his faith in your 
ability to serve.
    And with that, I am going to adjourn this hearing. The 
record will be kept open for 1 week, and thank you all for 
attending.
    [Whereupon, at 12:10 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




  NOMINATIONS OF ANDRE BIROTTE, JR., NOMINEE TO BE DISTRICT JUDGE FOR
                  THE CENTRAL DISTRICT OF CALIFORNIA;
                   JOHN W. deGRAVELLES, NOMINEE TO BE
DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF LOUISIANA; RANDOLPH D. MOSS, 
 NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF COLUMBIA; HON. ROBIN 
L. ROSENBERG, NOMINEE TO BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF 
FLORIDA; AND HON. RONNIE L. WHITE, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                      EASTERN DISTRICT OF MISSOURI

                              ----------                              


                         TUESDAY, MAY 20, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Dick Durbin 
presiding. Members present: Senators Feinstein, Durbin, and 
Grassley.
    Also present: Senators Landrieu, McCaskill, and Nelson, and 
Delegate Holmes.

             OPENING STATEMENT OF HON. DICK DURBIN,
                  A U.S. SENATOR FROM ILLINOIS

    Senator Durbin. This hearing of the Senate Judiciary 
Committee will come to order. Today we will consider five 
highly qualified nominees to the Federal bench, including Andre 
Birotte, who has been nominated to be District Judge of the 
Central District of California; John deGravelles, nominated to 
the Middle District of Louisiana; Randolph Moss, nominated to 
the District Court for the District of Columbia; Robin 
Rosenberg, nominated to the Southern District of Florida; 
Ronnie White, nominated to the Eastern District of Missouri.
    At these hearings it is traditional for nominees to be 
introduced before the Committee by Senators from their home 
States. For Mr. Moss's nomination, Congresswoman Eleanor Holmes 
Norton will provide an introduction, upon her arrival.
    And unless the Ranking Member has any opening remarks, we 
will allow the Senatorial introductions to commence.
    Senator Grassley. I am going to put my statement in the 
record.
    [The prepared statement of Ranking Member Grassley appears 
as a submission for the record.]
    Senator Durbin. Thank you very much, Senator Grassley.
    Senator Landrieu, do you have a time problem with another 
hearing coming up?
    Senator Landrieu. I do, Senator, thank you. I am chairing a 
hearing in 15 minutes, if I could proceed.
    Senator Durbin. If you will beg the indulgence of your 
fellow colleagues sitting at the table.
    Senator Landrieu. With the courtesies of my colleagues, 
thank you.
    Senator Durbin. Senator Landrieu.

    PRESENTATION OF JOHN WHEADON deGRAVELLES, NOMINEE TO BE 
 DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF LOUISIANA, BY HON. 
   MARY LANDRIEU, A U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Landrieu. Thank you so much, Mr. Chairman, and I 
appreciate the courtesies of my colleagues to introduce Mr. 
John Wheadon deGravelles, a nominee for Article 3 Judge on the 
U.S. Middle Court in Louisiana.
    I was so pleased to recommend this nominee to President 
Obama, and I am very happy and proud to introduce him to you 
all today.
    He is affectionately known as Johnny. He is joined by his 
loving wife of many years, Jan deGravelles; his two children, 
Neale and Kate, who are both lawyers; his sister, Ann Norton, 
and close family friends who are here with him today.
    Johnny has earned the support of the President of the 
United States and both of his home-state Senators on the basis 
of his impressive legal career over a long period of time.
    Decades of Federal Court experience have brought him to 
this Committee with an unquestionably even and fair handed 
temperament recognized by all.
    Johnny was born in Lafayette, although he is a current 
resident of Baton Rouge. When he graduated with his degree from 
LSU, he graduated with top honors. For 24 years he has 
practiced at an extraordinary law firm, of which he helped to 
found and continues in that today.
    In addition to all of that work, Mr. Chairman and Ranking 
Member Grassley, I wanted to call to your attention, he has 
always come to my attention over many years, but particularly 
after Katrina, Johnny really stepped up as a leader in the 
legal community to help all of the many lawyers that were 
dislocated from their homes, from their practices, during that 
great disaster which we are still recovering from along the 
Gulf Coast.
    He was a Fulbright Scholar; he has been recognized for 
outstanding professional excellence by the Louisiana Trial 
Lawyers Association and the Council for a Better Louisiana. He 
has written numerous articles and publications. His civic 
engagement is really extraordinary.
    And I think, for the good humor of this Committee, and we 
always like to have well-rounded nominees, please let the 
record reflect that he is a legendary guitar player. And he 
plays blues, gospel, country and rock and roll. He once opened 
for the legendary Aaron Neville at a band concert in Angola 
Penitentiary, an experience he describes as going to rock and 
roll heaven.
    So anyway, he is a wonderful guy with a great sense of 
humor, with a terrific background in law. And I could not be 
more proud to present him to this Committee for your 
consideration today.
    And thank you so much, Senator Durbin and Senator Grassley.
    Senator Durbin. Thank you, Senator Landrieu.
    Senator McCaskill.

        PRESENTATION OF HON. RONNIE L. WHITE, NOMINEE TO
         BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF
       MISSOURI, BY HON. CLAIRE McCASKILL, A U.S. SENATOR
                   FROM THE STATE OF MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman. I am here today 
to introduce my friend and highly respected jurist and attorney 
in the State of Missouri.
    Judge Ronnie White earned his political science degree from 
St. Louis University in St. Louis, and then graduated from the 
University of Missouri Law School. During law school, he 
actually interned in the Jackson County Prosecutor's Office, 
where I began my legal career.
    He went on to return to St. Louis and worked at the 
Department of Defense Mapping Agency and also served as a trial 
attorney in the Public Defender's Office in both the City and 
County of St. Louis. In 1987, he entered private practice and 
during this period of time he was elected to the Missouri 
Legislature and served three terms in Jefferson City.
    He served as Chairman of the House Judiciary Committee, the 
House Ethics Committee and the Committee on Civil and Criminal 
Justice during his time in Jefferson City.
    In 1993, he was appointed to the position of City Counselor 
for the city of St. Louis. While serving as City Counselor, he 
argued a case before the Supreme Court of Missouri. One month 
later, he was appointed to the Missouri Court of Appeals, 
Eastern District.
    And then later, Judge White was appointed by Governor Mel 
Carnahan to be the first African-American to serve on the 
Missouri Supreme Court, in October 1995. He went on to be 
selected and serve as Chief Justice of the Missouri Supreme 
Court between 2003 and 2005.
    He also currently serves as an adjunct faculty member 
teaching trial practice and procedure at Washington University 
School of Law in St. Louis, Missouri. I will not take the time 
to cite all the community boards and commissions that Judge 
White has served on during his incredible career of public 
service in our State, and I will not go through all of the 
awards he has gotten, honorary degrees and other recognition.
    He currently is in the private practice of law, but 
continues to be a shining star to thousands of Missourians 
because of his career, which has really been emblematic of hard 
work, courage, dedication and service to public before self.
    He has never forgotten that his job as a successful 
attorney, lawyer and judge is about the community he serves, 
and not about him.
    Now, that is all the resume stuff. He is just a really good 
guy. He is probably the gold standard for ethical conduct as a 
sitting member of the bench in our State. And because he was a 
first, he had a lot of pressure on him in various ways. He has 
withstood that pressure and done his job without fear or favor.
    I can think of no one in the State of Missouri--and I mean 
that literally--no one in the State of Missouri that is more 
deserving of this appointment to the Federal bench than my 
friend, Ronnie White.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator McCaskill.
    Senator Nelson.

PRESENTATION OF HON. ROBIN L. ROSENBERG, NOMINEE TO BE DISTRICT 
   JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA, BY HON. BILL 
        NELSON, A U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Nelson. Mr. Chairman, I cannot help but reflect 
here, since I have been in front of this Committee many times, 
that this is a process that works. And it is a process that 
sets us, the United States, apart from so many other 
judiciaries around the world. As a result, we get the best, the 
testimony that you have just heard about the two other judges.
    And I want to commend Senator Grassley. When he had doubts 
about a recommendation from the Senators from Florida on a 
previous nominee, Senator Grassley was kind enough and he was 
judicious enough to go in and do a thorough examination and to 
listen to the arguments. So it is a process that works.
    We in Florida try to make it work even better by taking the 
politics out of the selection, as Senator Rubio and I have this 
Judicial Nominating Commission that does all the interviewing 
and that picks three. And then the President agrees that he 
will pick from among the three for the Federal District judges.
    Now, sometimes the process takes a long time, as it has 
been in the case of Judge Rosenberg today, whereas we had had 
starts and stops on different vacancies. But the process works.
    And so I am bringing to you, on behalf of Senator Rubio and 
me today, a State judge--we call them Circuit Judges--where she 
has served since 2007. And prior to that, was the partner in a 
law firm. She started her legal career, as so many of our 
judges do for the excellent training, as a law clerk. And in 
this case, it was a Federal District judge. Prior to that, an 
assistant city attorney, trial attorney in the Civil Rights 
Division of the Justice Department, capping off an education of 
a J.D. and an M.A. from Duke and Princeton. Judge Robin 
Rosenberg is joined by her husband, Michael McAuliffe, and 
their three children. Where are the children? There you are. 
And her dad, whom I know personally, Dr. Marvin Rosenberg. And 
so I bring you an extremely qualified nominee--and thank you 
all for making this system work.
    Senator Durbin. Thank you very much, Senator Nelson.
    Now, from the District of Columbia, Delegate Eleanor Holmes 
Norton.

        PRESENTATION OF RANDOLPH D. MOSS, NOMINEE TO BE
        DISTRICT JUDGE FOR THE DISTRICT OF COLUMBIA, BY
        HON. ELEANOR HOLMES NORTON, A DELEGATE FROM THE
                      DISTRICT OF COLUMBIA

    Delegate Norton. Thank you very much, Mr. Chairman.
    My Judicial Nominating Commission had several well-
qualified candidates before them. They forwarded them all to 
me, but Randolph Moss, whom I introduce today, stood out for 
his exceptionally well-qualified background.
    Randolph Moss is a partner today in the law firm of Wilmer, 
Cutler, Pickering, Hale and Dorr. He served for 5 years with 
the Office of Legal Counsel before President Clinton 
recommended him and the Senate confirmed him to be the an 
Assistant Attorney for Legal Counsel in the Office of Legal 
Counsel.
    After his service, he returned to Wilmer, Hale as a partner 
where today he chairs the firm's Regulatory and Government 
Affairs Department, is a member of its Business Trial Group and 
its Litigation Controversy Department.
    Mr. Chairman, Mr. Moss has the kind of background that 
regularly comes before the United States District Court here, 
particularly in administrative and constitutional law involving 
corporate and environmental law, anti-trust, national security, 
patent law, False Claims Act, contracts and commercial 
disputes. In his pro bono capacity, he has represented indigent 
individuals in criminal and civil matters.
    Mr. Moss is highly regarded in the legal profession, has 
been recognized by the Chambers USA and Best Lawyers of 
America, among others.
    He clerked for U.S. Supreme Court Justice John Paul 
Stevens. Before that, for Judge Pierre Leval at U.S. District 
Court for the Southern District of New York. Randolph Moss is a 
graduate of Hamilton College summa cum laude and Phi Beta 
Kappa, and of the Yale Law School, where he served as an editor 
of the Law Review.
    Mr. Chairman, I think you will agree when you hear from him 
why his brilliant legal work and distinguished background and 
reputation led me to recommend him to the President, as I do to 
you this morning.
    Senator Durbin. Thank you very much, Delegate Norton. We 
appreciate your coming over to our side of the Rotunda.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Before I introduce Andre Birotte, whom I recommended to 
President Obama, let me first welcome Ronnie White back to the 
Committee. As I said in 2001, Justice White, I deeply regret 
what happened with respect to your nomination in the late 
1990s. So I just want to say welcome, and to tell you that you 
have my support. I very much hope that you will be confirmed.

  PRESENTATION OF ANDRE BIROTTE, JR., NOMINEE TO BE DISTRICT 
 JUDGE FOR THE CENTRAL DISTRICT OF CALIFORNIA, BY HON. DIANNE 
     FEINSTEIN, A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Let me now introduce Andre Birotte, who 
has earned the ABA's highest rating of Well Qualified. He is 
here with his wife, Rebecca, and his 7-year-old daughter, 
Yanick, and his two sons, Andre III and Jean-Pierre. And I know 
he is a proud family man. We discussed it earlier in his 
career, and he has just done fine in handling both.
    He was raised in New Jersey. He earned his bachelor's 
degree from Tufts in 1987 and his law degree from Pepperdine in 
1991. From 1991 to 1994, he served in the Los Angeles County 
Public Defender's Office, where he represented indigent 
defendants in more than 30 trials.
    From 1995 to 1999, he served as an Assistant U.S. Attorney 
in Los Angeles. From 1999 to 2001, he worked as an associate at 
the private law firm Quinn Emanuel. In 2001, he became 
Assistant Inspector General for the Los Angeles Police 
Department, rising to the position of Inspector General in 
2003.
    Now, the creation of an Inspector General's Office for the 
Police Commission was one of the recommendations of the 
Christopher Commission, which was led by late Secretary of 
State Warren Christopher, and reviewed the performance of the 
Los Angeles Police Department following the beating of Rodney 
King in 1991.
    As Inspector General, Birotte built a strong reputation for 
fairness, and earned the respect of all sides, including the 
law enforcement community. In 2009, then-Los Angeles Police 
Chief Bill Bratton, who is deeply respected on both sides of 
this Committee, wrote to me to express his, quote, ``strongest 
endorsement and support,'' end quote, for Birotte.
    As Chief Bratton said, in the approximately 6 years that I 
have known Andre, ``Our working relationship has been one of 
transparency, cooperation, trust and respect,'' end quote. 
Bratton praised Birotte's judgment as principled and said he 
had done a commendable job as Inspector General.
    In 2009, on my recommendation, Birotte was nominated to 
serve as U.S. Attorney for the Central District of California. 
He was confirmed on February 11th, 2010. His tenure as U.S. 
Attorney, candidly, has been a great success.
    Let me start with national security. As Chairman of the 
Intelligence Committee, I know that efforts by the U.S. 
Attorney's Office in this arena often occur behind the scenes, 
but some of them do result in notable criminal convictions.
    In one case, Birotte's office secured a conviction and 25-
year sentence for a defendant charged with several crimes, 
including a conspiracy to import surface-to-air missiles. In 
another case, a pharmacist was convicted of providing money to 
terrorists with the intent that the money be used to attack 
U.S. personnel overseas, military personnel overseas.
    I am very pleased that Andre Birotte, like many U.S. 
Attorneys, has made national security a top priority. Mr. 
Birotte's office has also focused on gangs and organized crime. 
In fact, during Mr. Birotte's tenure, the Office has secured 
lengthy sentences against members and leaders of several major 
gang and organized crime organizations all across Southern 
California.
    In one case, for example, a street vendor was targeted in a 
gang shooting which severely wounded the vendor and resulted in 
the death of a 23-day-old infant. One defendant, a member of 
the 18th Street Gang, was sentenced to life in prison on 
racketeering charges.
    Recent LAPD statistics show a decrease in gang-related 
crime of 35.5 percent in Los Angeles since 2010. Obviously, 
this is due to the combined efforts of State, local and Federal 
law enforcement. Many deserve credit for it, but it is a 
significant decrease during Mr. Birotte's tenure as United 
States Attorney.
    Birotte's office has also been active in protecting 
Californians against sex crimes and human trafficking. For 
example, a grand jury indicted eight people, four of which were 
alleged gang members, quote, ``on charges related to the sex 
trafficking of teenage girls who were recruited and groomed to 
work as prostitutes across Southern California,'' end quote.
    One of those defendants was sentenced to 30 years in 
prison. He was a gang member who admitted, quote, that he 
``used force, fraud and coercion to cause teenage girls to work 
as prostitutes across Southern California,'' end quote.
    Prosecutors alleged that he not only used his fists, a 
cane, a shoe and other objects against the females, but that, 
quote, ``He also pepper-sprayed one of the victims in her 
face,'' end quote, and, quote, ``put a gun to the head of one 
of the victims.''
    In another case, Birotte's office secured a 25-year 
sentence against a man who molested children, photographed the 
abuse and traded images on the abuse on the Internet. His 
office also secured a 9-year sentence on a civil rights charge 
against a police officer who, following a traffic stop, forced 
a woman into an isolated parking lot and sexually assaulted 
her.
    Birotte also created the Public Corruption and Civil Rights 
Unit of the U.S. Attorney's Office in Los Angeles. Since then, 
several cases have been brought against local officials alleged 
to have taken bribes. One major case is pending, I'm sorry to 
say, against a Democratic California State Senator who is 
alleged to have taken 100,000 in bribes from a businessman and 
from people he believed were associated with a Hollywood film 
studio.
    Another major and very important case alleges serious 
misconduct and obstruction of justice by officers in the Los 
Angeles County jail system. This case is ongoing.
    Americans rightly hold the law enforcement community and 
the rule of law in high esteem. In my view, this requires 
making sure that misconduct, when it does occur, is brought to 
light and action.
    I take the time to outline this because I truly believe 
that Andre Birotte is one of the most outstanding United States 
Attorneys in this Nation and will be a fine judge.
    Throughout his career, he has shown a profound commitment 
to fairness, to the rule of law and to making every decision on 
the merits. And this has earned him, in a big and often 
conflicted city, deep respect from communities from all sides 
of these questions. It is truly amazing.
    He is supported not only by State and Federal law 
enforcement, but by the Central District's Federal Public 
Defender, Sean Kennedy. Kennedy told my selection committee 
that Birotte has, quote, ``incredible judgment,'' end quote, 
and would make a, quote, ``wonderful Federal judge.''
    I agree. I think he is a 10 who will bring exceptional 
skill, reputation and integrity to the Federal bench in the 
Central District. I hope his children are very proud of him, 
and I urge my colleagues to support him.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Feinstein.
    I would now like to ask the nominees to please come to the 
witness table and, if they would remain standing for a moment, 
I will administer the customary oath.
    Please raise your right hand. Do you affirm the testimony 
you are about to give before the Committee will be the truth, 
the whole truth and nothing but the truth, so help you God?
    Mr. Birotte. Yes.
    Mr. DeGravelles. Yes.
    Mr. Moss. Yes.
    Judge Rosenberg. Yes.
    Judge White. Yes.
    Senator Durbin. Thank you.
    Let the record reflect that the nominees have all answered 
in the affirmative.
    I will now give each of you a chance to introduce your 
families and friends who have joined with you today, perhaps 
give a few words of opening remarks and then submit yourself to 
a questioning process.
    Mr. Birotte.

 STATEMENT OF ANDRE BIROTTE, JR., NOMINEE TO BE DISTRICT JUDGE 
             FOR THE CENTRAL DISTRICT OF CALIFORNIA

    Mr. Birotte. All right. Thank you, Senator Durbin.
    Senator Durbin and Ranking Member Grassley, I want to thank 
you and the entire Committee for convening this hearing this 
morning. I certainly want to thank our home-state Senators, 
Senator Boxer and Senator Feinstein.
    Senator Feinstein, I want to thank you for the kind remarks 
this morning, and I want to thank you, your Judicial Advisory 
Committee, your statewide chair, David Casey, for not only this 
nomination here today, but for your support and your trust and 
confidence in me in your nomination of me as United States 
Attorney.
    I certainly want to thank the President, President Obama, 
for this honor, an honor that my family and I will be eternally 
grateful for.
    Speaking of family, I want to introduce, if I may, my 
family that is here today. My wife, Rebecca. I feel very 
fortunate that our paths crossed many years ago, because she 
has brought me joy from that day to the present. My lovely 
children, Andre III, who is nine; Yanick----
    Senator Feinstein. Stand up so we all can see you.
    Mr. Birotte. Andre, can you stand?
    My daughter, Yanick, who is seven, and my baby boy, Jean-
Pierre. With three children, it is never a dull moment, as one 
might imagine, including getting them ready to be here this 
morning. But they bring immense joy to me and in many ways 
inspire me to be the best that I can be each and every day.
    I want to also introduce some good friends that are present 
here today. My very close friend, Lamont Jones, who is present. 
Lamont and I were associates at Quinn, Emanuel. We have been 
best of friends ever since. In fact, he is the godfather of 
Jean-Pierre, and so this trip had the added benefit of 
reconnecting them.
    My good friend Henry Kerner, who is here. Henry, he 
currently serves on the Permanent Subcommittee of 
Investigations for Senator John McCain. He and I met when we 
were both baby lawyers, he as a deputy district attorney and 
myself as a deputy public defender. And despite being on other 
sides of the aisle and trying cases for over a year, we became 
and remain best friends to this day, some 20 years later.
    My brother, Edwin Birotte, in Florida, and my other 
brother, Patrick Birotte and his wife and my nephew and niece, 
Chloe and Patrick, couldn't be here, but they are watching via 
Webcast. And I have a number of friends and relatives that are 
also watching from the West Coast who got up early this 
morning, before their workday started, to watch this. And if I 
could, just want to mention a few names.
    Certainly my mother-in-law and father-in-law, Ernie and--
North. My sister-in-law, Ashley, and Pete Mejia, Rene and 
Rachel Cornejo, as well as good friends Chris and Karen Watson, 
as well as Jim and Jessica Dabney. I also have a number of high 
school friends and colleagues that are also watching via the 
Webcast, and I want to thank them all for doing so here today.
    Certainly last but not least, I want to thank the two 
people without whom I would not be here, my parents, Dr. Andre 
Birotte and Graciane Birotte. I am the proud son of these two 
Haitian immigrants. My parents came over to this country by way 
of leaving Port-au-Prince to Mexico City, where my parents 
learned the language there and my father went to medical school 
there. From there, they went to, of all places, Newark, New 
Jersey, where my father started and built a successful medical 
practice and my mother got her teaching credential and started 
a nursery school that is running to this day.
    My father, he passed away in 1998, although he was present 
to witness a personal dream of mine to become an assistant 
United States Attorney. And my mother, unfortunately passed 
away unexpectedly from a heart attack in October 2011, but she 
was there beaming with pride as I was sworn in as the United 
States Attorney.
    They are the two individuals that taught me everything I 
know about hard work, counting your blessings, the importance 
of an education and giving back to your community. They are in 
every way, shape and form my role models.
    So with that, I want to thank you all again, and I am ready 
to answer any questions you may have.
    [The biographical information of Mr. Birotte appears as a 
submission for the record.]
    Senator Durbin. Mr. deGravelles.

         STATEMENT OF JOHN WHEADON deGRAVELLES, NOMINEE
          TO BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT
                          OF LOUISIANA

    Mr. deGravelles. Good morning, Senator Durbin, Ranking 
Member Grassley, other Members of the Committee. I want to 
thank you very much for having this hearing and giving me the 
opportunity to answer any questions that you may have of me.
    I want to especially thank Senator Landrieu for her very 
kind remarks, and both Senator Landrieu and Senator Vitter for 
their support in this process.
    I want to thank President Obama for this extreme honor of 
being nominated and, hopefully, if fortunate enough to be 
confirmed, to have the opportunity to serve in the Middle 
District of Louisiana.
    I have family members here also, Members of the Committee, 
which I would like to introduce, and some who are not here 
which I would also like to mention.
    First and foremost is my wife and the love of my life for 
44 years, Jan, who is here with me and without whom, whose 
support I would simply not be before you today.
    I have my two children, both of whom are proud members of 
the legal profession, Neale and Kate. I also want to recognize 
my three grandsons: Rainier, who is age seven; Emmett, who is 
age four; and Rhodes, who just turned 1 year old.
    With me today who flew in from San Francisco is my sister, 
Ann McBride Norton. Could not be with me is my sister, Claire 
Cloninger, and my twin brother, Charlie deGravelles.
    I want to especially also recognize my mother, who is 98 
years old and going strong. She is back in Lafayette, looking 
at this proceeding live. Hi, Mom. [Laughter.] And when we had 
Mother's Day recently, I told her that she inspires me every 
day, and she truly does.
    My father died several years ago. He was also a tremendous 
inspiration to me, and I know he would be very excited to be 
here if he were alive, and I know he is also with us in spirit.
    I have very, very good friends here with me today. Charlie 
McBride and his wife, Peggy Debell, who have been great friends 
and of lots of support during this process.
    Finally, I would like to thank my law firm family back in 
Baton Rouge, my law partners and the wonderful and talented and 
hard-working people who help us in our law firm. So thank you 
all.
    And thank you, Senators, for this opportunity.
    [The biographical information of Mr. deGravelles appears as 
a submission for the record.]
    Senator Durbin. Thank you.
    Mr. Moss.

STATEMENT OF RANDOLPH D. MOSS, NOMINEE TO BE DISTRICT JUDGE FOR 
                    THE DISTRICT OF COLUMBIA

    Mr. Moss. Good morning. Thank you, Chairman Durbin. Thank 
you, Ranking Member Grassley. I would like to thank the 
Committee for holding the hearing today, I thank Chairman Leahy 
and Ranking Member Grassley for scheduling this hearing and 
Senator Durbin for chairing it today. I thank Senator Feinstein 
for attending as well.
    I would like to thank Congresswoman Eleanor Holmes Norton 
for her very, very kind remarks, as well as for recommending me 
to the President, and would like to thank the President for the 
honor of this nomination.
    I would like to take a minute to introduce the members of 
my family. My mother, Adrienne Moss, is here today. I am 
someone who could not be more blessed to have such a wonderful 
mother, and I appreciate it every day. I am equally blessed by 
my wonderful wife, Liza, who is here. She is a lawyer at the 
Department of Justice, serves in the Criminal Appellate 
section.
    Unfortunately, my daughter Emily could not be here today; 
she is 21 years old and studying abroad, and having the time of 
her life. My son, Will, is here. Will is missing one of the 
last 3 days of high school to attend today.
    The last time I was before this Committee, Will was 3 years 
old. And to my great fortune and, I think, the great fortune of 
all of us, Will fell asleep in his mother's lap just as the 
hearing was beginning. But Will has assured me that that will 
not happen today.
    My sister, Cindy, is here. She is a neuroscientist, studies 
echolocation in bats. My brother, Eric could not attend today. 
He is a lawyer, Senator Durbin, who lives in Chicago. And I 
would also like to just take a moment to recognize my father, 
who passed away three and a half years ago. There is not a day 
that goes by in which we all do not miss my father terribly. I 
know he would have very much enjoyed being here, and I am very 
sorry that he is not.
    And I would just take a minute, just to thank my many 
friends and colleagues who have taken the time out of their 
days as well to attend today. So thank you.
    Thank you, Ranking Member Grassley. Thank you, Senator 
Durbin.
    [The biographical information of Mr. Moss appears as a 
submission for the record.]
    Senator Durbin. Thank you.
    Ms. Rosenberg.

 STATEMENT OF HON. ROBIN L. ROSENBERG, NOMINEE TO BE DISTRICT 
           JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA

    Judge Rosenberg. Good morning, Senator Durbin and good 
morning, Senator Grassley. I am so honored to be here today as 
a nominee for a U.S. District Court judgeship in the Southern 
District of Florida, which is my hometown where I grew up and 
began my career as a lawyer, clerking for a Federal judge right 
in the U.S. District Court of the Southern District of Florida.
    I want to thank Senator Nelson and Senator Rubio for their 
support of me, and I want to particularly thank Senator Nelson 
for his remarks and acknowledge the long friendship that we 
have shared, that my family has shared with him over the years. 
And, of course, I want to thank President Obama for nominating 
me.
    I want to thank all of the Members of the Judiciary 
Committee for holding this hearing.
    I want to acknowledge some very important people who are 
here today, and I do not think I would be here without them. It 
is why I am who I am, I think, and how I got to where I am. So 
I would be remiss in not acknowledging them.
    First and foremost, as Senator Nelson had pointed out, my 
parents are here from Florida, Dr. Marvin and Baylie Rosenberg. 
They have, throughout their life, at every juncture and every 
stage, instilled in me a hard-work ethic, a commitment to 
public service and a drive to do better, and never made me feel 
that there was something that I could not attain, and I always 
knew their support was with me.
    And so it is why I believe I have been able to pursue the 
things I have in life and to give it 100 percent of who I am 
and what I have to give. And so I want to thank my parents for 
being here and for everything they have done for me.
    Second, with great pride I acknowledge my husband, who is 
behind me, Michael McAuliffe. We have been married for over 20 
years. He has supported me in all of my endeavors.
    We met here in Washington, DC, at the Department of 
Justice. He is my rock and sets the standard high for me and my 
family. He is a well-regarded attorney. He has been a Federal 
prosecutor. He has been an elected State attorney in Palm Beach 
County, and he currently is a general counsel in the private 
sector.
    Not surprisingly, I have to brag about my children as well. 
I have three wonderful children, all of whom are here from 
their various activities and places that they came in from. My 
oldest is Sydney McAuliffe, who just graduated on Friday from 
high school, from the Dreyfoos School of the Arts, and will be 
attending Duke University as a Robertson Scholar next fall. 
Duke is my alma mater from law school and a graduate degree in 
public policy.
    Adin McAuliffe is a sixth grader, 12 years old, who is 
thrilled that Sydney is going to Duke, because he is an avid 
lacrosse player and has been enjoying watching the national 
champions return to the NCAA tournament this year.
    And Madison McAuliffe, who is a ninth grader at Phillips 
Academy Andover, also my alma mater, brings such great pride 
and lights the world on fire with her smile and her 
intelligence and her athleticism.
    I also want to acknowledge some friends who have been able 
to be with--well, I have other family members who could not be 
here, and want to just acknowledge them as well. I have two 
younger brothers, Gary Rosenberg, who is a doctor in 
California, and Jamie Rosenberg, who began Adopt a Classroom, 
the national program, who is in Miami. They each have three 
lovely children and together with my family, we are a very 
close and loving family.
    Others in the audience who I would like to recognize, long-
time friend Richard Ugelow. I began my career at the Department 
of Justice working with and under Richard in the Civil Rights 
Division. And Phil Yore [phonetic] is here, and I worked with 
Phil as well, and I am so delighted that he is here.
    Other special friends are Eva and Sarah Abraham, who flew 
in from Florida to be with me.
    Last, I would like to acknowledge and thank my colleagues 
in the 15th Judicial Circuit in Palm Beach County, where I do 
sit as a State Court judge. I want to thank them for their 
friendship and their support, and all of the other friends and 
extended family members who could not be here today.
    I welcome any questions, and I thank you for conducting 
this hearing and for considering my nomination.
    [The biographical information of Judge Rosenberg appears as 
a submission for the record.]
    Senator Durbin. Thank you very much.
    Mr. White.

STATEMENT OF HON. RONNIE L. WHITE, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE EASTERN DISTRICT OF MISSOURI

    Judge White. Thank you, Senator Durbin and Ranking Member 
Grassley.
    Senator Durbin. Would you turn on your microphone there? 
There you are.
    Judge White. Thank you, Senator Durbin and Ranking Member 
Grassley, for holding this hearing this morning and providing 
us with the opportunity to appear before you.
    I would like to thank Senator Claire McCaskill for the kind 
remarks and for recommending me to the President. And I would 
also like to thank Senator Roy Blunt for his participation in 
this process.
    My son, Ronnie White II, graduated from law school on 
Sunday afternoon and is attending bar prep in St. Louis this 
morning, so he could not be here with me.
    My wife, Sylvia, of 33 years, is at home waiting on the 
movers to bring back all of those things that left our home 3 
years ago when Ronnie went away to school. So she is watching 
on the Webcast and could not be here.
    I also would like to say that my law partners are watching 
on the Web, and a host of friends from Missouri, and they are 
all excited about my opportunity to appear before this 
Committee.
    Thank you.
    [The biographical information of Judge White appears as a 
submission for the record.]
    Senator Durbin. Thank you very much, Mr. White.
    Senator Grassley. Could I ask questions----
    Senator Durbin. Oh. Senator Grassley has a schedule issue, 
so please proceed.
    Senator Grassley. I only wanted to ask Justice White 
questions. I will submit other questions for answers in 
writing, because I have to be on the floor at 10:45, so I am 
not even going to be able to go very deep with you, Justice 
White.
    But history turned out that you were right in the 
controversial decision you were involved in the previous time 
you were before us. I am not going to go through the history of 
the Roper case, but it does bring up the issue of what you 
think about precedent of the Supreme Court.
    And now the Supreme Court has ruled that the execution of 
younger people is a violation of the Eighth Amendment. So I am 
going to have two questions and one statement.
    Before you answer the first question, let me go to the 
second one. I would like to have you explain your rationale for 
joining the Missouri Supreme Court majority in Roper, even 
though binding precedent from the U.S. Supreme Court at that 
time contradicted the holding of the Missouri Court.
    And then a statement I would make, that when you joined the 
majority in Roper, I assume that you were aware the U.S. 
Supreme Court had denied habeas corpus petition in several 
cases, in 2002 and 2003, that raised the same arguments that 
you and the majority of the State Court supported.
    And then my second question is, given your support for the 
Missouri Court's decision in Roper, what can you do to assure 
the Members of this Committee that you are serious about 
respecting the binding precedence of the U.S. Supreme Court?
    Judge White. Ranking Member Grassley, regarding the Roper 
decision, there was a decision handed down by the Supreme Court 
in Atkins versus Virginia that had ruled that the States would 
no longer execute people who are mentally retarded and that 
were found guilty of murder.
    So we applied that rationale to the Roper case, to say that 
maybe the national consensus had evolved to a point where they 
would no longer kill juveniles under the age of 18.
    Senator Grassley. Well then, the Stanford decision was 
binding at that particular time, was it not, in addition to the 
Aiken [phonetic] case? And so I am speaking about the Stanford 
precedent.
    Judge White. Yes, it was, sir.
    Senator Grassley. All right. So then would you summarize 
for us what you can do to assure the Members of the Committee 
that you are serious about respecting binding precedence of the 
Supreme Court? Or, I suppose, what you just told me; you were 
respecting it at that particular time?
    Judge White. At that particular time. Senator----
    Senator Grassley. Go ahead.
    Judge White. Senator Grassley, if I am fortunate enough to 
be confirmed by this Committee, by the Senate, I would follow 
all binding precedent from the Supreme Court and the Eighth 
Circuit Court of Appeals, and that would be my role as District 
Court judge.
    Senator Grassley. All right, thank you.
    Thank you, Mr. Chairman. I have to go.
    Senator Durbin. Thank you very much, Senator Grassley.
    I will have a question of each of the nominees, and then 
other written questions may be sent your way. And if you will 
respond to them in a timely fashion, we would certainly 
appreciate it.
    Justice White, it is not often that the Senate gets a do-
over. And in your case, it is long overdue.
    Judge White. Thank you.
    Senator Durbin. I was new to the Committee when you were 
first nominated to serve on the Federal District Court, and I 
can remember in vivid detail your experience. I do not want to 
dwell on the past. I want to look forward to the future and 
look forward to supporting you again for the Federal District 
Court bench.
    I want to commend Senator McCaskill for nominating you, 
sending your nomination our way through the President, and also 
to Senator Blunt, who, as you have noted, participated in 
bringing you before this Committee.
    It is a rule of the Committee that a blue slip needs to be 
signed by both Senators before a person can come before us, and 
Senator Blunt signed that slip. So at this point, you are here 
today, at least with the tacit approval of Senator Blunt to 
move forward in the process.
    When you were nominated before, the issue that was raised 
during your nomination related to the support of law 
enforcement for your nomination to the Federal bench. I note 
that Chairman Leahy has received a letter on May 13th from the 
president of the Fraternal Order of Police, Missouri State 
Lodge, in relation to your nomination. And without objection, 
it will be placed in the record.
    I would like to quote from that letter. And it reads, 
``From the Missouri Fraternal Order of Police. As the elected 
representative of over 5,400 law enforcement officers across 
the State of Missouri, I am urging your Committee to vote out 
the nomination of Ronnie White for the open judicial seat in 
the U.S. District Court for the Eastern District of Missouri. 
We would then be hopeful the Senate confirms his nomination.
    ``We do not take such stances lightly. As front-line law 
enforcement officers, we recognize the importance, the need to 
have jurists such as Ronnie White, who have shown themselves to 
be tough on crime, yet fair and impartial. As a former Justice 
of the Missouri Court of Appeals and as a Chief Justice of the 
Missouri Supreme Court, Ronnie White has proven that he has the 
experience and requisite attributes to be a quality addition to 
the U.S. District Court. We can think of no finer or more 
worthy nominee.''
    Judge White, this is a compelling letter from what may be 
the largest law enforcement organization in your State.
    Would you please reflect, as an attorney, a judge, a 
justice on Missouri's Supreme Court and someone with life 
experience, on the appropriate role of a judge when it comes to 
dealing with issues of justice, dealing with law enforcement 
and the protections of our Constitution?
    Judge White. I believe the role of the judge, Senator, is 
to apply the law to the facts and to exclude any other personal 
opinions or prejudices he or she may have, and make the 
judgment based on what is before them, nothing more, nothing 
less.
    Senator Durbin. Would you comment specifically on the issue 
of the death penalty, which was raised in your previous 
nomination hearing?
    Judge White. Senator, during my term as a Supreme Court 
judge in Missouri, I have written opinions affirming the death 
sentence. I have concurred in opinions that affirmed the death 
sentence, and I have also signed the appropriate letters to 
carry out executions.
    And I would follow the precedent of the Supreme Court in 
the Eighth Circuit as it relates to the death penalty.
    Senator Durbin. I thank you for that.
    Mr. Birotte, I cannot recall a more positive introduction 
by a Senator of a nominee than Senator Feinstein's introduction 
of your nomination.
    You have served on both sides of the table in the 
courtroom. There are many people who, walking into a court, 
look up at that judge and think, ``I do not have a chance. This 
system is rigged against me. I am poor; I am a minority; I do 
not have the best attorney; I do not have any wealth.'' What is 
your message to that defendant looking up to the potential of a 
Judge Birotte?
    Mr. Birotte. Thank you, Senator Durbin.
    I think the message that I would hope, if I were fortunate 
enough to be confirmed, is that I would provide a courtroom 
that was a forum where anyone, regardless of background, 
ethnicity, wealth, what have you, would receive a fair and full 
hearing in the courtroom, with a well-reasoned, well-researched 
decision. And so for any individual, I would hope that they 
would feel that they would get a fair hearing.
    Having served on both sides of the aisle, if you will, as a 
defense lawyer, prosecutor, civil practitioner and then as 
inspector general, I like to think that that background and 
experience would prepare me well for an opportunity to serve on 
the bench and would afford individuals the sense that I would 
be completely fair and they would get a fully hearing.
    Senator Durbin. One of the things you undoubtedly 
experienced, as many of us who practice have experienced, is 
that some judges with lifetime appointments become imperial and 
believe they are beyond reach of ordinary human beings.
    How do you maintain the dignity of the bench and yet the 
approachability of a system of justice?
    Mr. Birotte. Well, I like to think that my background and 
my reputation would speak to that issue. I have always 
maintained the view that while I am certainly fortunate to have 
the positions that I had, I am a human being and I am no 
different than any other individual that I deal with.
    I may have a title, per se, but I have a background and 
experience that helps me relate to other human beings. And so I 
would like to think that if I were fortunate enough to be 
confirmed as a District Court judge, that would always remain 
with me.
    Those experiences representing individuals, indigent 
defendants, prosecuting individuals, working within the Los 
Angeles City and dealing with the various communities 
throughout that very large city, I think would help keep me 
grounded, if I were fortunate enough to be confirmed.
    Senator Durbin. Thank you.
    Mr. deGravelles--did I pronounce that correctly?
    Mr. deGravelles. Yes, Senator.
    Senator Durbin. After 6 years of French, I ought to get 
something right.
    [Laughter.]
    I find it amazing in your background that you have taken 45 
cases to trial by jury and participated in hundreds, overall. 
You are truly a trial attorney, which is a rarity these days. 
Most trial attorneys seldom have a trial, and you have had many 
in the course of your life. You are engaged in litigation now, 
as you approach this nomination.
    And you have been before many judges and juries. What is 
your observation on the role of the judge and the best judge in 
that circumstance?
    Mr. deGravelles. Well, there is certainly a fundamental 
difference, as you know, Senator, from the role of the advocate 
versus the role of the judge. The advocate has to zealously put 
forth his client's position.
    Bit when you become a judge, it is an entirely different 
matter. You are there to serve everyone in the courtroom, both 
sides of the courtroom. And I believe that integrity best 
describes what a judge should be.
    And by that, I mean not just fairness and not just honesty, 
but approaching every issue, every case, with an open mind, no 
preconceived agenda, no preconceived idea of who should win or 
lose, and simply applying the binding precedent to the facts in 
the case.
    Senator Durbin. Would you say that most of your work in the 
trial court has been as a plaintiff's attorney?
    Mr. Birotte. Yes, it has, Senator.
    Senator Durbin. And I note that you are currently involved 
in litigation related to the 2010 Deepwater Horizon oil rig 
fire that led to 11 deaths in the oil spill in the Gulf of 
Mexico.
    This litigation involves thousands of claimants seeking 
compensation for injury, property damage and economic loss.
    You have also represented the family, I believe, of one of 
the men who was killed on the rig.
    Mr. Birotte. Yes, sir.
    Senator Durbin. Could you give us kind of a background or a 
discussion on this case and your involvement?
    Mr. Birotte. A very, very tragic case, of course, Senator. 
It is the largest natural environmental disaster in the history 
of this country, and it has led to, I think, one of the largest 
pieces of litigation in trials in the history of our country.
    So it is a tragedy, but out of that tragedy I think that 
the United States District Court for the Eastern District of 
Louisiana has done a magnificent job of taking an incredibly 
complicated case, lots of different kinds of laws--as you just 
mentioned, really hundreds of thousands of claimants, legions 
of lawyers and so all sorts of issues, and has done a 
magnificent job of being able to marshal all of that in a way 
which I think is progressing forward
    This particular judge vowed at the beginning of this case 
that he was not going to allow this to be the Exxon Valdez, 
which took some 20 years to get finally to the end of the 
resolution.
    So while this case is not close to being over yet, I think 
it is really a model in terms of complex litigation and how a 
judge can and should handle an extremely difficult and 
complicated case.
    Senator Durbin. Thanks.
    Mr. Moss, you have got quite a background. But one of the 
things in your background stands out, as you might expect, 
representing the great city of Chicago, and that is your 
clerkship for Supreme Court Justice John Paul Stevens.
    Could you comment on that experience and what you learned?
    Mr. Moss. Thanks for the question, Senator. It was an 
absolutely wonderful experience, and I have to say that I have 
been extremely fortunate in both of the clerkships that I had. 
It is hard to imagine sort of a better path.
    I was able to actually clerk on the District Court for 
Pierre Leval, who was one of the great, at that time, District 
Court judges in the country--he is currently on the Court of 
Appeals--and got to see how the District Court worked, and 
learned about that process from a real master in the process.
    And then had the privilege to go on from having clerked on 
the District Court and clerking for the Supreme Court for 
Justice Stevens.
    And I often tell people the story when I went down to 
interview with Justice Stevens and I convinced myself going 
into the interview that there was no way I was going to get the 
job because it was the easiest way to deal with the stress.
    And I remember going back on the train back to New York 
afterwards and thinking to myself, ``I am really disappointed I 
am not going to get this job, because I liked him so much. He 
was such a decent human being.''
    And I think that one of the things that I very much learned 
from Justice Stevens that I think is very important just in 
judges in general is the sense of humility, and that he is a 
public servant, was a public servant, somebody who approached 
every case and gave it his absolute best, not only to reach the 
right decision in each case, but to explain why he reached that 
decision in the case.
    So it is hard to imagine someone who has been as lucky to 
have clerked for two such wonderful judges.
    Senator Durbin. Mr. Moss, last year you signed on to an 
amicus brief in the case of U.S. versus Windsor. This was a 
case in which the Supreme Court struck down the Defense of 
Marriage Act.
    Your brief, which was joined by several former solicitors 
general and White House counsels, as well as other former 
senior Department of Justice officials, argued that it was 
proper for the Court to exercise jurisdiction to resolve a case 
in which the executive branch enforces a law but refuses to 
defend the law in court.
    Since this was such an anomaly, this is so rare in our 
history, tell us about that brief and your decision to sign it.
    Mr. Moss. Thank you, Senator Durbin.
    It is rare, where the executive branch decides to enforce a 
law but not defend it. And it is appropriately rare in the 
overwhelming majority of cases the Department of Justice does 
decide to defend cases and will make whatever reasonable 
arguments it can in defense of the constitutionality of a 
statute.
    The point that we were making in the brief, and as you 
noted, it was a bipartisan group that signed on to the brief, 
was that the Court should exercise jurisdiction in a case like 
that. Because if the Court did not exercise jurisdiction, then 
it left it to the executive branch alone to decide on the 
constitutionality of the statute.
    In our view, it was preferable to have a world in which it 
was the courts that would ultimately have the authority, and 
the Supreme Court that would ultimately have the authority, to 
decide on the constitutionality of the statute.
    Senator Durbin. Thank you.
    Judge Rosenberg, you too have had an amazing career in the 
practice of law. And I will not read through all of the things 
that you have done, but I will note that while you were working 
in private practice at several major law firms, at one point 
before assuming the bench in Florida, you served as a mediator.
    There seems to be a growing trend in American jurisprudence 
toward mediation and arbitration as an alternative to 
litigation.
    What does that say about our system of justice, and those 
who would like to avail themselves of it but think there are 
better alternatives?
    Judge Rosenberg. Sure. Thank you, Senator Durbin, for the 
question and thank you for asking me about a topic, actually, 
that I feel so strongly about.
    Not only was I a certified mediator, but actually began a 
mediation company in Palm Beach County that had about 25 or 28 
mediators who worked as independent contractors--many of whom, 
by the way, were retired judges who were serving as mediators. 
And that also is a common trend. Many judges then go on to 
mediate.
    In the State of Florida, mediation is a requirement, so no 
case actually can go to trial in the State before it goes to 
mediation. And that too has become a growing trend throughout 
the country.
    It does not speak less of our judicial system, but what it 
does show is that there are meaningful alternative ways to 
resolve disputes. I think anyone who has been in a courtroom, 
whether as a judge or as a seasoned trial attorney or U.S. 
attorney, knows the stresses, the burdens, the length of time, 
the cost, the toll that litigation can take on individuals and 
entities.
    And to have an alternative like mediation where parties can 
come together, where communication channels are open that 
otherwise perhaps have not been opened when litigation becomes 
very adversarial, is a very, very important process and 
oftentimes leads to resolution with less cost, with less 
stress, with less burden on the courts.
    Certain cases can only be resolved in court. And if we can 
find a way in which more cases can be resolved through 
mediation--which is a voluntary process, so the parties have to 
want to do it; they have to go to mediation, but no one is 
compelling them to resolve--but they begin to see things about 
their case in ways that perhaps they had not thought about 
before. And they begin to communicate with the other side, 
whether directly or through the mediator; that is a very, very 
important component of the entire litigation process, and I 
firmly believe in it.
    Senator Durbin. So let me ask you about the other side of 
that coin, the arbitration process, where many people may not 
even realize that they have signed away, in many contractual 
relationships, their right to go to court.
    And obviously there are some who believe that it is to 
their advantage not to put a question before a judge or a jury. 
What do you think of that aspect?
    Judge Rosenberg. I think that that is a very good question, 
and I thank you for that.
    I have been in the position, both in my practice of law as 
an employment lawyer, many contracts that are entered into have 
arbitration provisions. So I am well familiar with how a 
provision is put into a contract and to whose advantage one 
might perceive that to be.
    And also there has been a lot of litigation, even in State 
court, on the enforceability of arbitration provisions. And 
many times arbitration provisions are not upheld, because they 
are found to be unconscionable. They are either substantively 
or procedurally found to be deficient.
    And so there are checks and balances, I believe, in place 
to ensure that there is an equal playing field so that when one 
enters into a contractual provision to sign away, if you will, 
their important rights to have a day in court--and that is 
everyone's right--that they do so knowingly, voluntarily and 
intelligently.
    Senator Durbin. Justice White, many lawyers are critical of 
judges for taking way too long to reach a decision, and that is 
what leads them to alternatives, in looking for mediation or 
some other approach.
    I do not know if that reflects the caseload. Maybe it does, 
in some cases that the judges face, the nature of the judge's 
decision process, or just fear of taking on something 
controversial. What has been your experience?
    Judge White. It----
    Judge Rosenberg. Oh, I am sorry. Was that directed to me?
    Senator Durbin. Judge--I will come back to you, but Justice 
White. And then I will come back to you, Judge Rosenberg.
    Judge Rosenberg. All right.
    Judge White. My experience, Senator, has been all of the 
items you just listed go into the factoring of why judges take 
so long to rule.
    But it would appear to me that if a judge is actively 
involved in the case early on, it could lessen some of that at 
the end, because they would have monitored the process of the 
case throughout the time it was in their court docket system.
    So I think if a judge is actively involved, has rule 16 
hearings, watch out for what is happening on case management, 
roll up his or her sleeves and decide motions immediately or 
shortly after they are filed, that those cases can proceed and 
get through to trial or some kind of resolution.
    Senator Durbin. Judge Rosenberg?
    Judge Rosenberg. Sorry for jumping in.
    I think that access to courts is so vitally important. And 
encompassed in access to court is the timeliness of a court's 
ruling. A judge is there to not only make the substantive 
ruling, but to manage a docket and to ensure that cases move 
along.
    In the State court, our caseload is very high. So I have 
been in a civil division in Florida that has had upwards of 900 
cases; a foreclosure division that has had 15,000 cases; and 
now a criminal division that has about 900 cases, with 200 new 
cases coming in every single week.
    And so managing the caseload is a very, very important job, 
I believe, of a judge. And a judge needs to know his or her 
cases. And you can do that in many ways, calling case 
management conferences, issuing a scheduling order.
    Being involved in the case and knowing that the case needs 
to move along in a timely fashion is, I think, very, very 
important so that people who need to have their matters heard 
do have them heard within a reasonable time period.
    Senator Durbin. Mr. Birotte, it was about 30 years ago that 
the Congress and President decided to impose mandatory minimums 
in the sentencing process in Federal courts. And one could 
argue that as a result of that, the Federal prison population 
has increased 500 percent in the last 30 years, leading to the 
point where the United States has more people in prison per 
capita than any nation on Earth.
    We are reviewing that now. In fact, this Judiciary 
Committee recently took up a bill that I have worked on with my 
Republican colleagues on the issue of mandatory minimums.
    You faced this issue as a defense attorney in some fashion, 
but you certainly faced it as a U.S. Attorney and now may face 
it as a member of the Court. What are your thoughts?
    Mr. Birotte. Well, obviously, as you mentioned, you have 
been proactive in this. The Attorney General has spoken on this 
issue. As an employee of the Department of Justice, our job is 
to enforce and act out the will of the Attorney General.
    As a District Court judge, my role would be to follow the 
precedent, whatever the rule of law is at the time. If the 
sentencing guidelines change or if there is a reduction in 
those, I would apply those and I would make sure that I stay 
consistent in that regard.
    Senator Durbin. So I am asking you to reflect on your 
experience as U.S. Attorney, because you were at a different 
point in the process, and you had mandatory minimums on your 
side as a prosecutor.
    We have in Illinois something known as the Illinois 
Innocence Project, which has successfully found many cases 
where people were wrongly convicted. And many times they pled 
to crimes that they did not commit. They feared going in to a 
courtroom, sometimes a black defendant facing an all-white 
jury, sometimes facing a mandatory minimum that was awful in 
terms of its length and duration.
    Reflect on that as U.S. Attorney in how you view that 
issue.
    Mr. Birotte. As U.S. Attorney, we have been very proactive 
in looking precisely at that issue. That is why the Attorney 
General has issued his Smart on Crime Initiative. In his 
remarks outlining the Initiative, he points to a program that 
we have in our district.
    It is called the Conviction and Sentencing Alternative 
Program, where we look at individual cases, individual 
defendants and their individual circumstances and, where 
appropriate, we determine if there were some other outlying 
circumstances that led them to this path.
    So, for example, if someone has a drug or narcotics or 
alcohol addiction, we can get them into a program that will 
help deal with those issues and perhaps, if they complete the 
program, will either rid of that conviction or reduce the 
sentence in that program.
    In fact, I just spoke at our fourth graduation of that 
program. It is something that I have been committed to as U.S. 
Attorney, and I have always thought that it is important to 
look at our sentencing system to make sure that we are 
utilizing it in cases that have the biggest impact on the most 
deserving defendants.
    Senator Durbin. Mr. Moss, one of the things we are finding, 
more at the State level than Federal, are special courts--
veterans' courts, drug courts. And what they are basically 
trying to do is to find some other avenue of justice that has a 
better outcome and really gives a person a better chance than 
they might have in the ordinary criminal justice system as we 
know it.
    What are your thoughts on that?
    Mr. Moss. Thank you, Senator.
    That is not an issue that I have focused on in the past. I 
do think that it is important that, really more as a matter of 
policy than as a judge, that people analyze how best to 
dispense justice and look for the opportunities to do so.
    As a judge, though, of course, the obligation will be to 
simply decide the cases that fall within your jurisdiction, as 
has been defined by the Congress. And if I am fortunate enough 
to be confirmed, that is what I would do.
    Senator Durbin. Thank you.
    Mr. deGravelles, I want to return to that issue of 
mediation and arbitration, because I think that might be 
something of interest in your practice.
    Mr. deGravelles. Yes, it is, Senator. All experienced trial 
lawyers have seen, over the years, an evolution in the 
mediation realm. And when I started practicing law, it was the 
old-fashioned way of writing a letter to the adjustor, picking 
up the phone and negotiations went on and on and on endlessly.
    So while I am a trial lawyer, I also recognize the value of 
mediations. And in the context of a United States District 
Court judge, I think some of these judges have been very wise 
to assign to the magistrates in their courts the duty to 
encourage settlement, to involve the parties in settlement 
discussions and mediations. Because in terms of case 
management, that is oftentimes a very fair and a very efficient 
way to resolve cases.
    So I think mediation is very much in vogue and, I think, 
rightly so.
    Senator Durbin. The last question I will have relates to 
community service and pro bono work.
    As a profession, lawyers, I think, have a special 
responsibility in that regard. And I would like each of you, if 
you would reflect for just a moment on something that you have 
been involved in, a case or a cause involving pro bono work in 
your career.
    Mr. White.
    Judge White. Over the course of my career, I have been 
involved in a number of pro bono actions. Right now, I am a 
member of the Guardian Angels Settlement Association Board in 
St. Louis, which is a social service agency that helps 
underprivileged children get started in life with housing, 
education and food and stuff like that.
    I have also participated as a coach of Little League 
baseball, football, soccer, and I think that is important.
    So that is what I have done in my career.
    Senator Durbin. Judge Rosenberg.
    Judge Rosenberg. I, for the past seven or 8 years, have not 
been able to sit on boards and to be active in the community in 
the same ways that I was before I became a judge, because of 
the ethical constraints placed on a judge.
    Prior to becoming a judge, some of the endeavors that I was 
most interested and active in were a program called the 
Children in Crisis, to help children in need of services. The 
Cystic Fibrosis Foundation, a very close friend of mine has 
died of Cystic Fibrosis and I have devoted a great deal of my 
time, before I became a judge, to starting an organization in 
memory of him. So those are some of the activities prior to 
becoming a judge that have been important to me in my 
community, as well as my children's schools and their 
activities as well, of course.
    Senator Durbin. Mr. Moss.
    Mr. Moss. Thank you, Senator Durbin.
    Over the course of my career, I have been involved in a 
broad range of pro bono matters, both involving civil law as 
well as criminal law.
    One of the observations I would have about pro bono, if it 
is someone who is practicing in a law firm, is that it is not 
only of a great service to the community, but it actually is a 
great service to the younger lawyers in the law firm, to give 
them the opportunity to obtain experiences that they might not 
be able to obtain in very large, complex, paying cases. So I 
think that is another important aspect of pro bono work.
    Senator Durbin. Mr. deGravelles.
    Mr. deGravelles. Yes, Senator, as Senator Landrieu 
mentioned in the introduction, following Katrina, Hurricane 
Katrina, we had many, many lawyers whose homes were destroyed, 
whose offices were destroyed, whose files were destroyed. They 
were entirely displaced and looking really to survive 
professionally.
    And so I headed a committee at the Louisiana Association of 
Justice to assist in finding places for these folks to live, 
finding places for them to practice and helping to rebuild 
their practices and, really, in the circumstance of their lives 
as well.
    In addition, I volunteered to be a pro bono attorney in a 
post-conviction proceeding for a death row inmate at Angola, 
Allen Robertson, and for six or 7 years participated actively 
in his post-conviction proceedings. In fact, we were encouraged 
to do it as civil lawyers because there was a lack of public 
defender-type resources to really do the kind of job that these 
folks deserved.
    Senator Durbin. I might just add, before I ask Mr. Birotte 
the same question, we recently had a hearing on segregation and 
solitary confinement. One of the witnesses had been on death 
row at Angola for 15 years before he was released and 
exonerated for the charges.
    He would not be alive today, were it not for his attorney, 
who begged him not to give up at the very end. And now he is 
back leading a life. So it can make a significant difference.
    Mr. Birotte.
    Mr. Birotte. Senator Durbin, as Inspector General and as 
United States Attorney, I have been limited somewhat in their 
traditional pro bono activities. But what we have tried to do, 
certainly in my time as U.S. Attorney, is to make sure and 
translate that, if you will, to a very extensive community 
outreach campaign.
    We have hosted a host of summits and seminars to educate 
the residents of our district on the various crimes, scams, et 
cetera, to educate them.
    But one program that I think was innovative in our office 
that we did to connect with our community is our participation 
in what is known as a Summer Night Lights program. Every summer 
the Los Angeles Unified School District--or the city of Los 
Angeles, I should say--opens parks.
    The statistics have shown that crime spikes during the 
summer months between Thursdays and Sundays, and the city took 
a leadership role in opening parks from 6 p.m. till midnight on 
those days to provide a forum where the community could engage 
and have a safe venue.
    I participated in that program and got our office to 
participate in that program over the last several years, and we 
have adopted a park in South Los Angeles where Assistant United 
States Attorneys and the staff of our office go out there every 
Thursday night, cook hamburgers, hot dogs, engage in reading 
circles, face painting.
    In fact, this past summer we started a tennis clinic, and 
it was so successful that every Thursday evening we had lines 
of more than 30 or so young folks and adults wanting to learn 
how to play tennis. And it allowed us an opportunity to connect 
with the community in a way that they were not used to.
    In fact, I often tell the story of being out there during 
the summer months and speaking with individuals. And we do not 
really fly the flag, if you will, and tell folks what we do. 
But someone asked, ``What do you do?'' And I said, ``I am a 
lawyer.'' ``Where do you work?'' ``At the Department of 
Justice.'' And his reaction was, ``I thought all you all do is 
put us in jail.'' And my response was, ``We do do that, and we 
do it well.'' [Laughter.] ``But we also believe in the 
importance of engaging in our community so that they see us in 
a different light.''
    Senator Durbin. Thanks.
    Thanks to the nominees and your family and friends in 
attendance today. We will keep the record open for a week. You 
may have a question come your way, and if you have any other 
additional letters or statements and such, they will be entered 
in the record during that period.
    I thank you all for being here today, and this Committee 
will stand adjourned.
    [Whereupon, at 11:12 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
